<html>
<title> - THE NEXT STEP IN AVIATION SECURITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
THE NEXT STEP IN AVIATION SECURITY--CARGO SECURITY: IS DHS IMPLEMENTING 
                                  THE 
               REQUIREMENTS OF THE 9/11 LAW EFFECTIVELY? 

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TRANSPORTATION SECURITY
                     AND INFRASTRUCTURE PROTECTION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 15, 2008

                               __________

                           Serial No. 110-126

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                    

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

44-653 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






























                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

                    I. Lanier Lavant, Staff Director

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON TRANSPORTATION SECURITY AND INFRASTRUCTURE PROTECTION

                 Sheila Jackson Lee, Texas, Chairwoman

Edward J. Markey, Massachusetts      Daniel E. Lungren, California
Peter A. DeFazio, Oregon             Ginny Brown-Waite, Florida
Eleanor Holmes Norton, District of   Gus M. Bilirakis, Florida
Columbia                             Paul C. Broun, Georgia
Yvette D. Clarke, New York           Peter T. King, New York (Ex 
Ed Perlmutter, Colorado              Officio)
Bennie G. Thompson, Mississippi (Ex 
Officio)

                   Michael Beland, Director & Counsel

                   Natalie Nixon, Deputy Chief Clerk

                 Coley O'Brien, Minority Senior Counsel

                                  (II)

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Chairwoman, Subcommittee on 
  Transportation Security and Infrastructure Protection..........     1
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Ranking Member, Subcommittee 
  on Transportation Security and Infrastructure Protection.......    10

                               Witnesses
                                Panel I

Mr. John P. Sammon, Assistant Administrator, Transportation 
  Sector Network Management, Transportation Security 
  Administration, Department of Homeland Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14
Mr. James Tuttle, Director, Explosives Division, Directorate for 
  Science & Technology, Department of Homeland Security:
  Oral Statement.................................................    19
  Prepared Statement.............................................    20
Ms. Cathleen A. Berrick, Director, Homeland Security and Justice 
  Issues, Government Accountability Office:
  Oral Statement.................................................    29
  Prepared Statement.............................................    31

                                Panel II

Captain Paul Onorato, President, Coalition of Airline Pilots 
  Associations:
  Oral Statement.................................................    64
  Prepared Statement.............................................    66
Mr. John M. Meenan, Executive Vice President and Chief Operating 
  Officer, Air Transport Association:
  Oral Statement.................................................    68
  Prepared Statement.............................................    69
Mr. Brandon Fried, Executive Director, Airforwarders Association:
  Oral Statement.................................................    70
  Prepared Statement.............................................    72
Ms. Cindy Allen, Chairman, Task Force on Security, National 
  Customs Brokers and Forwarders Association of America:
  Oral Statement.................................................    77
  Prepared Statement.............................................    78

                             For the Record

SOS Global Express:
  Prepared Statement.............................................     4
Captain John Prater, President, Air Line Pilots Association, 
  International:
  Prepared Statement.............................................     5
Mr. Peter Kant, Vice President, Global Government Affairs, 
  Rapiscan Systems, and Mr. H.B. Miller, Vice President, Smiths 
  Detection, Inc.:
  Prepared Statement.............................................    10


THE NEXT STEP IN AVIATION SECURITY--CARGO SECURITY: IS DHS IMPLEMENTING 
                   THE REQUIREMENTS OF THE 9/11 LAW 
                              EFFECTIVELY?

                              ----------                              


                         Tuesday, July 15, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Transportation Security and Infrastructure 
                                                Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:15 p.m., in 
Room 311, Cannon House Office Building, Hon. Sheila Jackson Lee 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Jackson Lee, Markey, DeFazio, 
Clarke, and Lungren.
    Ms. Jackson Lee. The subcommittee will come to order.
    It is my pleasure to acknowledge the Today Foundation that 
has 16 students here. It is a leadership group from Dallas and 
Tyler. Could you please stand up so we could see you and 
welcome you? Congratulations. We are delighted to have you 
here. Welcome.
    The subcommittee is meeting today to receive testimony on 
``The Next Step in Aviation Security--Cargo Security: Is DHS 
Implementing the Requirements of the 9/11 Law Effectively?'' 
Our witnesses today will testify about TSA's progress in 
meeting the 9/11 Act mandate to screen 100 percent of all air 
cargo on passenger aircraft by 2010.
    I am proud to convene today's hearing to evaluate the 
progress made by TSA in carrying out section 1602 of the 
implementing recommendations of the 9/11 Commission Act of 
2007, which mandates that 100 percent of all air cargo aboard 
passenger aircraft be screened by the year 2010.
    On page 393, it is important to take note of the 9/11 
Commission report that part of the descriptive instructions 
given indicated that TSA also needs to intensify its effort to 
identify, track and appropriately screen potentially dangerous 
cargo in both the aviation and maritime sectors. This Congress 
has taken up the challenge, and therefore this landmark piece 
of legislation will make our citizens safer.
    I am proud that under the leadership of Chairman Thompson 
this committee worked to steer this provision through Congress 
last year. As Chairwoman of this subcommittee, I am ready to 
help ensure that it is implemented properly.
    I want to take this opportunity to recognize the 
significant efforts of Mr. Markey of Massachusetts in making 
this screening requirement a reality. I look forward to 
continuing to work with him on this important issue.
    I am concerned with the implementation of this mandate and 
the status of TSA's pilot program. In particular, I want to be 
sure that the program will be narrowly tailored to ensure the 
least amount of impact on small and medium-sized businesses and 
that TSA will be providing stakeholders with the necessary 
guidance and technologies in order to make implementation 
successful.
    This mandate was not designed to be heavy-handed. Instead, 
it calls for a 3-year phased approach to screening 100 percent 
of cargo carried on passenger planes and lays out clear and 
specific benchmarks. It is with this framework in mind that the 
subcommittee is evaluating whether progress has been made by 
TSA in attempting to reach the benchmarks and for us to help 
ensure that guidance is available to industry stakeholders who 
will be impacted by the implementation of new TSA regulations.
    Allow me to take this moment to thank the Department of 
Homeland Security overall. We as the Homeland Security 
Committee have the responsibility of oversight. But I do want 
to acknowledge that there are hard-working members of this 
Department who just a few years ago became a single department, 
and out of that singleness they had to unify, speak the same 
language and work on the same mission. So we know that they 
have been working hard to secure the homeland.
    We are grateful to the expanded law enforcement, to the 
aviation and transit and maritime and others that address the 
question of security. We have watched as there has been a new 
attitude in making sure that America is safe, and we are 
grateful to have gone since 2001 without a major incident on 
our soil.
    For some who are in this room, this may be a nuisance, 
inspection of air cargo. As we look around the world, as we 
watch the flare-ups, most recently in Afghanistan, the 
difficulties in Pakistan, the challenges in the Mideast, we 
recognize that although we may not be on borrowed time, that 
the responsibility of this particular committee is a bottom 
line, for if something were to occur the question would be what 
were you doing?
    So I express my appreciation to those who will be witnesses 
today, that recognize we are part of a team. To the witnesses 
from the Department, I want to be particularly clear: It is 
vital that this subcommittee be informed of any difficulties 
that have arisen in implementing this mandate. This is to 
happen if we are to work in an oversight manner and to ensure 
that we are all traveling the same journey. Unless we are made 
aware of real or potential obstacles, we cannot help you obtain 
the tools and/or the resources you lack and will not look 
fondly on future shortcomings we could have helped to resolve.
    This is not between the committee and staff members and 
industry. This really is a higher goal, responding to the needs 
of securing America, being effective and efficient, but 
certainly doing our job. For that reason, I hope that you will 
be clear and specific about any problems you are experiencing 
or anticipating. I view the relationship between TSA and this 
subcommittee as a partnership, and we are ready and willing to 
provide you with the tools you need. But, again, you need to 
make us aware of the facts.
    This August will mark the anniversary of the enactment of 
the 9/11 Act. As chair of the subcommittee, I think it is 
appropriate to convene this hearing nearly a year after the 
enactment of the 100 percent screening provision to assess the 
progress made by TSA in implementing a critical component of 
this legislation and nearly 7 years since 2001.
    In accordance with the legislation phase-in approach, TSA 
must screen 50 percent of all cargo transported by passenger 
planes in the United States by February 2009 en route to 
fulfilling the 100 percent requirement by 2010. Because the 
implementation of this provision is complex and involves 
numerous stakeholders, it is imperative for Members to inquire 
about TSA's progress and whether TSA is on track to meet the 
mandated 2010 deadline.
    Specifically, I am hoping our witnesses today will address 
the following issues. First, there seems to be a great deal of 
concern regarding the status of TSA's pilot program. We must 
ensure that as an integral part of this program proper and 
timely guidance is provided to industry stakeholders to allow 
them to comply with regulations. Particularly relevant to this 
is the status of the interim final rule. The subcommittee must 
know when this will be released.
    Second, we are concerned that smaller companies with fewer 
resources at their disposal will be unable to comply with the 
program. TSA's existing pilot proposal requires that certified 
screening facilities purchase equipment that can cost anywhere 
from $150,000 to $500,000 per facility. Unfortunately, small 
and medium-sized companies often are not able to invest in such 
expensive equipment, especially if there is no assurance that 
the equipment purchased will meet the requirements set by TSA 
or prove to be effective for implementation of the program.
    Third, we want to know how DHS is evaluating any innovative 
technologies that can be applied to help fulfill this mandate. 
Under the law, the Administrator of TSA may approve measures 
beyond any X-ray equipment, explosive detection system, 
explosive trace detection and canine teams to ensure that cargo 
does not pose a threat to our Nation's aviation security.
    I am interested in learning how DHS is thinking outside the 
box about any strategic plan in place for evaluating 
technologies that can potentially enhance security as it 
pertains to this mandate. I will not rest until the 
bureaucratic tape is cut and innovative effective technologies 
can readily be deployed in order to make this task both readily 
possible, but also efficient and effective and successful.
    Finally, we are interested in hearing from industry 
stakeholders who will be affected by TSA's imposed 
implementation plan. While some of these witnesses are engaged 
in the pilot program, others will discuss recommendations that 
should be considered by TSA as it implements regulations and 
works toward fulfilling the 100 percent mandate.
    I look forward to the witnesses' testimony regarding this 
important program, and stand ready for the subcommittee to 
support your vital mission.
    Once again, I would like to thank everyone for their 
participation, and look forward to hearing from our witnesses.
    At this time, without objection, I would like to enter 
three statements into the record. The first is a statement 
submitted by the SOS Global Express; the second is a statement 
submitted by the Airline Pilots Association; the third and 
final statement for the record is a letter from the Vice 
President of Rapiscan and Smiths Detection Technology.
    Hearing no objection, it is so ordered.
    [The information referred to follows:]
                    Statement of SOS Global Express
transportation security administration air cargo on passenger aircraft 
                          screening regulation
Issue One: Support for 100 Percent Screening
    Section 1602 of the Implementing the Recommendations of the 9/11 
Commission Act of 2007 (the ``Act''), Public Law 110-53, requires that 
100 percent of all cargo placed on passenger aircraft undergo security 
screening by August 3, 2010. SOS Global Express, Inc. fully supports 
the Act's screening requirement, which is essential to preserving the 
security of passenger aircraft.
    Section 1602 of the Act sets both a general standard and minimum 
requirements. The general standard requires the Transportation Security 
Administration (``TSA'') to ``provide a level of security commensurate 
with the level of security for the screening of passenger checked 
baggage . . . '' Pub. L. 110-53,  1602(a). The minimum standards 
require TSA to implement a phased-in screening process whereby 50 
percent of the subject cargo must be screened by February 3, 2009. The 
final phase requires 100 percent screening by August 3, 2010. SOS 
Global Express, Inc. fully supports the general standard and minimum 
requirements.
Issue Two: The TSA's Pilot Screening Program (1) fails to adequately 
        ensure the safety of cargo shipped on passenger aircraft, (2) 
        shifts the regulatory cost to the private sector, and (3) 
        imposes severe hardship on thousands of companies that ship 
        cargo on passenger aircraft.
    The Transportation Security Administration should reassess and 
revise its plans for implementing the new Certified Cargo Screening 
Program (CCSP). The Implementing the Recommendations of the 9/11 
Commission Act of 2007 (Act) requires that 100 percent of all cargo 
placed on passenger aircraft undergo security screening by August 3, 
2010. Screening is essential to preserving the security of passenger 
aircraft. However, the CCSP falls far short of reaching the statutory 
requirements while also imposing severe economic hardships on freight 
forwarders.
    The TSA is expected to issue an Interim Final Rule on the CCSP 
during August 2008. The time to act is now. If the TSA is allowed to 
move forward with the CCSP as it is currently planned, the TSA will 
shift the regulatory and financial burden onto the air cargo industry. 
The TSA will force an unfunded mandate on hard-working businesses that 
might not survive the crush of an unfair and poorly implemented 
regulation.
    The air cargo industry is a vital part of our Nation's economy. 
Freight forwarders, manufacturers, and third-party logistics companies 
move about 7,500 tons every day of urgent deliveries on passenger 
aircraft. These customers provide airlines with much-needed revenue. 
Congress must not allow the air freight industry to be unnecessarily 
destroyed by misguided Government regulators.
Solution: Open Airports
    1. TSA must reassess the economic impact of the CCSP and not 
        entirely rely on the program for compliance with the Act.
    2. TSA must require more screening at the airport and provide 
        financial and personnel support to avoid bottlenecks and delays 
        at the airport screening locations.
    3. TSA must receive appropriate funding for the airport-level 
        screening process.
                                 ______
                                 
                    Statement of Captain John Prater
                             July 15, 2008
    ALPA is the world's largest, most influential pilot union, 
representing nearly 55,000 pilots who fly for 40 airlines in the United 
States and Canada. ALPA was founded in 1931 and our motto since its 
beginning is ``Schedule with Safety.'' ALPA has had a prominent role in 
shaping aviation security for many decades. The Association demanded, 
and ultimately achieved, legislation that created airline passenger 
screening at the height of the so-called ``homesick Cuban'' hijacking 
crisis in the early 1970's. Many of the aviation security improvements 
that were made after the terrorist attacks of September 11, 2001, were 
first advocated by ALPA via congressional testimony given in September 
and October 2001 which included installation of hardened cockpit doors, 
upgrading airline security training, and the creation of the Federal 
Flight Deck Officer (FFDO) program, among many others. We urged 
Congress to address cargo security as well, and while progress has been 
made since 2001, there is much work yet to be done in this arena and 
for that reason, we applaud the subcommittee for holding this hearing.
    The specific focus of the hearing is DHS's implementation of 
Section 1602 of the ``Implementing Recommendations of the 9/11 
Commission Act of 2007.'' The law requires the Secretary of Homeland 
Security to establish a system to screen 100 percent of cargo 
transported on passenger aircraft by August 2009. In our remarks, we 
will first provide some background regarding cargo screening on 
passenger and all-cargo aircraft, then look at the specific issue of 
the adequacy of DHS's response to the 100 percent screening requirement 
for passenger aircraft. Finally, we will address what we believe to be 
the most neglected area of cargo security: the insufficiency of 
security measures adopted for all-cargo operators.
                               background
    In May 2003, TSA created three air cargo working groups within the 
Aviation Security Advisory Committee. These working groups, which 
included subject-matter experts from labor and industry, were chartered 
to examine and recommend improved security protocols related to three 
topics: shipper acceptance procedures, indirect air carriers, and 
security of all-cargo airliners. In October 2003, the working groups 
provided the TSA with 43 recommendations, which ultimately served as 
the foundation for an Air Cargo Strategic Plan that former DHS 
Secretary Thomas Ridge approved in January 2004.
    In November 2004, the TSA published in the Federal Register (Docket 
No. TSA-2004-19515) a Notice of Proposed Rulemaking (NPRM), Air Cargo 
Security Requirements, which was based in large measure on the 43 
recommendations made by three working groups. The NPRM was adopted as 
the Final Rule on Air Cargo Security Requirements in May 2006. It 
mandated a number of significant improvements to the security of the 
air-cargo supply chain by requiring airports, domestic and foreign 
airlines, and indirect air carriers to implement additional security 
measures.
    The air-cargo supply chain is a complex, multi-faceted mechanism 
that begins when a shipper tenders goods for transport. It potentially 
involves numerous intermediary organizations such as freight 
forwarders, indirect air carriers (IACs), and other industry personnel 
who accommodate the movement of goods. The process culminates when a 
shipment is received by airline personnel, loaded on an airliner, and 
delivered to its intended destination.
    Because a cargo shipment is exposed to multiple security-related 
circumstances from the time it is tendered until it is delivered, an 
effective air-cargo protective system must focus on the entire supply 
chain and discover opportunities for, and provide reasonable measures 
to prevent or interrupt, malicious acts. Such a system must certify the 
integrity of the goods that are offered and the reliability of the 
shipper, properly educate and verify the trustworthiness of all 
personnel who maintain access to shipments, and ensure a secure 
operating environment. Because the movement of goods is often time-
critical, this process presents a daunting challenge to regulators and 
industry alike, and complete success has not yet been achieved.
The Passenger Carrier Cargo Supply Chain
    Since the events of September 11, 2001 the TSA has worked 
diligently to strengthen the air cargo supply chain, primarily focusing 
its efforts on cargo that is shipped on passenger aircraft. It has 
spent a significant amount of time on the development of a Freight 
Assessment System (FAS), the Known Shipper Management System (KSMS), 
the Certified Shipper program and the Certified Cargo Screening Program 
(CCSP). ALPA agrees with TSA that, based on the state of today's 
screening technology and the need to facilitate the movement of goods, 
an effective cargo screening program must be composed of a variety of 
techniques to ensure that 100 percent of the cargo which is loaded on 
commercial aircraft is secure.
    The combination of systems that TSA proposes to accomplish this 
goal is built upon a certain degree of trust, as responsibility for 
ensuring its integrity is shared among the critical players who compose 
the air cargo supply chain, including: Known Shippers (KS); Certified 
Shippers (CS); Certified Cargo Screening Entities (CCSE); Indirect Air 
Carriers (IACs); direct air carriers; other entities involved in the 
movement of air cargo such as trucking companies, and the TSA. For the 
proposed system to be effective, it requires the proper education, 
strict management, supervision, enforcement and oversight of the 
stakeholders by the governing authority. Consequently, serious 
responsibility is assigned to the TSA to make certain that it has 
sufficient personnel and resources in place to guarantee the integrity 
of the entire process.
    ALPA supports TSA's multi-faceted, air-cargo supply chain security 
vision, to include the CCSP, but urges Congress and the TSA to be 
mindful that without the proper resources and a comprehensive and 
effective oversight and enforcement process, the system is vulnerable. 
TSA must be afforded and dedicate the appropriate resources to 
effectively fulfill its obligation in securing the air-cargo supply 
chain.
          screening 100 percent of cargo on passenger airlines
    There has been considerable debate over the meaning of the terms 
``inspection'' and ``screening'' when applied to goods shipped in the 
air-cargo supply chain. Generally, inspection means to open and examine 
the contents of a package. Screening signifies that some measure of 
security control--not necessarily a physical inspection--has been 
applied to a shipment.
    The current screening/inspection system employs a layered approach, 
using a combination of the Certified Cargo Screening Program, the 
Certified Shipper program, the Known Shipper program, Government 
inspections and enforcement, facility security requirements, vetting of 
supply chain personnel, standard security programs for airlines and 
indirect air carriers, random inspections by carriers, and the Freight 
Assessment System (FAS). ALPA supports this layered approach to 
securing goods which move in the air-cargo supply chain. The current 
state of screening technology, labor resource constraints, and the dire 
financial straits of the airline industry all argue against a 100 
percent pre-flight inspection requirement. A very few passenger 
airlines, due to their size, type of operation, types of cargo carried 
and other variables, may be able to institute a 100 percent inspection 
of cargo today. Most, however, cannot. To force such a requirement on 
the carriers at a time of $145 per barrel of oil is simply unrealistic 
and, in our view, unnecessary.
    Given the fact that TSA proposes a layered approach in securing the 
air-cargo supply chain, no need has been demonstrated to justify 
inspecting 100 percent of goods offered for shipment. Until affordable 
and efficient technology exists and is capable of inspecting all 
commodities moved via air without disrupting the normal flow of 
commerce, ALPA supports TSA's layered approach to cargo security based 
upon a philosophy of 100 percent screening.
               security measures for all-cargo operators
    The post-9/11, revitalized focus on airline security revealed that 
security regulations pertaining to air cargo operations were inadequate 
and that the all-cargo airline industry was often exempted from 
complying with the stricter policies that are mandated for passenger 
airlines. As an example, all cargo airlines are not required to install 
hardened flight deck doors, and all-cargo pilots were initially 
excluded from participating in the FFDO program. Known Shipper (KS) 
rules are not applied in the all-cargo supply chain. Additionally, 
Common Strategy training is not required for flight crews of all-cargo 
airliners. This imbalance in regulatory requirements affords all-cargo 
operations only a fraction of the protections that are mandated for 
passenger airlines.
    Because of the differing levels that still exist between the 
security of goods shipped on passenger air carriers versus those moved 
in the all-cargo air supply chain, ALPA offers the following 
recommendations:
    Make Greater Use of Technology.--The air-cargo strategic plan must 
continue to incorporate effective, strategically located screening and 
inspection technology. This includes the technical means to detect 
improvised explosive devices, and chemical, biological, and 
radiological weapons or contaminants. ALPA urges the TSA to continue 
research and development of equipment that will accomplish this task. 
New technology must accommodate standardized industry practices 
relative to the expeditious movement of goods.
    Implement Risk-Based Assessment of Cargo.--A Government 
Accountability Office (GAO) investigative report entitled Federal 
Action Needed to Strengthen Domestic Air Cargo Security (October 2005), 
plus risk assessments offered by air-cargo stakeholders and security 
experts, suggest that the effectiveness of the Known Shipper (KS) 
program is limited at best and that the program should not be relied 
upon as the primary method of securing the passenger air-cargo supply 
chain.
    To supplement the protections offered by the KS program, the TSA is 
developing a computerized Freight Assessment System (FAS) for assigning 
risk metrics to cargo shipped on passenger airliners. The Aviation 
Security Advisory Committee, through its Air Cargo Working Group, has 
helped the TSA in this effort. The Working Group, composed of subject-
matter experts representing various disciplines associated with the 
air-cargo supply chain, was chartered to assist the Government in 
developing an information-based, threat-management system that 
evaluates specific information about shippers and the goods they tender 
so that a corresponding risk score can be computed which identifies 
cargo considered to be of elevated risk. Any suspicious cargo that is 
detected by this risk-assessment engine will be subjected to additional 
inspection.
    The KS program, coupled with an effective FAS, would significantly 
enhance aviation safety and security. ALPA believes that these cargo 
security initiatives should not be limited to use solely in the 
passenger domain, but that they should be expanded to incorporate goods 
transported by all-cargo airliners. We urge the TSA to expedite the 
deployment of FAS and to continue its partnership with the now 
disbanded Air Cargo Working Group.
    Require a SIDA for All-Cargo Operations.--As a result of the Final 
Rule on Air Cargo Security Requirements, Secure Identification Display 
Area (SIDA) protocols have been implemented in some areas of all-cargo 
operations that are conducted at airports supporting passenger airline 
service. However, current regulations fail to require this important 
safeguard at airports that serve only all-cargo operations. This lack 
of SIDA standards dramatically reduces the security provided to air-
cargo operations conducted at these facilities.
    SIDA requirements detail perimeter security protocols, clearly 
define entry and exit procedures, dictate specific identification 
display and ramp security procedures, and are predicated on a mandatory 
10-year, fingerprint-based criminal history record check for all 
employees who maintain unescorted-access privileges within the SIDA. 
Consistent application of these standards throughout the all-cargo 
domain would significantly enhance the protection of shipments, flight 
crews, and parked all-cargo airliners, and would greatly improve the 
background screening standards needed to properly identify and vet ramp 
and warehouse personnel. ALPA proposes that any airport that serves 
regularly scheduled, all-cargo operations that involve transport-
category airliners be required to maintain a full security plan and 
designated SIDA for such operations. Further, ALPA recommends that the 
TSA ensure, through strict compliance enforcement, that airports and 
airlines adequately address the potential security vulnerabilities 
posed by non-SIDA operations areas, including maintaining proper 
staffing, selection, and training of persons who will be charged with 
the responsibility of performing the requisite security functions.
    Install Hardened Flight Deck Doors and Secondary Barriers on All-
Cargo Airliners.--A significant number of all-cargo airliners lack 
bulkheads and flight deck doors, leaving them without partitions that 
separate the flight deck from the airplane's interior. This lapse in 
security is highlighted by the fact that all-cargo airliners frequently 
carry additional, non-crew personnel, such as couriers and animal 
handlers. To deter persons who possess malicious intent and impede 
their ability to attack flight crew members, gain access to aircraft 
controls, or otherwise execute a hostile takeover of an airliner, 
physical barriers must be designed and installed to separate the all-
cargo airliner's flight deck from accessible passenger and cargo areas. 
All-cargo flight decks must be clearly delineated and protected in the 
same fashion as the flight decks of passenger airliners, including the 
provision of reinforced flight deck doors, secondary flight deck 
barriers, and training for crewmembers in appropriate flight deck 
access procedures.
    Vet Persons Who Have Unescorted Access to Cargo and All-Cargo 
Airliners.--ALPA has consistently advocated a policy of ``One Level of 
Safety and Security'' for passenger and all-cargo airline operations. 
To best protect the integrity of the air-cargo supply chain, persons 
with unescorted access to shipments destined to be transported on 
passenger or all-cargo airliners (i.e., persons who receive, inspect, 
transport, and load air cargo, and those who are granted the privilege 
of unescorted access to all-cargo airliners) must be vetted using a 
thorough threat matrix that measures significantly more than a 
potential link to terrorism. All persons who are granted unescorted 
access to cargo destined for shipment by air must be vetted by means of 
a fingerprint-based criminal history records check (CHRC) and threat 
matrix as are applied to applicants for unescorted SIDA access.
    Vet Persons Transported on All-Cargo Airliners.--All-cargo flights 
often transport couriers, animal handlers, and company employees, many 
of whom are foreign nationals and who frequently sit immediately 
outside the flight deck, unsupervised and possessing items normally not 
allowed to be carried on passenger airliners. While the Final Rule on 
Air Cargo Security Requirements specifies physical screening measures 
for these non-crewmembers (i.e., supernumeraries) before boarding, it 
fails to subject them to a security threat assessment (STA) background 
investigation. As such, supernumeraries are allowed to board all-cargo 
airliners with less screening than is required for persons traveling on 
passenger airliners. This practice is particularly troubling in view of 
the fact that many all-cargo airliners lack hardened flight deck doors, 
Federal Air Marshals, flight attendants, and able-bodied passengers to 
help protect the flight deck and crew from attack.
    The Final Rule requires airlines to ensure that the direct 
employers of these supernumeraries have completed background checks on 
them and have maintained the records of same. Unfortunately, this 
process has proven unsatisfactory. ALPA recommends that the practice of 
allowing an airline and/or the direct employer to be responsible for 
completing these investigations be eliminated. The TSA must assume 
responsibility for ensuring the completion of fingerprint-based 
criminal history records checks for supernumeraries flying on all-cargo 
airliners. ALPA further recommends that all persons transported on all-
cargo airliners be subjected to the same pre-travel screening (i.e., 
checking them against current terrorist watch lists) as is applied to 
persons carried on passenger airliners.
    Provide Security Training for All-Cargo Flight Crew Members and 
Staff.--Government-approved security training, equivalent to that 
required in the passenger domain, must be mandated for flight crews and 
ground personnel supporting all-cargo flight operations. Basic and 
recurrent crew training must include instruction on the All-Cargo 
Common Strategy and all-cargo flight crews should be provided access to 
TSA-issued Security Directives (SDs) and Information Circulars (ICs) 
that pertain to their role as In-Flight Security Coordinators (ISCs). 
Additionally, security training for all-cargo flight crews and ground 
personnel should include instruction in identifying, countering, and 
mitigating threats presented by explosive devices; chemical, 
biological, and radiological weapons; and other contaminants and 
dangerous goods.
    Expand TSA Compliance Enforcement.--ALPA encourages the TSA to 
continue expanding its field inspection staff; to create a non-
punitive, voluntary self-disclosure program; and to develop and 
distribute security training materials to educate cargo industry 
employees and agents. The TSA's current Cargo Watch initiative stands 
as a positive example in this regard. These efforts, coupled with 
appropriate regulations, strict compliance enforcement, and enhanced 
electronic communications capabilities will significantly enhance the 
security of passenger and all-cargo operations. The TSA continues to 
strengthen the requirements for businesses holding, or attempting to 
acquire, Known Shipper and Indirect Air Carrier (IAC) status and 
continues to bolster the security requirements relating to the 
acceptance, processing, and movement of air cargo.
    ALPA agrees that confirmation of background information supplied by 
IACs and Known Shippers and strict enforcement of the pertinent 
regulations these businesses must follow is paramount to the success of 
cargo security efforts. All participants in the air-cargo system must 
qualify to participate, and they must understand the regulations and 
the critical need to comply with security mandates.
    Address Security Deficiencies at Private Airports Serving All-Cargo 
Operations.--Major all-cargo airlines use a number of privately owned 
airports as sorting facilities. These airports support significant 
cargo operations and a variety of transport-category airplane types, 
including large, wide-body airliners. Unfortunately, these airports are 
not held to the same Government-mandated security standard applied to 
airports operating in the public domain and are not subject to the same 
scrutiny in compliance efforts. As such, significant security 
deficiencies exist at a number of these locations. ALPA urges 
Government regulators to take notice of these vulnerabilities and to 
respond with appropriate regulations and enforcement actions.
    For security reasons, specific information related to this topic 
will not be provided within the framework of this document. However, 
ALPA is prepared to meet with appropriate Government and industry 
representatives to provide them with more-detailed information and to 
help in remediation efforts.
    Conduct Vulnerability Assessments and Threat Mitigation.--The 
success of any Government-sponsored efforts to assess vulnerabilities 
within air-cargo supply chain operations hinges upon meaningful 
consultation with associated industry subject matter experts (SMEs). 
Because SMEs best understand the strengths and weaknesses of their 
respective operational environments, they are well-positioned to 
provide critical insight in any attempt to find vulnerabilities 
contained therein and to establish effective and efficient 
countermeasures to potential threat vectors.
    To facilitate this process, Government representatives must engage 
SMEs in meaningful, regular dialog that incorporates current 
intelligence related to potential threats to the air-cargo supply 
chain. ALPA urges all appropriate Government entities to identify 
industry SMEs from critical disciplines within the air-cargo supply 
chain, solicit their input regarding the strengths and vulnerabilities 
within their respective operational environments, and share with them 
current intelligence related to threats to cargo. This consultative 
process is necessary for Government and industry partners to determine 
and characterize threat scenarios and develop and implement appropriate 
threat mitigation practices.
    Improve Cargo Security Rule.--While ALPA did not agree with all of 
the requirements of the Final Rule announced in May 2006, it signaled 
great potential for significant improvement in the security of the air-
cargo supply chain. Unfortunately, implementation of several facets of 
the Rule has not gone smoothly.
    Confusion regarding the security threat assessment (STA) 
requirements led to a number of delays in implementing them. This 
uncertainty had an adverse effect on domestic and foreign airlines, 
indirect air carriers (IACs), freight forwarders, and their employees 
and agents. ALPA urges the TSA to clarify the rules relating to the STA 
process.
    The Final Rule provides that SIDA security measures must be 
extended to secured areas and air operations areas that are regularly 
used to load cargo on, or unload cargo from, an aircraft operated under 
a full program or a full all-cargo program. It further requires that 
each airport security program will specify the limits of the cargo 
operations area to be included in a SIDA, subject to review and 
approval by TSA.
    ALPA has been disappointed to learn that at some airports where the 
Final Rule requires that SIDA requirements be extended to cargo areas, 
certain air operations areas used by all-cargo airliners have not been 
made part of the SIDA. ALPA urges the TSA to apply a strict 
interpretation and enforcement policy related to the SIDA requirements 
specified in the Final Rule.
    Use Known Shipper Concept for All-Cargo Operations.--Measures have 
been taken via the Known Shipper (KS) program to minimize threats that 
cargo shipments present to passenger airliners. However, the same 
protective standards are not applied to goods shipped via all-cargo 
airlines. Cargo and passenger airliners should be viewed equally in 
terms of susceptibility to exposure to risks associated with improvised 
explosive devices and chemical, biological, and radiological hazards. 
The KS system must include an effective methodology for maintaining its 
integrity, accuracy, and reliability. Any decisionmaking process 
designed to evaluate a person or organization seeking inclusion in the 
KS database should incorporate sufficient criteria, beyond a link to 
terrorism that will indicate the character, reliability, and 
susceptibility to compromise of the persons involved, or the potential 
for disruption of the air transportation system for political or 
economic purposes.
                               conclusion
    The Transportation Security Administration, in conjunction with 
industry stakeholders, has done significant work to improve the 
security of the air-cargo supply chain, but there is much more to be 
done. The costs associated with needed cargo security enhancements are 
minimal when viewed in terms of the potential price to be paid for 
failing to properly protect the air-cargo industry from viable threats.
    Since the events of Sept. 11, 2001, cash-strapped and bankrupt 
passenger airlines have added multiple layers of security enhancements 
at their own expense, while many all-cargo airlines, which until very 
recently enjoyed robust growth and sustained record profits, have 
failed to keep pace in making such improvements. Protecting flight 
crews, industry personnel, passengers, and airliners engaged in or 
affected by air-cargo operations requires that Government and industry 
stakeholders cooperate in achieving effective layers of security.
    ALPA commends the TSA for a number of its cargo security efforts, 
including increased field inspection staff and use of canine resources, 
research on screening technology, research on the use of container 
seals to certify the integrity of cargo shipments, and the continued 
effort to develop and deploy the CCSP and Freight Assessment System 
(FAS).
    Thank you for the opportunity to provide this statement.
                                 ______
                                 
                 Letter From Peter Kant and H.B. Miller
                                                     July 15, 2008.
The Honorable Bennie G. Thompson,
The Honorable Edward J. Markey,
U.S. House of Representatives, Committee on Homeland Security, 
        Washington, DC 20515.

    Dear Chairman Thompson and Congressman Markey: We applaud your 
efforts to focus more attention on the need to provide for 
comprehensive inspection of air cargo carried by passenger aircraft.
    Rapiscan Systems and Smiths Detection both manufacture, install, 
and service an array of non-intrusive inspection systems for use in 
airports. Our companies are the two providers of new inspection systems 
for the Transportation Security Administration's (TSA) advanced 
technology (AT) checkpoint security program.
    Rapiscan and Smiths also have systems on the TSA's approved list of 
candidate technologies for inspection of air cargo on passenger 
aircraft. As many freight forwarders note, there is also a need for 
pallet inspection systems to screen larger air cargo. Rapiscan, Smiths 
and other manufacturers have for over 10 years, provided these systems 
to cargo companies and airlines in the United States and worldwide.
    Under Pub. L. 110-53, Congress set a target date of February, 2009 
for screening 50 percent of air cargo carried by passenger aircraft. We 
note that the technology to meet this mandate is readily available and 
urge our Government to continue its accelerated efforts to approve 
inspection systems and provide air cargo operators with approved 
inspection procedures so effective inspection can begin as soon as 
possible.
    As Congress conducts oversight of the implementation of the 
passenger air cargo screening mandate, please let us know if we can 
provide you and/or your staffs with more details regarding the current 
availability and state of cargo inspection technologies. Thank you 
again for your efforts to call attention to this important homeland 
security issue.
            Sincerely,
                                                Peter Kant,
       Vice President, Global Government Affairs, Rapiscan Systems,
                                               H.B. Miller,
                             Vice President, Smiths Detection, Inc.

    Ms. Jackson Lee. As I introduce the Ranking Member, the 
distinguished gentleman from California, let me just indicate 
to the audience that both of us serve on multiple committees, 
including the Judiciary Committee, which I happen to be on the 
Task Force for Antitrust Competition, which was holding a 
simultaneous hearing. So to the Ranking Member and to the 
audience, I was delayed because I was in another hearing, and I 
thank the Ranking Member.
    At this time, it is my pleasure to yield to the Ranking 
Member for an opening statement.
    Mr. Lungren. Thank you very much, Madam Chairwoman.
    Well, I express my agreement with you over the need to 
better secure our passenger air cargo system. As you noted, it 
has been 7 years since 9/11. We have invested literally 
billions of dollars to screen airline passengers, their baggage 
and carry-on. After these enormous expenditures to secure our 
airlines, it would be foolhardy to ignore the cargo that is 
being transported on the same aircraft.
    Sensible security requires stronger passenger air cargo 
measures. The 100 percent screening requirement posed by the 
majority, however, does raise a number of concerns which I feel 
compelled to articulate.
    First, I hope that the 100 percent screening solution does 
not raise false security expectations; that is, the idea that 
all threats to passenger air cargo can be eliminated by 
instituting a, quote-unquote, 100 percent screening is 
unrealistic. We should not forget that risks can be managed in 
our vast homeland, but never totally eliminated, as much as we 
would wish that to be the case.
    Second, my concern about the 100 percent screening 
requirement is that it abandons the risk-based homeland 
security approach to terrorist threats which has been the 
direction of this committee, been the direction of the 
Congress, been the direction of DHS. It is one that I think has 
worked very effectively.
    Risk assessment allows DHS, and in this case TSA, to 
effectively target its financial and intelligence resources for 
the best security benefit. We don't have unlimited resources, 
obviously. So, without that, we have to be smarter than the 
terrorists and use our intelligence and layered security 
measures to mitigate future risks.
    While passenger air cargo security needs tightening, I hope 
that by imposing a, quote-unquote, 100 percent screening 
mandate we don't force a costly security overhaul which pushes 
the passenger air cargo screening further down the supply chain 
to indirect air carriers and freight forwarders, because many 
of these important small business passenger air cargo 
contributors have difficulty making the bottom line as it is 
now.
    What I am trying to say is we ought to be smarter than just 
being led by slogans. We ought to make sure that the risk-based 
approach continues here as it has everywhere else.
    We have to see how many more inspectors this would require 
if we are going to make this work. Hopefully the pilot program 
will show us exactly what that is. We have to be concerned 
about what the Small Business Committee of the House has 
expressed to us, their concern about whether costs might make 
it a noncompetitive aspect of the smaller operations versus the 
large operations.
    I just want to make sure that what we do is effective, that 
we are being smarter than the other guys, and that we are 
always guided by the risk-based assessment approach. I think if 
we abandon that, we abandon something that has proven to be 
very, very, very successful.
    Last, I would just say, I am heartened by the fact that TSA 
has indicated that they are going to have a multiple-layered 
approach; that they are talking about new technology, that they 
are talking about inspectors, that they are talking about 
canine units. As Members of this subcommittee and committee 
know and members of the audience know, I have always tried to 
point out the fact that canine units apparently give us an 
opportunity to be as agile as we possibly can, to be able to 
move when the unexpected occurs, and in some cases can do a 
better job than that required by equipment that causes capital 
investment and changes in already existing physical locations. 
So I hope that we can learn from what the approach is that TSA 
has already embarked upon and which they intend to continue in 
the future.
    So I look very much forward to hearing from our witnesses. 
I want to thank them for being here today. With that, Madam 
Chairman, I would yield back the balance of my time.
    Ms. Jackson Lee. Mr. Lungren, we thank you for your 
comments and remarks. We hope we will find common ground on 
such an important issue. Thank you for your opening statement.
    It is my privilege to acknowledge the presence of the 
distinguished gentleman from Oregon, Mr. DeFazio, who is 
present here. Let me also make note of the fact that other 
Members of the subcommittee are reminded that under the 
committee rules opening statements may be submitted for the 
record.
    We begin by welcoming our first panel of witnesses. Our 
first witness is Mr. John B. Sammon, who is the Assistant 
Administrator for the Transportation Sector Network Management 
Office at TSA. Mr. Sammon works to protect and secure our 
Nation's intramodal transportation systems, including aviation, 
rail, mass transit, maritime, cargo and pipelines. We are 
looking forward to his testimony today, since the office he 
directs has been tasked with implementing several mandates 
enacted by the 9/11 Act, including the 100 percent screening of 
air cargo aboard passenger airplanes.
    I must note that the subcommittee requested that Mr. Ed 
Kelly testify here today. Mr. Ed Kelly is TSA's chief architect 
of air cargo policy, but the invitation was unfortunately 
declined by TSA. Nevertheless, I welcome Mr. Sammon's 
testimony. In your testimony, you might explain Mr. Kelly's 
absence, Mr. Sammon. We welcome you.
    Our second witness is Mr. James Tuttle, head of the 
Explosives Division of the Department's Science and Technology 
Directorate. Mr. Tuttle's division is responsible for the 
Department's scientific research and technology, explosives 
detection, blast mitigation and response to non-nuclear 
explosives and other energetic threats, including shoulder-
fired missiles aimed at commercial aircraft.
    Mr. Tuttle came to DHS with 21 years of experience in R&D 
efforts. He has published numerous professional papers and 
completed a Boeing Fellowship in Seattle where he helped 
develop applications for reducing the radar signature of 
military aircraft. Welcome, Mr. Tuttle.
    Our third witness is Ms. Kathleen Berrick from the 
Government Accountability Office. Ms. Berrick is a senior 
executive with GAO's Homeland Security and Justice team. In 
this position, she oversees GAO reviews of aviation and surface 
transportation security matters and has developed a broad 
knowledge of transportation security practices and related 
Federal policies, as well as Federal and private sector roles 
and responsibilities. She has leveraged this expertise to lead 
numerous reviews of DHS and TSA initiatives, to strengthen the 
security of the U.S. transportation system, and to navigate the 
complex array of legislation passed and policies instituted in 
the aftermath of the terrorist acts of September 11, 2001.
    We welcome back Ms. Berrick, who routinely testifies before 
this subcommittee and the full committee, and we are looking 
forward to her assessment on the progress made by TSA regarding 
the 100 percent screening mandate.
    Without objection, the witnesses' full statements will be 
inserted into the record. I now ask each witness to summarize 
his or her statement for 5 minutes, beginning with Assistant 
Administrator Sammon.

     STATEMENT OF JOHN P. SAMMON, ASSISTANT ADMINISTRATOR, 
   TRANSPORTATION SECTOR NETWORK MANAGEMENT, TRANSPORTATION 
    SECURITY ADMINISTRATION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Sammon. Good afternoon, Chairwoman Jackson Lee and 
Ranking Member Lungren. And Chairwoman, Mr. Kelly is sitting 
behind me right now, Ed Kelly, accompanied by Douglas Brittan, 
who is his assistant in the air cargo area.
    Ms. Jackson Lee. We certainly will welcome his answering 
the questions. Thank you.
    Mr. Sammon. Sure. Thank you. I am pleased to be here today 
to discuss the progress that the Transportation Security 
Administration is making toward fulfilling the air cargo 
provisions of implementing the recommendations of the 9/11 
Commission Act.
    We are committed to the goal of screening 50 percent of all 
air cargo shipped from the United States on passenger aircraft 
by February 2009 and 100 percent by August 2010. This goal has 
been a TSA objective, and TSA worked closely with Congress to 
reach these provisions in the 9/11 bill.
    As you know, implementation of the 9/11's air cargo 
provisions requiring 50 percent screening by February and 100 
percent screening by August 2010 presents significant 
challenges. The major challenge we face is that there is not 
enough capacity at all the airports to do the screening that 
needs to be done. This lack of capacity makes it impractical to 
attempt to break down, screen and reassemble large consolidated 
loads on airport property with any timeliness or efficiency. 
Furthermore, the resulting congestion would pose a security 
vulnerability and a threat target of its own.
    TSA's answer to that challenge is to enable screening 
further up the supply chain to TSA certified freight forwarders 
and shippers in addition to airport facilities. TSA is then 
creating a secure chain of custody from the screening location 
to the airport.
    Logistics planners at many fields use secure chain of 
custody with great success and have done so for decades. 
Screening cargo at the appropriate time and place in the supply 
chain will keep commerce and freight flowing in a secure 
manner. By reducing congestion potential at the airports, this 
approach also provides the best opportunity for small 
businesses to have continued access to air carrier screening 
facilities at the airport.
    Participation in TSA-certified screening programs is 
voluntary. Participants become TSA-regulated parties and agree 
to adhere to TSA security protocols for their operations. A 
common security protocol will include standards for personnel 
vetting, facility infrastructure security and physical 
screening facilities, among the other requirements. TSA will 
only certify facilities that have been inspected and validated 
by TSA or TSA-authorized agents.
    A key to this initiative is that the air carriers have the 
ultimate responsibility to transport only certified, screened 
cargo. TSA's regulatory programs, including ongoing 
inspections, will enable cargo to be done by certified parties, 
but unscreened cargo will not be allowed to fly after August 
2010.
    While it is the air carrier's responsibility to ensure that 
cargo has been screened by a TSA-certified entity who actually 
screens the freight in a particular location that will be 
determined by market issues such as available capacity, labor 
costs, real estate costs, and the ability to become TSA 
security-certified, it is the air carrier's responsibility to 
work with freight forwarders and cargo handlers to ensure 
sufficient screening capacity exists in our markets. In the 
end, if only 100 pounds have been screened, only 100 pounds can 
fly in commercial aircraft.
    To meet the first deadline in February, TSA is directing 
its inspector, canine and technology resources to the 18 
highest volume cargo airports. These airports handle nearly 
two-thirds of passenger cargo.
    In addition to our cargo volume focus, TSA's February plan 
puts passengers first. As a consequence, TSA expects that all 
cargo will be screened on aircraft carrying 80 percent of the 
passengers. Let me repeat that. By February 2009, TSA expects 
that all cargo will be screened on aircraft carrying 80 percent 
of the passengers. Through a combination of focusing on high 
cargo airports and high volume passenger flights, we expect to 
meet the 50 percent requirement in the act.
    TSA has measures in place today that assure the safety of 
air cargo on passenger planes through a risk-based, layered 
security approach. TSA is committed to a process that keeps air 
cargo moving while meeting vital security screening 
requirements. That is why we particularly appreciate the 
assistance of Jim Tuttle in the Science and Technology Office's 
R&D program, and we look forward to working with Cathy Berrick 
to make this new screening process as airtight as possible.
    Thank you. I will be happy to answer your questions later 
on.
    [The statement of Mr. Sammon follows:]
                  Prepared Statement of John P. Sammon
                             July 15, 2008
    Good afternoon Chairwoman Jackson Lee, Ranking Member Lungren, and 
distinguished Members of the subcommittee. I am pleased to be here 
today to discuss the progress the Transportation Security 
Administration (TSA) is making toward fulfilling the air cargo security 
provisions of the Implementing Recommendations of the 9/11 Commission 
Act of 2007 (9/11 Act), Pub. L. 110-53.
    As you know, implementation of the 9/11 Act's air cargo 
provisions--requiring the screening of 50 percent of cargo on passenger 
aircraft by February 2009 and all such cargo by August 2010--presents 
significant challenges. To meet these challenges, TSA is emphasizing 
effective security management of the entire air cargo supply chain by 
building upon our established programs: air cargo security regulations, 
standard security programs, security directives, information sharing, 
and increased use of TSA-certified explosives detection canine teams 
and Transportation Security Inspectors (TSIs) for cargo. Key to the 
success of our screening regime will be collaboration with 
stakeholders--U.S.-based shippers, freight forwarders, and passenger 
air carriers--through a program that will facilitate screening early in 
the supply chain using currently approved screening methods and 
stringent facility and personnel security standards.
    TSA's strategy involves every component of the air cargo shipping 
system--from the entity originating the freight to the freight 
consolidators/forwarders, airports, and finally to air carriers who 
transport the cargo--and the people involved in the process that have 
access to cargo at every point in the supply chain. The program is 
designed to harmonize with the international community, since a large 
portion of air cargo moves on international flights.
    TSA is committed to meeting the 9/11 Act's goals. And, when we meet 
the 50 percent goal, the vast majority of flights, carrying more than 
three-quarters of all passengers, will in fact be screened at the 100 
percent level.
            the 9/11 act: reinvention of air cargo security
    Approximately 12 million pounds of cargo is transported daily on 
passenger aircraft. To accommodate this considerable stream of 
commerce, TSA currently has in place a multilayered, risk-based system 
for securing cargo traveling on passenger aircraft. As required by 
applicable security programs and regulations, aircraft operators and 
foreign air carriers are now primarily responsible for screening a 
percentage of cargo transported on passenger aircraft. In addition, 
indirect air carriers (IACs) are required to screen or provide to TSA 
for screening, all cargo that meets certain high-risk criteria. 
Regardless of risk, TSA screens 100 percent of cargo at Category II-IV 
airports.
    Currently, required cargo screening is conducted by aircraft 
operators and air carriers, using the following TSA-approved methods of 
screening: physical search with manifest verification, X-ray, 
explosives trace detection (ETD), explosives detection systems (EDS), 
and decompression chamber. Cargo consolidations built by aircraft 
operators and air carriers or accepted in that form from shippers and 
IACs are subject to random screening by TSA-trained and certified 
explosives detection canine teams. For unique cargo types that do not 
lend themselves easily to these established screening methods, TSA 
permits alternative screening methods to be employed, such as 
verification of the description of the cargo and matching the identity 
of the shipper with information contained in the shipping manifest.
    Additional layers of security augment the required screening. For 
example, with very few exceptions, cargo may only be accepted for 
transport on passenger aircraft when there is an established business 
relationship between the shipper and accepting IAC, aircraft operator, 
or air carrier. Employees and authorized representatives of aircraft 
operators, foreign air carriers, and IACs with unescorted access to 
cargo must undergo a security threat assessment (STA), and the Security 
Identification Display Area (SIDA) security requirements at regulated 
airports have been expanded to include areas where cargo is loaded and 
unloaded. TSA has timely processed and adjudicated 170,000 STAs for IAC 
employees.
    The 9/11 Act mandates significant changes to this regime. Section 
1602 of the 
9/11 Act amends TSA's primary screening authority, 49 U.S.C.  44901, 
to require TSA to implement a cargo screening program that will, no 
later than August 2010, achieve the screening of 100 percent of cargo 
transported on passenger aircraft in a manner that results in a level 
of security commensurate with that of checked baggage. The 9/11 Act 
defines the term ``screening'' to mean ``a physical examination or non-
intrusive method of assessing whether cargo poses a threat to 
transportation security'' and includes within that definition X-ray 
systems, EDS, ETD, explosives detection canine teams certified by TSA, 
and a physical search combined with manifest verification. The 9/11 Act 
also provides TSA the flexibility to develop additional methods to 
ensure that the cargo does not pose a threat to transportation 
security, including a program to certify the security methods used by 
shippers.
    The requirements are easily stated, but the enormity of the task 
cannot be overstated. Essentially, this legislation mandates the 
reinvention of air cargo security.
                        considerable challenges
    The 9/11 Act's mandate cannot be achieved by relying on the current 
system, whereby aircraft operators and air carriers are almost 
exclusively responsible for screening cargo. Currently, aircraft 
operators alone do not have the capacity to screen the volume of cargo 
that is now transported on passenger aircraft daily. Requiring 
passenger aircraft operators to screen 100 percent of air cargo would 
result in carrier delays, congestion at airport cargo facilities, 
backlogs of unscreened cargo, and missed flights--in short, such a 
requirement would significantly impede the flow of commerce. Likewise, 
requiring screening of the current volume of cargo carried on passenger 
aircraft at the airports by parties other than the aircraft operators 
would be impractical, if not impossible, if only because of the lack of 
space to accommodate such an operation.
Multiple Stakeholders
    To fulfill the 9/11 Act's requirements, TSA must rely on the 
wholehearted cooperation of industry. Success will only be achieved by 
augmenting current screening resources with those of multiple 
stakeholders and ensuring that screening is conducted at earlier stages 
in the air cargo supply chain. As discussed more fully below, in 
connection with the Certified Cargo Screening Program, TSA is working 
with aircraft operators, IACs, and shippers to create, pilot, and 
ultimately implement a program in which air cargo security is a 
responsibility shared by the entire air cargo industry.
Technology
    A critical challenge in meeting the requirements of the 9/11 Act is 
the development of technology to accomplish the contemplated level of 
screening, particularly given current practices for packing cargo for 
transportation aboard passenger aircraft. Under current industry 
practice, a large percentage of cargo that will be placed aboard 
passenger aircraft, particularly wide-body aircraft, is tendered at the 
airport in a consolidated state, i.e., it has already been packaged on 
large pallets for transportation. Without the development of effective 
technology for dealing with cargo tendered in this manner, screening 
would require significant costly reengineering of existing packaging 
and shipping processes.
    The new requirements for screening cargo commensurate with 
passenger baggage will have the biggest impact on cargo that is carried 
on wide-body aircraft. For efficiency in operation, wide-body aircraft 
utilize Unit Load Devices (ULDs) to transport the cargo in the lower 
holds of the aircraft. These ULDs can hold up to 11,000 lbs. of cargo 
comprised of literally hundreds of pieces/boxes. Some ULDs are hard-
sided (similar to baggage containers) where the pieces are hand-stacked 
inside, while other are flat metal pallets on which the pieces are 
stacked, contoured to the aircraft shape, then shrouded in plastic and 
covered in heavy netting to prevent shifting in flight. The majority of 
the wide-body flights are on international lanes. IACs control most of 
the market (most shippers work through an IAC for many reasons, and do 
not negotiate directly with carriers). As a result, a very high 
percentage of ULDs are filled/built by the IAC, not at the air 
carrier's facility. This is done not only for efficiency, but also 
because it enables IACs to obtain better rates than when cargo is 
tendered ``loose'' (because less handling by the carrier is required). 
For international cargo, cutoff times for carriers to receive cargo 
from IACs (or shippers) is approximately 4 hours prior to departure 
time.
    Without the development of technology to effectively screen cargo 
built into large pallets and ULDs, screening cannot be executed 
primarily at airports. If all cargo were to be screened only at 
airports by air carriers, they would have to either: (a) Break down/
remove cargo from all ULDs previously built-up by IACs, screen the 
cargo, and re-build the ULDs, or (b) require the IACs to tender the 
cargo ``loose,'' and then the carrier would screen the cargo and 
``build up'' all of the containers. Either scenario would be extremely 
labor-intensive, be costly in time, and eliminate rate discounts for 
industry.
                         meeting the challenges
    TSA is well on its way to meeting the 50 percent screening 
milestone and to having in place the critical regulatory pieces for 
meeting the 100 percent goal. There are several interlocking pieces 
that advance us toward the 50 percent goal in the short term and that 
lay the groundwork for the complete implementation of the 
9/11 Act's requirement for cargo screening.
Near-Term Elements: 100 Percent Screening for Vast Majority of 
        Passenger Flights
    A key component of achieving the 9/11 Act's 50 percent milestone by 
February 2009 is a 100 percent screening requirement for passenger 
aircraft that comprise approximately 95 percent of all domestic 
passenger flights and carry approximately 25 percent of all cargo that 
is carried on passenger aircraft. This requirement, developed in 
coordination with air carriers and other appropriate stakeholders, is 
scheduled to go into effect in October 2008.
    Most significantly, this requirement will cover flights that carry 
more than three-quarters of all passengers. This means that when this 
requirement becomes effective, the great majority of air passengers 
will be protected by enhanced screening measures, even in advance of 
full deployment of our air cargo strategy.
Near-Term Elements: Canine Program
    Current TSA security directives and emergency amendments already 
require that bulk cargo consolidations be made available by aircraft 
operators and air carriers for screening by TSA-certified explosives 
detection canine teams. As of July 1, 2008, TSA has trained 450 teams 
that are deployed and operated by local law enforcement agencies at 
airports. Standard operating procedures governing these teams require 
that they devote at least 25 percent of their duty time in the air 
cargo environment. Canine teams generally are concentrated at or near 
airports where there are high volumes of passengers and cargo. Under 
the U.S. Troop Readiness, Veterans' Care, Katrina Recovery, and Iraq 
Accountability Appropriations Act, 2007, Pub. L. 110-28, Congress 
provided TSA with additional funding to expand the explosives detection 
canine team program by 170 teams. Of these, half will be proprietary, 
that is, comprised of TSA-owned dogs and TSA handlers, and devoted 
exclusively to screening air cargo. The deployment of additional canine 
resources ensures that a greater number of cargo consolidations that 
are subject to screening will in fact be screened.
Near-Term Elements: Increased Cadre of Inspectors
    At the beginning of fiscal year 2008, TSA employed 300 Cargo TSIs 
exclusively dedicated to the oversight of air cargo. Since then, TSA 
has trained and deployed an additional 130 air cargo TSIs, and another 
20 will be added by the end of fiscal year 2008. Inspectors conducted 
more than 37,000 compliance reviews in fiscal year 2007 and initiated 
more than 2,500 formal investigations based on suspected non-compliance 
with TSA requirements. Cargo inspectors operate under work plans to 
ensure that all aircraft operators, air carriers, and IACs are 
inspected regularly and that those that have had previous compliance 
issues are inspected more frequently and thoroughly. Cargo inspectors 
also conduct outreach to all regulated entities to ensure their ability 
and willingness to comply with the IAC program's requirements prior to 
their approval. Along with performing daily oversight of cargo 
operators, inspectors also conduct covert testing of the air cargo 
system and participate in ``cargo strike'' surge activities at our 
Nation's largest cargo airports.
Near-Term Elements: Elimination of Alternative Screening Methods
    In addition to increasing screening across the board, TSA is in the 
process of reevaluating and eliminating many of the alternative 
screening methods previously used for ensuring the security of certain 
categories of cargo. TSA reported to Congress a comprehensive overview 
of alternative screening of specific commodities, as required by 
section 1602 of the 9/11 Act.
Looking Forward: The Certified Cargo Screening Program
    TSA is diligently working with all of our partners across the air 
cargo community to establish the linchpin of our air cargo screening 
strategy--the Certified Cargo Screening Program (CCSP)--a voluntary 
program under which TSA will certify cargo screening facilities to 
screen cargo before it is tendered to aircraft operators for carriage 
on passenger aircraft. As authorized by the 9/11 Act, we are currently 
developing an Interim Final Rule (IFR) to implement the CCSP, which we 
hope to publish by the end of this calendar year. This program, which 
we anticipate deploying in fiscal year 2009, will establish full supply 
chain security of air cargo and play a major role in overcoming the 
hurdles inherent in a 100 percent screening requirement.
    Like TSA's existing security programs, the CCSP will rely on layers 
of security to provide the best possible protection for cargo on 
passenger aircraft and the least disruption to commerce. Under the 
CCSP, facilities upstream in the air cargo supply chain such as 
shippers, manufacturers, warehousing entities, distributors, and third-
party logistics companies will be able to apply to TSA to be designated 
as certified cargo screening facilities (CCSFs). IACs and aircraft 
operators that screen cargo outside airport perimeters may also apply 
to be certified to become CCSFs in order to screen cargo for transport 
on passenger aircraft. CCSFs will be required to screen cargo using 
TSA-approved methods and to implement chain of custody measures to 
ensure the security of the cargo throughout the air cargo supply chain 
prior to tendering it for transport on passenger aircraft. CCSF 
employees and authorized representatives will be required to 
successfully undergo TSA-conducted STAs. Before being certified, and 
periodically thereafter, the CCSF will be required to undergo 
examination by a TSA-approved validator, who will also need to undergo 
a TSA-conducted STA. These facilities will also be subject to regular 
and random inspections by TSA cargo inspectors to ensure their 
adherence to CCSP requirements.
    Once the program is implemented, CCFS-screened cargo will 
contribute greatly toward meeting the 50 percent and 100 percent cargo 
screening requirements of the 9/11 Act.
                certified cargo screening pilot programs
    As part of the process of establishing this regulatory program, TSA 
is testing the concept of screening earlier in the supply chain by 
conducting two pilot programs: (1) The CCSP (Phase One) pilot involving 
shippers and other entities such as manufacturers, distributors and 
third-party logistics companies, and (2) the Indirect Air Carrier (IAC) 
technology pilot. The pilot program with shippers is being conducted at 
the following major gateway airports: San Francisco, Chicago, 
Philadelphia, Seattle, Los Angeles, Dallas-Fort Worth, Miami, Atlanta, 
and New York/Newark. The pilot with IACs is running at these airports 
and additionally at Dulles, Honolulu, Intercontinental Houston, Boston/
Logan, Detroit, Denver, San Juan and Orlando.
    Over 65 percent of all cargo transported on passenger aircraft is 
from these 18 pilot airports. Approximately 61 percent of cargo 
transported on wide-body aircraft originates at just 6 of these 
airports. By focusing its outreach in the pilots on the entities using 
the airports with the highest volume of cargo transported on wide body 
passenger aircraft, we have been able to maximize the impact of the 
pilots.
    The IAC technology pilot is evaluating the effectiveness of cargo 
screening equipment recommended by TSA, such as Advanced Technology X-
ray (AT X-Ray), ETD machines, and EDS, by commodity class at each 
participant's consolidation facility. Congressional appropriations 
provided TSA with funds for the screening of air cargo. TSA is using 
these funds to assist in the deployment of appropriate screening 
technology for use in the IAC pilot program. In addition to testing the 
equipment itself, the IAC pilot is also evaluating the volumes of cargo 
the IAC community is able to screen and the use of chain of custody 
procedures.
    Industry has responded enthusiastically to TSA's call for 
participation in the pilots. During the first 4 months of 2008, TSA 
teams met with over 225 shippers, 550 IACs, and 100 air carriers in 
these cities to explain the impact of the regulation as well as the 
solution provided by the CCSP. To date, TSA is working with over 70 IAC 
pilot locations as well as over 100 shipper locations that are 
undergoing the validation process to become certified to screen as part 
of the pilot. Fourteen major IACs are committed to participating in the 
pilot and are in various stages of certification. The final steps in 
the process will be their purchase of approved technology and 
subsequent completion of the necessary training on use of that 
equipment. In addition to the IACs who are formally participating in 
the pilot, we have received applications from 47 IAC facilities in the 
18 cities that wish to become certified and plan to purchase the 
approved technology on their own.
    We feel that this approach has many benefits, not the least of 
which is that moving the screening of cargo for these larger IAC 
operations away from the airports will allow the carriers to utilize 
their capacity to screen cargo from smaller IACs and shippers who do 
not have the volumes of cargo or the financial ability to invest in the 
infrastructure needed to screen cargo themselves.
Looking Forward: Research and Development
    To address the technological challenges, TSA is working 
collaboratively with the DHS Science and Technology Directorate (S&T) 
to identify technology gaps and to prioritize research and development 
(R&D) requirements. Together, we are working to develop and qualify 
technologies in the areas of automated break-bulk and bulk explosives 
detection; trace explosives detection; alternative screening 
technologies such as metal detection, non-linear junction device 
detectors, and Improvised Explosives Device (IED) disruptor 
technologies; blast mitigation technologies; stowaway detection 
technologies; and supply chain integrity technologies. Our 
collaboration includes the conduct of laboratory and field assessments 
of AT X-ray and pallet-sized X-ray technologies in conjunction with 
S&T's Transportation Security Laboratory (TSL).
    TSA and S&T completed technology readiness evaluations of bulk air 
cargo screening technologies last year, and research is continuing on 
promising technologies under Cooperative Research Development 
Agreements (CRDAs). Formal qualification testing of break-bulk (box/
piece) air cargo screening technologies is scheduled to commence this 
Fall with a view toward adding successful technologies to an air cargo 
screening technology Qualified Products List (QPL). In addition, TSA is 
working with S&T to prioritize bulk (palletized/containerized) air 
cargo screening technology requirements for future investments.
    TSA has been conducting a Hardened Unit Loading Device (HULD) Pilot 
Program for which interim test results were released in November 2007. 
Based on these results, TSA has decided to put the HULDs on a QPL. The 
final test results and report for the HULD Pilot Program are expected 
to be completed and released by August 31, 2008.
    Finally, TSA is also working closely with the S&T Cargo Pilot 
Program, which assessed air cargo screening costs for three levels of 
automation. S&T will submit a report to Congress on the results of the 
pilot, after which TSA will report to Congress the cost estimates for 
doing 100 percent screening of air cargo at various airports on all-
cargo and on passenger aircraft.
                       success is the only option
    TSA's mission is to protect the security of the Nation's entire 
transportation system. Our current risk-based, layered security 
approach has served us well in fulfilling that mission. We anticipate 
that the current program, along with the new CCSP, will enable us to 
achieve the 100 percent air cargo screening requirement envisioned by 
the 9/11 Act in a manner that does not disrupt the flow of commerce.
    Thank you, again, for the opportunity to bring you up to date on 
our progress with this important mandate. I will be happy to answer any 
questions you may have.

    Ms. Jackson Lee. Thank you, Mr. Sammon, for your testimony.
    Mr. Tuttle, you are recognized for your testimony and you 
may summarize it for 5 minutes.

   STATEMENT OF JAMES TUTTLE, DIRECTOR, EXPLOSIVES DIVISION, 
 DIRECTORATE FOR SCIENCE & TECHNOLOGY, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Tuttle. Good afternoon, Chairwoman Jackson Lee, Ranking 
Member Lungren, and distinguished Members of the subcommittee. 
It is my honor to appear before you today to provide a brief 
overview of how the Science and Technology Directorate is 
assisting TSA in meeting the goal of screening 100 percent of 
air cargo by 2010.
    The Science and Technology Directorate is committed to 
protecting the Nation against this threat. Our work with TSA 
begins with a customer-led transportation security IPT, 
Integrated Product Team, which addresses air cargo and 
explosive detection. Through this process, we gather TSA input, 
work together to identify their needs, define capability gaps, 
prioritize technology development and allocate R&D resources.
    Prior needs identified thus far include technologies for 
screening break bulk, palletized, containerized air cargo for 
explosives and weapons. A primary focus is on meeting the goal 
of screening 100 percent of air cargo by 2010.
    We are assisting TSA in meeting this goal in three ways: 
The Air Cargo Explosive Detection Pilot Program, the Air Cargo 
Research and Development Program, and the Science and 
Technology support to TSA's Certified Cargo Screening Program. 
I will now provide a brief overview of each program.
    In 2005, Congress directed Science and Technology to work 
with TSA to determine if significantly more levels of air cargo 
could feasibly be screened for explosives, additional costs to 
increase that screening and how effective existing baggage 
screening technologies would be if they were used to screen air 
cargo.
    The Air Cargo Explosive Detection Pilot Program was 
conducted at three airports: San Francisco International 
Airport, Cincinnati-Northern Kentucky International Airport, 
and Seattle-Tacoma International Airport. Pilot program 
operations are now concluded and we are now analyzing the data 
from those sites. This data will help define how to screen the 
various commodities of air cargo, guide the development of 
future screening technologies and inform concept operations.
    Our second program area deals with explosives air cargo 
research and development. Its overall goal is to perform 
research, development and testing of secure systems to screen 
all air cargo for a wide range of explosives threats while 
minimizing operational costs and impact on the flow of people 
and commerce through air transit.
    The general approach is to use or adopt security 
technologies that have been successfully employed at U.S. 
airports for screening checked and carry-on baggage, mainly 
focused on commercially available technologies that can be 
modified and enhanced. The program is also involving research 
and development in new and emerging technologies to screen air 
cargo faster, more reliably and more effectively without human 
operations intervention.
    The third program area includes test and evaluation for 
TSA's Certified Cargo Screening Program. Specifically, we have 
been asked to evaluate the efficacy of independent cargo 
screening facilities which are privately run and screening air 
cargo for explosive threats. These facilities could receive 
freight bulk air cargo, perform screening and assemble parcels 
from multiple sites into pallets for ingestion in the airport. 
The TSA Certified Cargo Screening Program must also address how 
to screen the chain of custody between where air cargo is 
screened and the final ingestion at airports. We plan to levy 
present work in the areas of screening commerce and maritime 
transportation, which could provide important technologies for 
securing the supply chain.
    In conclusion, the threat of explosives through air cargo 
remains considerable. The key challenge is that current 
technology is inadequate to screen diverse commodities reliably 
and effectively. The Science and Technology Directorate is 
committed to a balanced strategic approach to developing air 
cargo screening technologies that will meet TSA requirements 
efficiently and effectively.
    Members of the committee, I thank you for the opportunity 
to meet with you today. My written testimony provides 
additional detail in each of these initiatives.
    Thank you.
    [The statement of Mr. Tuttle follows:]
                   Prepared Statement of James Tuttle
                             July 15, 2008
                              introduction
    Thank you, Madam Chairwoman and Members of the subcommittee for 
this opportunity to share with you the work the Science and Technology 
Directorate (S&T) performs to support the Transportation Security 
Administration's (TSA) goal to screen 50 percent of air cargo to be 
transported on passenger aircraft by February, 2009 and 100 percent by 
August 2010.
    S&T's Explosives Division develops the technical capabilities to 
detect, interdict, and lessen the impacts of non-nuclear explosives 
used in terrorist attacks against mass transit, civil aviation and 
critical infrastructure. This includes checkpoint, baggage, air cargo, 
and vehicle screening technologies; blast-resistant aircraft 
construction; and detection of explosive threats from a distance 
(standoff detection). Customer inputs and requirements from the TSA, 
U.S. Secret Service, U.S. Coast Guard, and first responders are used to 
define capability gaps, prioritize technology needs, and allocate 
research.
    There are three, interrelated ways that S&T assists, or plans to 
assist, TSA in achieving the goal to screen 100 percent of air cargo by 
August 2010. The first way is in the conduct of the multi-year, multi-
million dollar Air Cargo Explosives Detection Pilot Program (ACEDPP). 
This program has been carried out in full partnership with TSA as well 
as with the three local airport authorities and officials who have 
participated.
    The second way is in the conduct of the multi-year, multi-million 
dollar Air Cargo Research and Development Program. This program is also 
being conducted in close coordination with TSA. TSA prescribes the 
requirements in a Capstone Integrated Product Team process, which 
serves as the basis for the research program.
    The third way, still in the planning stage, is S&T support to the 
TSA Certified Cargo Screening Program. The Securing the Chain of 
Custody section of this document addresses the activities that TSA 
requests S&T to undertake in support of the Certified Cargo Screening 
Program.
    The sections that follow provide more detailed information on these 
three ways S&T is assisting TSA in achieving the goal of screening 100 
percent of air cargo by August 2010.
   air cargo explosives detection pilot program (acedpp) summary and 
                            lessons learned
Summary
    In authorizing the ACEDPP, Congress recognized the potential threat 
of an explosive device to be loaded onto a plane as cargo and 
detonated, resulting in catastrophic loss of life and significant 
damage to property and commerce. An additional vulnerability is related 
to freighter aircraft, which typically have larger cargo doors and can 
accept larger containers. With larger cargo containers, there is the 
potential for an individual to stow away in the container and take 
control of the plane during flight.
    The ACEDPP is evaluating countermeasures to these vulnerabilities 
by examining alternative approaches to, and assessing the impacts of, 
substantially increasing air cargo screening levels for explosives and 
for the detection of stowaways using existing screening methods (i.e., 
bulk explosives detection, trace detection, canine screening and 
physical inspection) and TSA-qualified screening protocols. ACEDPP 
results will assist S&T in defining the research agenda for future 
cargo screening technology development to fill gaps that exist in 
present systems.
    The ACEDPP will provide critical information about the design, 
operation and challenges of integrated cargo handling and screening 
systems, and their associated costs. The program will also collect 
important data about the frequency and nature of false alarms generated 
during screening. Such information will guide the improvement of 
existing screening technologies and the development of future 
technologies, as well as inform the development of effective Concepts 
of Operation (ConOps).
    Key questions the ACEDPP addresses are:
  <bullet> Is it feasible to screen significantly more air cargo (i.e., 
        at least six times more than pre-ACEDPP levels)? What resources 
        and ConOps are required to do so?
  <bullet> What are the costs associated with increased screening 
        levels, and how are these costs distributed over system and 
        operational elements?
  <bullet> To what degree does increased screening enhance security? 
        How effective are technologies and protocols developed for 
        screening passenger-checked baggage in detecting explosives in 
        air cargo?
    The ACEDPP is unique in that it has taken a systems approach to 
cargo screening. This approach integrates screening technologies with 
cargo handling systems. It also incorporates ConOps that direct 
specific cargo commodities to the most appropriate screening 
technology, based on detection sensitivities, alarm rates and other 
factors. ACEDPP data collection and analysis efforts are focused on 
evaluating the efficacy, cost, and operational impacts of increased 
cargo screening using high-fidelity/high-integrity, ground-truth 
operational data.
    The ACEDPP established pilot operations at three airports: San 
Francisco International Airport (SFO), Cincinnati/Northern Kentucky 
International Airport (CVG), and Seattle-Tacoma International Airport 
(SEA). The objective of the pilot programs at SFO and CVG is to 
evaluate screening of belly loaded cargo for explosives, while the SEA 
pilot evaluated the use of canines and technology to screen bulk cargo 
for explosives and stowaways.
    The program has completed operations and data collection at each of 
the three pilot sites. The current focus is on data analysis, computer 
simulation, optimization modeling activities, and completion of the 
final report. Three interim reports have been provided to Congress as 
required by the statute establishing the ACEDPP. The fourth progress 
report is in review and will be transmitted to Congress within the 
month. The final report will include conclusions and recommendations 
that will inform evolving cargo screening policies, screening protocols 
and future technology development efforts. In its final report to 
Congress, ACEDPP will include a cost-benefit analysis to compare the 
high-volume/high-automation screening approach implemented at SFO-
United Air Lines, the moderate-volume/high-automation approach at SFO-
Northwest/Continental, and the moderate-volume/reduced-automation 
approach at CVG-Delta.
    As a follow-on activity to ACEDPP, S&T is assisting TSA in 
accomplishing its air cargo screening through additional testing of 
different equipment that TSA wanted to test at SFO. We shall be 
gathering raw data and images for varied cargo from an L-3 
Communications (L-3) MVT-HR unit we have on loan from L-3. S&T expects 
to collect about 3 months of data that, again, will assist in better 
understanding how the performance of X-ray based screening equipment 
might be improved (either through indicated changes in hardware or in 
improved algorithms). Data will be shared with L-3 and will also be 
analyzed at Lawrence Livermore National Laboratory. We expect to 
continue this data collection at SFO with a Surescan unit in the Fall, 
after we are through collecting other data with this unit at Tyndall 
AFB. These data collection efforts take on more importance as TSA 
evolves toward wishing to use AT technologies (in addition to CT-based 
technologies) as part of its strategy for screening more air cargo.
    S&T will also be collecting data from the AS&E X-ray back scatter 
van, loaned to us by AS&E, at SFO. We shall determine its effectiveness 
for stowaway detection as a complement to what we have already learned 
at SEA from CO<INF>2</INF> and heart-beat monitoring equipment under 
the ACEDPP. The back scatter unit has been effective in connection with 
war operations in theatre.
    These data collection efforts have been in accordance with the 
direct requests of the Chief Technical Office at TSA.
Lessons Learned
  <bullet> More than half of air cargo at some facilities (e.g., 
        United/SFO) is currently screened by alternate methods due 
        solely to the way it is packaged. Eliminating these alternate 
        methods of screening will add substantially to the air carrier 
        screening load using traditional methods.
  <bullet> Screening high percentages of air cargo shipments for 
        explosives using existing baggage screening technologies is 
        feasible. However, breaking down and re-building Unit Loading 
        Device (ULD) shipments for piece-level screening is very labor 
        intensive. Moving the requirement for screening ULDs earlier in 
        the process to Indirect Air Carriers (IACs), manufacturers, or 
        Independent Cargo Screening Facilities (ICSFs) would be far 
        more efficient. Alternatively, ULDs could be screened by air 
        carriers using canines or another bulk screening method.
  <bullet> The use of heart beat monitors coupled with carbon dioxide 
        sensors for detecting stowaways in bulk cargo containers was 
        determined to be feasible. FEMA-certified search-and-rescue 
        canines also showed great promise as a means to detect 
        stowaways in freighter-bound bulk cargo.
  <bullet> The cost of technology-based screening is on the order of 
        $0.08-0.12 per pound and is dominated by cargo handling and 
        screening labor. Canine screening is much less expensive per 
        pound--less than $0.01 per pound for the ACEDPP pilot at SEA-
        TAC airport.
  <bullet> Given that labor is the predominant factor in air cargo 
        screening costs, ongoing efforts by equipment vendors to reduce 
        false alarm rates would result in substantial future cost 
        savings.
  <bullet> Limited operational efficacy assessments for explosives 
        detection systems (EDS) machines were conducted at SFO using 
        simulated explosives, with very positive results. Some efficacy 
        data for explosives trace detection (ETD) and canine screening 
        have been reported elsewhere. There is still a need for system-
        level efficacy testing and analysis.
  <bullet> Under the current screening regime, screening 100 percent of 
        air cargo would have significant impacts on air carriers. Many 
        business practices would need to be modified, such as 
        allocation of substantial warehouse space for screening 
        equipment, screening personnel and shipment staging, requiring 
        some shipments to be delivered earlier, and prioritizing 
        shipments for screening. The Certified Cargo Screening Program 
        (CCSP), being developed by TSA (and discussed more fully in 
        TSA's written statement), is being designed to mitigate this 
        impact.
  <bullet> Cargo screening can provide side benefits to air carriers, 
        such as yielding accurate weights and dimensions to maximize 
        revenues and help balance aircraft loads.
    Important legacies of the ACEDPP include an optimization model that 
permits TSA to undertake tradeoff analyses between performance and 
comprehensive, inclusive costs. This verified and validated model, 
using detailed cost information collected at three airports in the 
process of undertaking the ACEDPP, reveals the costs of increased cargo 
screening, by category of cost, and is being used by TSA now in 
extrapolating the results of the ACEDPP to the top five air cargo 
carrying airports and the top ten passenger carrying airports, as 
required by Congress. Another legacy is the library of images from 
airport X-ray based detection systems. These images can be accessed by 
investigators to help determine what improvements in hardware and in 
software would be necessary to improve future detection performance--
both in terms of the probability of detection and in lower false alarm 
rates. Since labor costs have been shown in the ACEDPP to be about 50 
percent of the total costs of screening air cargo and to be a 
substantially greater fraction of costs than any other cost category, 
reduction of labor costs through reduction of false alarm rates can 
save substantial money. It has been estimated that each percent 
reduction in false alarm rate leads to a $25 million/year saving in 
screening costs. A final legacy is the beta-testing design of suitable 
material handling facilities that can reliably track air cargo from 
ingestion to plane delivery, route cargo to the appropriate screening 
technology based upon the type of commodity involved, and reduce 
potential injury to cargo handling personnel through ergonomically 
designed lifting and movement systems.
               air cargo research and development program
    The overall goal of the Explosives Division's Air Cargo Research 
and Development Program is to research, develop, and test security 
systems (technologies and screener/operators) to screen all air cargo 
for a wide range of explosive threats while minimizing operational 
costs and the impact on the flow of people and commerce through the 
mass air transit system.
    The general approach is to use, or adapt, security technologies 
that have been successfully employed at U.S. airports for screening 
checked and carry-on baggage. To reduce costs, research has focused on 
commercially available technologies that can be modified and enhanced 
from other applications (e.g., military equipment). Given gaps in the 
commercial technology base, the program also involves researching and 
developing new and emerging technologies to screen air cargo faster, 
more accurately, and with less reliance on the human operator.
    Derived from the program's goal and approach are the following 
research and development (R&D) objectives:
  <bullet> Aggressively pursue an innovative and forward-thinking R&D 
        program focused on automated detection of explosives.
  <bullet> Screen a wide range of cargo commodities without 
        significantly impacting cargo operations.
  <bullet> Develop technologies to screen break bulk, palletized, and 
        containerized configurations of cargo.
  <bullet> Apply technology to strengthen the security of the supply 
        chain to permit distributed screening over time and across 
        geography.
                 tsa certified cargo screening program
    The Implementing Recommendations of the 9/11 Commission Act of 2007 
requires that the 50 percent screening of air cargo to be transported 
by passenger aircraft by February 2009 and 100 percent by August 2010 
be provided at a level of security commensurate to that of passenger 
baggage. Current TSA-approved methods of air cargo screening include 
physical search with manifest verification, X-ray, explosives trace 
detection (ETD), explosives detection systems (EDS), decompression 
chamber, and canine screening. TSA has concluded that screening 
capacity at a single point in the supply chain, e.g. at the premises of 
air carriers in air cargo-carrying airports, is insufficient to 
accomplish this requirement. The large volume of air cargo (about 12 
million pounds daily) that moves on passenger aircraft suggests that 
carrier delays, cargo backlogs and transit time increases could all 
occur unless the screening strategy distributes the requirement 
spatially and by participant. TSA intends to satisfy the requirements, 
in large part, by establishing a Certified Cargo Screening Program 
(CCSP), which will create additional screening capacity in the air 
cargo supply chain. TSA has already begun implementation of an Indirect 
Air Carrier (IAC) Screening Technology Pilot, as part of the 
development of the CCSP, and will issue an Interim Final Rule, as 
provided by the 9/11 Act, to fully implement the program.
    TSA will be describing these programs in its testimony today. The 
S&T Directorate will continue to assist TSA in accomplishing its 
objectives in whatever specific ways TSA may require for both the CCSP 
and IAC aspects of its approach to air cargo screening.
    However, an additional variation of the two approaches, above, 
involves establishment of Independent Cargo Screening Facilities 
(ICSFs). The ICSF is a ``fee-for-service'' business model variant that 
would provide screening services for varied entities, including smaller 
IACs and air carriers. ICSFs could be located near airports and could 
provide screening services for those customers (shippers or others) who 
do not wish to invest in security requirements and equipment to screen 
freight themselves. Quite importantly, the ICSFs could also receive air 
cargo in the form of individual break bulk parcels, screen them as such 
(with technologies now suited only for break bulk sizes), and assemble 
them into pallets for delivery to airport sites. The ACEDPP has 
measured the times required to break down pallets for break bulk 
screening in EDS equipment and then reassemble them for delivery to the 
air carrier point of embarkation. The times are lengthy and could 
threaten the orderly flow of commerce. In addition, the assembly of 
pallets and ULDs is a complex science that challenges the ability of 
screeners to reassemble pallets and ULDs expeditiously once the 
screening is completed. TSA has received several expressions of 
interest from entities who wish to explore the business opportunities 
presented by ICSFs. TSA would like S&T to contact these parties and 
design, establish and evaluate such a facility at one of the larger 
airports. S&T could bring the comprehensive expertise and contacts it 
has developed in conjunction with its ACEDPP and incorporate ``lessons 
learned'' in the design of an effective ICSF. S&T would work closely 
with the TSA Air Cargo team in developing an operating plan for this 
business model and in selecting a suitable pilot site.
    S&T and TSL are also providing significant support of the CCSP by 
conducting the Multi-Technology Assessment (MTA) of Advanced Technology 
(AT) X-ray and pallet-sized X-ray systems. S&T is adjusting testing 
priorities to support the TSA CCSP initiative to get detection, 
throughput, and false alarm data to help provide guidance on how 
commercially available technologies can be used in the IAC Pilots.
    In addition, S&T via the Independent Test and Evaluation (IT&E) 
Program at the TSL, is establishing a bulk/high-density break bulk air 
cargo qualification testing capability. This high visibility initiative 
is helping to establish technical requirements for commercially 
available cargo screening equipment. Most importantly, this effort will 
commence qualification testing of existing break-bulk air cargo 
screening equipment this Fall in direct support of the TSA CCSP.
    The S&T Directorate welcomes the opportunity to participate with 
TSA in the multiple ways that have been described in this paper and 
specifically would like to work with the TSA Air Cargo Team in the 
design and evaluation of the new ICSF concept.
                     securing the chain of custody
    One of the challenges that must be addressed in carrying out TSA's 
Certified Cargo Screening Program will be how to secure the chain of 
custody between the points where air cargo is screened, e.g. at TSA-
certified shipper sites, the IACs or at ICSFs, and final ingestion at 
the air carrier site at the airport. Fortunately, the S&T program 
supporting Customs and Border Patrol (CBP) to secure commerce in 
maritime transportation can provide important technologies to 
accomplish such chain of custody. The following S&T projects may 
provide results that TSA might draw upon to improve security in the 
chain of custody.
    M-Lock.--M-Lock is designed to ensure that truck cargo leaving air 
cargo consolidation facilities completes its intended path to 
designated airports throughout the United States with no tampering. The 
M-Lock configuration of the Marine Asset Tag Tracking System (MATTS) is 
a MATTS tag in a lock enclosure that can be used as a TSA Chain of 
Custody tool for reliably tracking and monitoring air cargo from a 
consolidation facility to an entry point at a U.S. airport. In 
conjunction with TSA's Certified Shipper Program, M-Lock's will be 
demonstrated in an operational scenario starting in Q4 of fiscal year 
2008.
    Air Cargo Composite Container.--This project, which kicked off in 
fiscal year 2008, expands upon the composite materials developed in 
association with the Hybrid Composite Container project. In order to 
detect tampering or intrusion, security sensors will be embedded into 
the walls of an air cargo Unit Load Device (ULD) fabricated using 
composite materials. The project's success depends on ensuring 
lightweight comparability to existing aluminum containers and 
interoperability with existing aircraft loading infrastructure.
    Secure Carton.--This Small Business Innovative Research (SBIR) 
project will develop a shipping carton with embedded security sensors. 
These sensors will detect tampering/opening of the carton once it has 
been closed and secured. The carton will communicate to an RFID reader 
any tamper event such as the insertion of threat material. This project 
provides improved supply chain visibility, chain of custody, and 
security closer to the point of manufacture, or stuffing, and is 
scalable and applicable across various shipping modalities including 
maritime and air cargo. The prototype development phase of this project 
will end in fiscal year 2008 and testing will start in fiscal year 
2009.
    Secure Wrap.--This SBIR project, which kicked off in fiscal year 
2008, is developing a more flexible and secure tamper-indicative 
wrapping material. This wrap is suitable for palletized cargo shipped 
through the international supply chain and across the various shipping 
modalities (e.g. air, maritime, land). Secure wrapping material will 
have the capability to detect tampering through the material and will 
be deployable with minimal impact to current supply chain logistics and 
processes.
    CanScan.--This project will develop enhancements to existing 
secondary non-intrusive inspection (NII) capabilities to detect or 
identify terrorist contraband items (e.g., drugs, money, illegal 
firearms) or humans. These system enhancements will provide increases 
in penetration, resolution, and throughput when compared to existing 
NII systems. Future Automatic Target Recognition (ATR) capability will 
be integrated into the CanScan system. This project addresses the Cargo 
Security Capstone IPT's highest capability gap to enhance cargo 
screening and examination systems through advanced non-intrusive 
inspection. The capabilities developed will screen air cargo in unit 
load devices (ULD), on pallets, or break-bulk configurations. This 
effort is planned to begin in fiscal year 2009.
    Automatic Target Recognition (ATR).--The project will develop an 
automated imagery detection capability for anomalous content (e.g. 
persons, hidden compartments, contraband) for use in existing and 
future Non-Intrusive Inspection (NII) systems. This ATR capability is 
applicable to scanning and imaging systems used by CBP and TSA by 
applying an operator-assisted decision aid that provides target 
discrimination. This project is planned to begin in fiscal year 2010.
    Air Cargo Data Exchange System.--This project establishes a system 
architecture and prototype implementation to ensure that security data 
and tracking information from various tamper-evident devices are 
communicated reliably and securely to TSA. This prototype 
implementation will be interfaced to TSA's targeting capability. The 
effort is planned to begin in fiscal year 2014.
                        customer output focused
    Input from customers is key to defining capability gaps, 
prioritizing technology needs, and effectively allocating research. 
This input has been gathered through the DHS S&T Capstone Integrated 
Product Team (IPT) and the Air Cargo Product IPT processes. The 
Capstone IPT has identified capability gaps for technology development, 
operations and oversight, and detection of stowaways. The explosives 
detection IPT calls for technologies for screening break bulk, 
palletized, and containerized air cargo for explosives and weapons.
    One of the highest priorities of TSA is to develop requirements and 
to qualify commercially available technologies to screen air cargo. 
Congress directed that by February 2009, 50 percent of air cargo 
transported on passenger aircraft be screened and to increase that 
percentage to 100 percent of air cargo by August 2010. The Explosives 
Air Cargo Program will work with TSA to assist TSA in meeting this 
goal.
    Goals for Air Cargo Explosives Detection R&D.--The short-, mid-, 
and long-term research goals for effective air cargo screening of 
explosive threats are identified below. These goals are based on the 
program mission, the investment approach, operational objectives, and 
customer input.
            Short-Term Goals (0-2 years)
  <bullet> Development of cargo-optimized EDS systems for break bulk 
        cargo screening.
  <bullet> Continued industry outreach to pursue private sector 
        innovations and approaches.
  <bullet> Tools to assess operator performance and to regulate/oversee 
        screening effectiveness. Cargo screening is currently a 
        regulated function.
  <bullet> Evaluation of current capabilities and TSA approved 
        screening methods.
  <bullet> Detection of non-explosive components of air cargo threats.
            Mid-Term Goals (3-5 years)
  <bullet> Development of advanced technologies to screen larger cargo 
        configurations without causing logistical burdens on the 
        industry.
  <bullet> Development of advanced technologies to screen dense and 
        exception cargo commodities.
  <bullet> Mitigation of insider threats by ensuring cargo integrity 
        throughout the supply chain.
            Long-Term Goals (>5 years)
  <bullet> Next Generation ETD and EDS development to permit automated, 
        fast, accurate inspection of a wide range of commodities and 
        cargo configurations.
    The specific fiscal year 2008 and fiscal year 2009 goals are:
  <bullet> Conduct testing of cargo-optimized technologies, based on 
        checked luggage equipment, for break bulk cargo screening.
  <bullet> Conduct testing of a metal detection technology to detect 
        the components of an Improvised Explosive Device (IED), such as 
        wires, batteries, and timers, rather than identification of the 
        explosive. This will be used for non-metallic cargo 
        commodities.
  <bullet> Complete development of a prototype technology that ruins 
        the electronics of an IED and renders it safe. This will be 
        used for non-electronic cargo commodities.
  <bullet> Conduct testing (Technology Readiness Evaluation) of 
        commercially available technologies to screen containerized 
        cargo made of low-density commodities (e.g., fresh flowers, 
        produce, and seafood).
  <bullet> Develop and pilot test a selection test to identify and hire 
        the best air cargo screeners.
  <bullet> Begin development and validation of standardized training 
        for all of the approved air cargo screening technologies.
  <bullet> Begin development and validation of a certification test to 
        assess the performance (i.e., operator proficiency) of air 
        cargo screeners.
    These immediate activities will assist TSA in meeting the 
requirements to screen 50 percent of air cargo transported on passenger 
aircraft by February 2009 and to increase that percentage to 100 
percent of air cargo by August 2010.
                     air cargo screening challenges
    There are currently six approved methods for the screening of air 
cargo: physical search with manifest verification, canines, X-ray, 
decompression chamber, Explosives Trace Detection (ETD), and Explosive 
Detection Systems (EDS). None of these methods were designed for cargo 
inspection, and their use in the cargo environment has resulted in 
limited performance in terms of detection, nuisance alarms, throughput, 
operation/logistics, and costs. A dedicated near-, mid-, and long-term 
R&D program is described to optimize current (checked baggage and 
checkpoint) inspection technologies for cargo and to develop equipment 
and systems to expeditiously and effectively screen cargo. Challenges 
an R&D program must address are:
    Commodities.--The greatest challenge in screening air cargo is the 
tremendous range and configuration of commodities. Many of the common 
cargo commodities (e.g., machine parts) are very dense and present 
significant challenges for inspection technologies. In addition, many 
commodities are exceptional, such as cargo that is live (e.g., tropical 
fish) or requires great care and sensitivity (e.g., human remains) 
(refer to Table 3). The time-sensitive nature of air cargo requires 
fast screening and resolution. Further, there is wide seasonal, 
temporal, and geographic fluctuation in commodities shipped by air. 
Last, approximately 15 percent of the cargo is unique or unusual (e.g., 
race cars, marble statues) and can present tremendous screening 
challenges.
    Configurations and Packaging.--Another challenge in screening air 
cargo is the wide range of packaging and configurations. Cargo can be 
presented in individual boxes, on pallets, and in a wide range of 
containers (i.e., Unit Load Devices or ULDs). In general, break bulk 
cargo is considered to be individual boxes less than one cubic meter (3 
ft  3 ft  3 ft). Containerized cargo includes shrink-wrapped pallets, 
cookie sheets, and ULDs. These configurations are generally 4 ft  4ft 
 8 ft, but can also be much larger. Currently, there is no inspection 
technology to inspect the larger cargo configurations automatically 
(i.e., without operator intervention). In addition, cargo is packaged 
in a diverse range of material including cardboard, metal, wood, and 
plastics and a large range of weights that can exceed current equipment 
capabilities.
    Operational Constraints and Environment.--The context of air cargo 
in the United States has a profound impact on its safe and expeditious 
screening. Numerous and diverse stakeholders are involved with air 
cargo: air carriers, logistics companies, indirect air carriers, 
freight forwarders, shippers (both known and unknown), industry groups, 
screening companies, and government agencies. Stakeholders have 
competing views and demands that may be strenuous. The TSA's oversight 
of cargo screening is from a regulatory perspective. Thus, TSA does not 
directly screen air cargo, nor does it procure, deploy, maintain, or 
operate cargo screening equipment. Key operational constraints to 
screening air cargo include:
  <bullet> Diverse and Numerous Stakeholders;
  <bullet> Regulatory Oversight/Approach From Government;
  <bullet> Percentage of Cargo Screened;
  <bullet> Operational Need for Speed and Efficiency;
  <bullet> Economic Impact of Screening;
  <bullet> Alarm Resolution is Critical;
  <bullet> Insider Threats;
  <bullet> Theft;
  <bullet> Public Concern;
  <bullet> Political Interest.
    There is strong pressure to inspect more cargo and to reduce the 
current type and number of exemptions. In fiscal year 2006, Congress 
directed DHS S&T to conduct three Air Cargo Explosive Detection Pilot 
Programs (ACEDPP) to examine the feasibility of screening six times 
more air cargo in a break bulk configuration. A final report to 
Congress, with key findings regarding this challenge, will be presented 
in January 2009.
    The Technology Base.--The technologies that have been used, or 
proposed, to screen air cargo were developed for checked or carry-on 
baggage. As a result, each technology and approach has limitations in 
terms of detection, throughput, sensitivity, automation, and 
operational costs. Several screening methods and technologies exist for 
the type of commodity and configuration that are acceptable for 
screening low density commodities in small configurations. Performance 
gets progressively worse as the density increases, the configuration 
gets larger, and the packaging becomes more complex. The ultimate goal 
of the Explosives Air Cargo Program is to provide effective and 
acceptable technologies for all types of commodities and 
configurations.
    Additional Security Challenges.--Other challenges to screening air 
cargo include the need for operational speed and efficiency. This is 
particularly important given the corporate and national economic 
benefits of air cargo commerce. Furthermore, a very low nuisance alarm 
rate is required of any technology that will be operationally 
acceptable, especially given the high costs and difficulty in opening 
and resolving alarms in carefully packaged break bulk and containerized 
configurations. In addition, the open nature of the air cargo system 
has made it vulnerable to threats from insiders and to theft, which is 
estimated at 3 percent annually and is accepted by the industry as a 
``cost of doing business.'' Theft of cargo indicates that there are 
vulnerabilities in the system that could be exploited to insert a 
threat.
  the opportunities: proposed systems approach for screening air cargo
    The Explosives Air Cargo Program is also guided by a vision of an 
integrated system of people, technologies, and procedures to 
effectively and expeditiously screen air cargo. This vision is based on 
the idea that any effective and optimized system for screening should 
include at least the following seven components.
  <bullet> Tested and Qualified Products--by Commodity/Configuration
  <bullet> Detection, Identification, and Disruption
  <bullet> Site-Specific Customization
  <bullet> Distributed System
  <bullet> Protection and Inspection Approaches
  <bullet> Human Engineering
  <bullet> Rigorous Oversight and Audit for Quality Assurance
    Candidate Technology List.--Working in collaboration with TSA, a 
draft performance specification has been developed that presents the 
detection and processing requirements for break bulk and containerized 
air cargo screening technologies. This performance specification, 
analogous to a Qualified Products List, will facilitate the selection 
of suitable solutions for air cargo screening. To the extent 
practicable, technologies should be automated to aid the human operator 
in the interpretation of complex images and information. It is foreseen 
that technologies for the proposed air cargo system will be approved or 
qualified by configuration (i.e., break bulk or containerized) and by 
eight major cargo commodities.
    Explosive Detection, Device Identification, and Threat 
Disruption.--For checkpoints and checked baggage the focus has been on 
detection of explosive substances. Given the nature of air cargo, an 
entire, intact explosive device is the threat that will almost 
certainly be presented. This provides the opportunity to identify the 
non-explosive components of the device (i.e., metals) in non-metallic 
air cargo. There is also the opportunity to disable/disrupt the intact 
device in non-electronic cargo to render it harmless to the aircraft. 
The proposed systems approach to air cargo screening should be multi-
faceted and include explosives detection, as well as innovative 
approaches for device identification, and threat disabling/disruption.
    Site-Specific Customization.--Given the wide variation in the types 
and configurations of air cargo by airport (e.g., Miami has a high 
percentage of fresh flowers) it is likely that specific technologies 
should be mapped onto the operational needs of each airport and/or 
operation. For the State of Alaska, which relies on air cargo rather 
than roadways, the customization and flexibility of the cargo screening 
will be critical. Thus, it is foreseen that an effective cargo security 
system will be a customized ``patchwork'' of technologies, procedures, 
and human operators who are designed to optimize the detection and 
minimize the operational costs of air cargo inspection at each site.
    Distributed System.--The current air cargo system involves numerous 
stakeholders (e.g., shippers, consolidators, handlers) who have 
facilities and equipment off site from the airport. There is 
opportunity to take advantage of the distributed nature of air cargo 
over geography and time. To the extent that cargo can be effectively 
screened by trusted entities and that the supply chain is secure, it 
will be possible to design a system that is flexible and does not 
create ``cargo checkpoints'' or bottlenecks at the airport. Improved 
supply chain integrity will reduce thefts. The proposed systems 
approach should include supply chain integrity to permit distributed 
screening over time and geography.
    Protection and Inspection.--Protection refers to hardening the 
aircraft or its subsystems so that it has enhanced capability to 
withstand the effects of an explosive device. To the extent that 
protection approaches are viable and successful, terrorists are forced 
to use larger threats to cause catastrophic damage. Larger threats are 
easier to identify via inspection and thus the performance demands on 
detection technologies can be better optimized. The proposed systems 
approach should employ protection technologies to ensure a more robust 
capability to mitigate explosive threats via air cargo.
    Human Engineering.--Even with significantly automated technologies, 
it will ultimately be the decision of a human operator whether or not a 
cargo item represents a threat. The human operator is a necessary and 
key component of an effective security system. Thus, there should be a 
dedicated focus on human factors and the performance of individuals 
screening cargo through R&D on selection, training, equipment 
interfaces, standardization, development of procedures, and mitigations 
of insider threats.
    Oversight and Audit.--A significant challenge for a complex socio-
technical system with diverse people, entities, locations, procedures, 
technologies is to maintain strict vigilance. The goal is to maintain 
high and consistent levels of performance over time. Technologies and 
interventions, such as Threat Image Projection, can be incorporated to 
maintain vigilance, provide training to operators, and monitor 
performance to determine person-machine effectiveness. The proposed air 
cargo security system should be designed with oversight and quality 
assurance as a key goal.
                      air cargo r&d strategic map
    Given the challenges, opportunities, operational constraints, and 
technology approaches, the Explosives Air Cargo Program has developed a 
high-level strategic map to guide the sequencing and priority of R&D 
based on the cargo configuration, commodity characteristics, and the 
applicable technology approach.
    The strategic R&D map indicates that technologies will be developed 
individually for break bulks, palletized, and containerized cargo 
configurations. These are in order of difficulty, but the ultimate goal 
is one integrated technology solution that can screen all three 
configuration types. Within each configuration, technologies will be 
specialized for low density, high density, and exceptional commodities. 
Six technology approaches will be developed, enhanced, and tested to 
yield air cargo screening systems:
  <bullet> Trace Explosives Detection is based on chemistry and it 
        involves technologies that can identify minute particles or 
        vapors from explosives. In this area, the R&D focus is to get 
        the sample into the technology, to get more accurate analysis 
        (sensors), and to increase automation so there is less reliance 
        on a human operator.
  <bullet> Bulk Explosives Detection is based on physics and involves 
        electromagnetic energy and ionizing radiation (such as X-rays) 
        to penetrate cargo, collect data (e.g., mass and density), and 
        present an image. In this area the R&D focus is to increase 
        automation so there is less reliance on a human operator, 
        increase detection of explosives, reduce nuisance alarms, 
        increase speed and throughput, increase power to screen larger 
        and more dense cargo, increase reliability, and reduce annual 
        operational costs.
  <bullet> Device Component Detection is based on technologies that 
        detect or disrupt the non-explosive components of an IED. In 
        air cargo the threat is an intact IED that is a complete 
        circuit with a power source, initiator, explosive, and switch/
        timer. In this R&D area the focus is to increase sensitivity 
        (e.g., find very small amounts of metal in produce), increase 
        throughput, ensure safety, increase speed and throughput, and 
        reduce reliance on a human operator.
    This work is based on commercially available technologies or the 
        integration of mature components. A dedicated basic research 
        effort is not required since the effort involved leveraging 
        work conducted by other Government agencies (e.g., DoD, NASA) 
        through the Technical Support Working Group (TSWG).
  <bullet> Human Engineering is concerned with getting the best 
        performance from the human operator and to ensure that 
        technology is designed for ease-of-use (ergonomics). The R&D 
        focus is to select, train, and monitor the performance of human 
        operators who are screening air cargo. Another key R&D 
        challenge is to evaluate the automation of screening 
        technologies and determine the most effective way for humans to 
        interpret data and resolve alarms.
  <bullet> Canine Explosives Detection is concerned with the use of 
        dogs to screen air cargo for explosives and the scent of 
        threats. The challenge for R&D is to breed the best dogs, 
        increase training tools, develop better ways to get a scent 
        (sample) to the dogs, improve detection performance, increase 
        consistency of the dogs, and reduce operational costs.
  <bullet> Mitigation and Hardening is focused to develop bomb-
        resistant systems to complement and back-up explosive detection 
        technologies. Existing inspection systems may not always find 
        explosives at weights that can, under some circumstances, cause 
        catastrophic failure. Selective use of hardening technology in 
        conjunction with inspection may result in a more practical and 
        cost-effective means of ensuring aircraft safety than 
        inspection alone.
    In addition, as technologies mature, a concerted effort will be 
undertaken to integrate and fuse the technologies to take full 
advantage of their orthogonal capabilities. It is envisioned that the 
``final'' fused solution will take advantage of multiple technology 
layers in an integrated system of systems (technology, people, and 
procedures).
                               conclusion
    The threat of explosives to air cargo remains considerable. The key 
challenge is that there exists a very limited current technology base. 
There is currently no technology that can cost-effectively, 
efficiently, accurately, and quickly screen the diverse range of cargo 
commodities, configurations, and packaging.
    The DHS S&T Explosives Division is committed to a balanced 
strategic approach to developing air cargo screening technologies by 
leveraging research and development in chemistry and physics-based 
detection, IED component detection, human engineering, canine 
olfaction, and explosives mitigation. Research and development in the 
air cargo explosives detection area will ensure that technology 
products are available to be deployed to ensure the safety and security 
of the traveling public.
    Members of the committee, I thank you for the opportunity to meet 
with you today to discuss how the S&T Directorate is assisting TSA in 
meeting the goal of screening 100 percent Air Cargo by 2010. As we move 
ahead, I look forward to working with the committee to improve our 
Nation's capabilities in the area of securing air cargo.

    Ms. Jackson Lee. Thank you, Mr. Tuttle, for your testimony.
    I now recognize Ms. Berrick to summarize her statement for 
5 minutes. Welcome.

 STATEMENT OF CATHLEEN A. BERRICK, DIRECTOR, HOMELAND SECURITY 
      AND JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Berrick. Thank you, Madam Chairwoman, Ranking Member 
Lungren, and Representative DeFazio for inviting me here to 
discuss GAO's work assessing air cargo security and TSA's 
efforts in implementing a system to screen 100 percent of cargo 
transported on passenger aircraft.
    As you are aware, in response to the implementing 
recommendation of the 9/11 Commission Act, TSA is required to 
implement a system to physically screen 50 percent of cargo 
transported on passenger aircraft by February 2009 and 100 
percent of such cargo by August 2010. To fulfill this 
requirement, TSA is developing a voluntary program referred to 
as the Certified Cargo Screening Program, or CCSP, which would 
allow the screening of air cargo to take place at various 
points throughout the supply chain. TSA has already taken a 
number of important actions to implement this program, 
including identifying cities and some facilities for 
participation in the program's pilot and conducting outreach to 
the air cargo industry. TSA has also identified a number of 
technologies that it plans to approve for use under the 
program. These activities are critical and will undoubtedly 
assist the agency moving forward.
    However, TSA will face a number of challenges as it 
attempts to implement this new, fundamental shift in the way in 
which air cargo is secured. More specifically, the CCSP is 
still in the early stages and has not yet been fully defined. 
For example, TSA is still in the process of conducting outreach 
to identify participants for the program's pilot and has not 
yet identified specific time frames for completing necessary 
activities leading up to the February and August deadlines.
    TSA has also not identified the number of certified 
facilities needed to ensure the program's success. Without 
specific plan activities tied to time frame, it may be 
difficult for the agency, Congress and others to monitor TSA's 
progress moving forward.
    In addition to the need for sound planning for the upcoming 
pilot, we identified five challenges that TSA will need to 
address related to the CCSP and strengthening air cargo 
security more generally.
    First, TSA has identified some technologies that the agency 
plans to allow certified facilities to use for screening cargo, 
but has not yet completed its technology assessments. In 
addition, although TSA plans to reimburse industry for some 
equipment costs, air cargo stakeholders expressed concern 
regarding the costs associated with purchasing and the 
screening equipment needed to become a certified facility.
    Second, TSA has taken steps to eliminate the majority of 
exempted, domestic and outbound cargo that is not required to 
be screened. However, the agency plans to continue to exempt 
some types of this cargo from screening after the August 2010 
deadline. Further, TSA has not yet completed its air cargo 
vulnerability assessments, which could help to identify 
potential security vulnerabilities associated with these 
exemptions.
    Third, TSA may face resource challenges in overseeing 
participants in the CCSP. While TSA has increased its number of 
inspectors dedicated to cargo and plans to request funding for 
additional inspectors, it has not yet conducted an assessment 
of its compliance resource needs under the program.
    Fourth, while the CCSP is focused on domestic and outbound 
air cargo, more work remains to strengthen the security of 
cargo transported into the United States from foreign 
countries. TSA has strengthened its efforts to secure inbound 
air cargo through various means, including planning to increase 
the amount of cargo physically screened. In addition, TSA has 
begun working with foreign governments to help develop uniform 
air cargo security standards and to mutually recognize each 
others' standards, referred to as harmonization. However, the 
agency has not yet finalized its strategy for securing this 
cargo and continues to exempt certain types of cargo from 
screening.
    Finally, the air cargo industry is critical to the 
successful implementation of the CCSP. Should these entities 
not volunteer to participate in the program in the thousands as 
TSA envisions, air carriers will ultimately be responsible for 
ensuring that cargo is screened prior to its transport on 
passenger aircraft, which could become an overwhelming 
undertaking.
    We will continue to review TSA's air cargo security efforts 
and will report to this committee and the public on the results 
of our work.
    This conclude my opening statement. I look forward to your 
questions.
    [The statement of Ms. Berrick follows:]
               Prepared Statement of Cathleen A. Berrick
                             July 15, 2008
                             gao highlights
    Highlights of GAO-08-959T, a testimony before the Subcommittee on 
Transportation Security and Infrastructure Protection, Committee on 
Homeland Security, House of Representatives.
Why GAO Did This Study
    The Implementing Recommendations of the 9/11 Commission Act of 2007 
requires the Transportation Security Administration (TSA) to implement 
a system to physically screen 100 percent of cargo on passenger 
aircraft by August 2010. To fulfill these requirements, the Department 
of Homeland Security's (DHS) TSA is developing the Certified Cargo 
Screening Program (CCSP), which would allow the screening of cargo to 
occur prior to placement on an aircraft. This testimony addresses four 
challenges TSA may face in developing a system to screen 100 percent of 
cargo: (1) Deploying effective technologies; (2) changing TSA air cargo 
screening exemptions; (3) allocating compliance inspection resources to 
oversee CCSP participants; and (4) securing cargo transported from a 
foreign nation to the United States. GAO's comments are based on GAO 
products issued from October 2005 through February 2008, including 
selected updates conducted in July 2008.
What GAO Recommends
    GAO has made recommendations to DHS and TSA in prior reports to 
increase the security and screening of air cargo, including completing 
vulnerability assessments and developing a plan for analyzing 
compliance inspections. TSA generally agreed with these recommendations 
and plans to address them.
  aviation security: transportation security administration may face 
  resource and other challenges in developing a system to screen all 
                cargo transported on passenger aircraft
What GAO Found
    DHS has taken steps to develop and test technologies for screening 
and securing air cargo; however, TSA has not completed assessments of 
the technologies it plans to use as part of the CCSP. TSA has reported 
that there are several challenges that must be overcome to effectively 
implement any of these technologies, including the nature, type, and 
size of cargo to be screened and the location of air cargo facilities. 
In addition, the air cargo industry voiced concern about the costs 
associated with purchasing the screening equipment. GAO will likely 
review this issue in future work.
    TSA plans to revise and eliminate screening exemptions for some 
categories of air cargo, thereby reducing the percentage of cargo 
transported on passenger aircraft that is subject to alternative 
methods of screening. However, TSA plans to continue to exempt some 
types of domestic and outbound cargo (cargo transported by air from the 
United States to a foreign location) after August 2010. TSA based its 
determination regarding the changing of exemptions on professional 
judgment and the results of air cargo vulnerability assessments. 
However, TSA has not completed all of its air cargo vulnerability 
assessments, which would further inform its efforts.
    TSA officials stated there may not be enough compliance inspectors 
to oversee implementation of the CCSP and is anticipating requesting an 
additional 150 inspectors for fiscal year 2010. They further stated 
that they have not formally assessed the number of inspectors the 
agency will need. Without such an assessment, TSA may not be able to 
ensure that CCSP entities are meeting TSA requirements to screen and 
secure cargo. To ensure that existing air cargo security requirements 
are being implemented as required, TSA conducts audits, referred to as 
compliance inspections, of air carriers that transport cargo. The 
compliance inspections range from a comprehensive review of the 
implementation of all security requirements to a review of at least one 
security requirement by an air carrier or freight forwarder (which 
consolidates cargo from many shippers and takes it to air carriers for 
transport). GAO reported in October 2005 that TSA had conducted 
compliance inspections on fewer than half of the estimated 10,000 
freight forwarders Nation-wide and, of those, had found violations in 
over 40 percent of them. GAO also reported that TSA had not analyzed 
the results of compliance inspections to systematically target future 
inspections.
    GAO reported in April 2007 that more work remains for TSA to 
strengthen the security of cargo transported from a foreign nation to 
the United States, referred to as inbound air cargo. Although TSA is 
developing a system to screen 100 percent of domestic and outbound 
cargo, TSA officials stated that it does not plan to include inbound 
cargo because it does not impose its security requirements on foreign 
countries. TSA officials said that vulnerabilities to inbound air cargo 
exist and that these vulnerabilities are in some cases similar to those 
of domestic air cargo, but stated that each foreign country has its own 
security procedures for flights coming into the United States.
    Ms. Chairwoman and Members of the subcommittee, we appreciate the 
opportunity to participate in today's hearing to discuss the security 
of the air cargo transportation system. In response to the terrorist 
attacks of September 11, 2001, the Aviation and Transportation Security 
Act was enacted in November 2001, which created the Transportation 
Security Administration (TSA) and required it to provide for the 
screening of all passengers and property, including cargo, U.S. mail, 
and carry-on and checked baggage that is transported onboard passenger 
aircraft. Recognizing the need to strengthen the security of air cargo, 
Congress enacted, and the President signed into law, the Implementing 
Recommendations of the 9/11 Commission Act of 2007, which requires TSA 
to implement a system to physically screen 50 percent of cargo on 
passenger aircraft by February 2009, and 100 percent of such cargo by 
August 2010.\1\ To fulfill the requirements of the Act, TSA is 
developing a program, referred to as the Certified Cargo Screening 
Program (CCSP), which would allow the screening of air cargo to take 
place at various points throughout the air cargo supply chain. Under 
the CCSP, Certified Cargo Screening Facilities (CCSF), such as 
shippers, manufacturing facilities, and freight forwarders that meet 
security requirements established by TSA, will volunteer to screen 
cargo prior to its loading onto an aircraft.\2\ Participation of the 
air cargo industry is critical to the successful implementation of the 
CCSP. According to TSA officials, air carriers will ultimately be 
responsible for screening 100 percent of cargo transported on passenger 
aircraft should air cargo industry entities not volunteer to become a 
CCSF.
---------------------------------------------------------------------------
    \1\ See Pub. L. No. 110-53,  1602, 121 Stat. 266, 477-80 (2007) 
(codified at 49 U.S.C.  44901(g) (mandating the screening of all cargo 
transported on passenger aircraft and defining ``screening'' for 
purposes of satisfying the mandate)).
    \2\ A freight forwarder consolidates cargo from many shippers and 
takes it to air carriers for transport.
---------------------------------------------------------------------------
    My testimony today focuses on the challenges TSA may face as it 
works to develop a system to screen 100 percent of cargo transported on 
passenger aircraft by August 2010. Our comments are based on GAO 
reports and testimonies issued between October 2005 and February 2008 
addressing the security of the air cargo transportation system, 
including selected updates to this work conducted in July 2008. In 
addition, this statement includes selected information collected during 
our review of TSA's report on its air cargo screening exemptions as 
mandated by the Implementing Recommendations of the 9/11 Commission Act 
of 2007.\3\ This review was completed in July 2008 and has yet to be 
publicly issued. We will initiate a review of TSA's efforts to meet the 
requirement to screen 100 percent of cargo transported on passenger 
aircraft in the near future, at the request of the Chairman of the 
House Committee on Homeland Security and Congressman Edward Markey.
---------------------------------------------------------------------------
    \3\ See Pub. L. No. 110-53,  1602(b), 121 Stat. 266, 479-80 
(2007).
---------------------------------------------------------------------------
    We conducted our work in accordance with generally accepted 
government auditing standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to provide 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
                                summary
    TSA has taken actions to strengthen the security of air cargo, but 
may face four major challenges as it proceeds with its plans to 
implement a system to screen 100 percent of cargo transported on 
passenger aircraft by August 2010.\4\ These challenges are: (1) 
Deploying effective technologies to screen and secure air cargo; (2) 
determining whether to revise, maintain or eliminate existing TSA air 
cargo screening exemptions; (3) allocating compliance inspection 
resources to oversee CCSP participants; and (4) securing inbound 
cargo.\5\ First, TSA has identified some technologies that the agency 
plans to allow certified facilities to use for screening and securing 
cargo, but has not yet completed assessments of these technologies. As 
a result, TSA cannot be assured that the technologies it plans to 
approve for use as part of the CCSP can effectively screen cargo. In 
addition, the air cargo industry has expressed concern regarding the 
costs associated with purchasing the screening equipment under the 
CCSP. Second, although TSA has taken steps to eliminate the majority of 
exempted domestic and outbound cargo that it has not required to be 
screened, the agency currently plans to continue to exempt some types 
of domestic and outbound cargo from screening after August 2010.\6\ TSA 
determined whether to change its exemptions based on professional 
judgment and, to some extent, the results of air cargo vulnerability 
assessments. However, TSA has yet to complete its air cargo 
vulnerability assessments, which could help to identify other potential 
security vulnerabilities associated with the exemptions. In addition, 
while TSA has plans to complete its vulnerability assessments, the 
agency has not established a time frame for doing so. Third, the agency 
has also begun analyzing the results of air cargo compliance 
inspections and has hired additional compliance inspectors dedicated to 
air cargo. TSA officials reported, however, that the agency will need 
additional air cargo inspectors to oversee the efforts of the 
potentially thousands of entities that may participate in the CCSP once 
it is fully implemented. Finally, more work remains in order for TSA to 
strengthen the security of inbound cargo. Specifically, the agency has 
not yet finalized its strategy for securing inbound cargo or determined 
how, if at all, inbound cargo will be screened as part of its proposed 
CCSP.
---------------------------------------------------------------------------
    \4\ ``Screening'' as defined by the Implementing Recommendations of 
the 9/11 Commission Act of 2007 means a physical examination or 
nonintrusive methods of assessing whether cargo poses a threat to 
transportation security. See 49 U.S.C.  44901(g)(5). Such methods of 
screening include X-ray systems, explosives detection systems (EDS), 
explosives trace detection, explosives detection canine teams certified 
by TSA, or a physical search together with manifest verification. While 
additional methods may be approved to ensure that cargo does not pose a 
threat to transportation security, these additional methods cannot 
include solely performing a review of information about the contents of 
cargo or verifying the identity of a shipper of the cargo if not 
performed in conjunction with other authorized security methods, 
including whether a shipper is registered in the known shipper 
database.
    \5\ Inbound air cargo is cargo that is transported into the United 
States from abroad by either U.S. or foreign-operated air carriers.
    \6\ Cargo transported by air within the United States is referred 
to as domestic air cargo, and cargo transported by air from the United 
States to a foreign location is referred to as outbound air cargo.
---------------------------------------------------------------------------
                               background
    Air cargo ranges in size from 1 pound to several tons, and in type 
from perishables to machinery, and can include items such as electronic 
equipment, automobile parts, clothing, medical supplies, other dry 
goods, fresh cut flowers, fresh seafood, fresh produce, tropical fish, 
and human remains. Cargo can be shipped in various forms, including 
large containers known as unit loading devices that allow many packages 
to be consolidated into one container that can be loaded onto an 
aircraft, wooden crates, assembled pallets, or individually wrapped/
boxed pieces, known as break bulk cargo. Participants in the air cargo 
shipping process include shippers, such as individuals and 
manufacturers; indirect air carriers, also referred to as freight 
forwarders; air cargo handling agents who process and load cargo onto 
aircraft on behalf of air carriers; and air carriers that store, load, 
and transport cargo. A shipper may also send freight by directly 
packaging and delivering it to an air carrier's ticket counter or 
sorting center where either the air carrier or a cargo handling agent 
will sort and load cargo onto the aircraft.
    According to TSA's Air Cargo Strategic Plan, issued in November 
2003, the agency's mission for the air cargo program is to secure the 
air cargo transportation system while not unduly impeding the flow of 
commerce. TSA's responsibilities for securing air cargo include, among 
other things, establishing security requirements governing domestic and 
foreign passenger air carriers that transport cargo, and domestic 
freight forwarders.\7\ TSA is also responsible for overseeing the 
implementation of air cargo security requirements by air carriers and 
freight forwarders through compliance inspections, and, in coordination 
with the Department of Homeland Security's (DHS) Science and Technology 
(S&T) Directorate, for conducting research and development of air cargo 
security technologies. Air carriers are responsible for implementing 
TSA security requirements, predominantly through a TSA-approved 
security program that describes the security policies, procedures, and 
systems the air carrier will implement and maintain to comply with TSA 
security requirements. These requirements include measures related to 
the acceptance, handling, and screening of cargo; training of employees 
in security and cargo screening procedures; testing employee 
proficiency in cargo screening; and access to cargo areas and aircraft. 
If threat information or events indicate that additional security 
measures are needed to secure the aviation sector, TSA may issue 
revised or new security requirements in the form of security directives 
or emergency amendments applicable to domestic or foreign air carriers. 
Air carriers must implement the requirements set forth in the security 
directives or emergency amendments in addition to those requirements 
already imposed and enforced by TSA.
---------------------------------------------------------------------------
    \7\ TSA also establishes security requirements for domestic and 
foreign all-cargo carriers that transport cargo to, from, and within 
the United States.
---------------------------------------------------------------------------
    DHS's U.S. Customs and Border Protection (CBP) has primary 
responsibility for preventing terrorists and implements of terrorism 
from entering the United States. Specifically, CBP screens inbound air 
cargo upon its arrival in the United States to ensure that cargo 
entering the country complies with applicable laws and does not pose a 
security risk. CBP's efforts include analyzing information on cargo 
shipments to identify high-risk cargo arriving in the United States 
that may contain terrorists or weapons of mass destruction, commonly 
known as targeting, and physically screening this cargo upon its 
arrival.\8\
---------------------------------------------------------------------------
    \8\ For the purpose of the statement, the term ``targeting'' refers 
to the use of information obtained from the screening process to 
identify high-risk air cargo shipments for inspection.
---------------------------------------------------------------------------
    Air carriers use several methods and technologies to screen cargo. 
These currently include manual physical searches and the use of 
approved technology, such as X-ray systems; explosives trace detection 
systems; decompression chambers; explosive detection systems (EDS); and 
certified explosives detection canine teams.\9\ Under TSA's security 
requirements for domestic and inbound cargo, passenger air carriers are 
currently required to randomly screen a specific percentage of 
nonexempt cargo pieces listed on each airway bill. As of October 2006, 
domestic freight forwarders are also required, under certain 
conditions, to screen a certain percentage of cargo prior to its 
consolidation. TSA does not regulate foreign freight forwarders, or 
individuals or businesses that have their cargo shipped by air to the 
United States.
---------------------------------------------------------------------------
    \9\ Explosives Trace Detection requires human operators to collect 
samples of items to be screened with swabs, which are chemically 
analyzed to identify any traces of explosive material. Decompression 
chambers simulate the pressures acting on an aircraft by simulating 
flight conditions, which cause explosives that are attached to 
barometric fuses to detonate. An explosive detection system uses 
computer-aided tomography X-rays to examine objects inside baggage and 
identify the characteristic signatures of threat explosives. Certified 
explosives detection canine teams have been evaluated by TSA and shown 
to effectively detect explosive devices.
---------------------------------------------------------------------------
dhs is in the early stages of testing technologies to screen and secure 
                               air cargo
    DHS has taken some steps to develop and test technologies for 
screening and securing air cargo, but has not yet completed assessments 
of the technologies TSA plans to approve for use as part of the CCSP. 
According to TSA officials, there is no single technology capable of 
efficiently and effectively screening all types of air cargo for the 
full range of potential terrorist threats, including explosives and 
weapons of mass destruction. We reported in October 2005, and again in 
April 2007, that TSA, working with DHS's S&T Directorate, was 
developing and pilot testing a number of technologies to screen and 
secure air cargo with minimal impact on the flow of commerce. DHS 
officials stated that once the Department determines which technologies 
it will approve for use with domestic air cargo, it will consider the 
use of these technologies for enhancing the security of inbound cargo 
shipments. These pilot programs seek to enhance the security of cargo 
by improving the effectiveness of air cargo screening through increased 
detection rates and reduced false alarm rates, while addressing the two 
primary threats to air cargo identified by TSA--hijackers on an all-
cargo aircraft and explosives on passenger aircraft. A description of 
these pilot programs and their status is included in table 1.

 TABLE 1.--TSA AND S&T'S PILOT PROGRAMS TO TEST TECHNOLOGIES TO SCREEN AND SECURE AIR CARGO WITH MINIMAL IMPACT
                                             ON THE FLOW OF COMMERCE
----------------------------------------------------------------------------------------------------------------
             Pilot Program                           Description                            Status
----------------------------------------------------------------------------------------------------------------
Air cargo explosives detection pilot     Tests the use of explosive           Consistent with the Conference
 program.                                 detections systems, explosives       Report accompanying the
                                          trace detectors, standard X-ray      Department of Homeland Security
                                          machines, canine teams,              Appropriations Act, 2006, DHS's
                                          technologies that can locate a       S&T is reporting on the initial
                                          stowaway through detection of a      results of the pilots every 6
                                          heartbeat or increased carbon        months after initiation of the
                                          dioxide levels in cargo, and         first pilot.* DHS last submitted
                                          manual screening of air cargo.       a report dated June 2007, and the
                                                                               latest update is currently
                                                                               undergoing DHS executive review.
                                                                               In July 2008, TSA officials
                                                                               provided an update that this
                                                                               pilot is complete and that its
                                                                               final report to Congress is due
                                                                               July 2008.
Explosive detection system (EDS).......  Tests the use of computer-aided      TSA planned to complete this pilot
                                          tomography to compare the            program in May 2008. In July
                                          densities of objects to locate       2008, TSA officials provided an
                                          explosives in air cargo and to       update that the pilot will be
                                          determine the long-term              completed by the end of 2008.
                                          feasibility of using EDS equipment
                                          as a total screening process for
                                          break bulk air cargo.
Air cargo security seals...............  Explores the viability of potential  Contract was awarded in June 2007
                                          security countermeasures, such as    and TSA planned to start
                                          tamper-evident security seals, for   evaluating various seals in the
                                          use with certain classifications     spring of 2008. However, in July
                                          of exempt cargo.                     2008, TSA officials provided an
                                                                               update that the agency is not
                                                                               conducting a pilot program in
                                                                               this area.
Hardened unit loading devices..........  Tests the use of containers made of  TSA is finalizing its pilot
                                          blast-resistant materials that       program to evaluate hardened unit
                                          could withstand an explosion         loading devices. In July 2008,
                                          onboard an aircraft.                 TSA officials provided an update
                                                                               that this pilot will be completed
                                                                               by the end of August 2008.
Pulsed fast neuron analysis (PFNA).....  Identifies the chemical signatures   In the research and development
                                          of contraband, explosives and        phase. However, in July 2008, TSA
                                          other threat objects.                officials provided an update that
                                                                               the agency does not plan to
                                                                               conduct a pilot program in this
                                                                               area.
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of information provided by TSA.
* H.R. Conf. Rep. No. 109-241, at 53 (2005) (accompanying Pub. L. No. 109-90, 119 Stat. 2064 (2005)).

    Although TSA is moving forward with its plans to implement a system 
to screen 100 percent of cargo transported on passenger aircraft, the 
agency has not completed all of its assessments of air cargo screening 
technologies. According to TSA officials, the results of its technology 
tests will need to be analyzed before the agency determines which 
technologies will be certified for screening cargo, and whether it will 
require air carriers and other CCSP participants to use such 
technology. Although TSA has not completed all of its pilot programs or 
set time frames for completing all of them, TSA is planning on allowing 
CCSFs to use explosives trace detection, explosive detection system 
(EDS), X-ray, and other technology under CCSP for screening cargo. 
Without all of the results of its pilot programs or a time frame for 
their completion, however, TSA cannot be assured that the technologies 
the agency plans to approve for screening cargo as part of the CCSP are 
effective. GAO will likely review this issue as part of our planned 
review of TSA's efforts to meet the requirement to screen 100 percent 
of cargo transported on passenger aircraft.
    According to TSA officials, tamper-evident/resistant security seals 
will be essential for ensuring that cargo screened under the CCSP has 
not been tampered with during transport from the CCSF to the air 
carrier. Officials noted that the agency recognizes that the weakest 
link in the transportation of air cargo is the chain of custody to and 
from the various entities that handle and screen cargo shipments prior 
to its loading onto an aircraft. Officials stated that the agency has 
taken steps to analyze the chain of custody of cargo under the CCSP, 
and is drafting a security program that will address all entities 
involved in the transportation and screening of cargo under the CCSP to 
ensure that the chain of custody of the cargo is secure. However, as of 
July 2008, TSA officials stated that the agency is not conducting a 
pilot program to test tamper-evident/resistant security seals. 
Therefore, the effectiveness of security seals to effectively prevent 
cargo shipments from tampering is unknown. GAO will likely review this 
issue as part of our planned review of TSA's efforts to meet the 
requirement to screen 100 percent of cargo transported on passenger 
aircraft.
    In addition, we reported in April 2007 that several air carriers we 
met with were using large X-ray machines at facilities abroad to screen 
entire pallets of cargo transported on passenger aircraft. These 
machines allow for cargo on pallets to undergo X-ray screening without 
requiring the pallet to be broken down.\10\ We also noted that CBP uses 
this technology to screen inbound air cargo once it enters the United 
States. TSA officials recently stated that the agency planned to pilot 
test large X-ray machines, identifying that large X-ray machines could 
be used to screen certain types of cargo that are currently exempt from 
TSA's screening requirements, as part of the agency's efforts to screen 
100 percent of cargo transported on passenger aircraft. TSA officials 
stated that the agency plans to evaluate this equipment beginning late 
2008 as part of its CCSP pilot program and to complete the evaluation 
at the conclusion of the CCSP pilot in August 2010.
---------------------------------------------------------------------------
    \10\ GAO, Aviation Security: Federal Efforts to Secure U.S.-Bound 
Air Cargo Are in the Early Stages and Could Be Strengthened, GAO-07-660 
(Washington, DC: April 2007).
---------------------------------------------------------------------------
    In addition, as part of the agency's plans to screen 100 percent of 
cargo transported on passenger aircraft, TSA is taking steps to expand 
the use of TSA-certified explosives detection canine teams to screen 
cargo before it is placed onto passenger aircraft. In 2004, TSA 
conducted a pilot program that determined that canine teams had an 
acceptable rate of detecting explosives in an air cargo environment, 
even when the teams were not specifically trained in this area. TSA is 
in the process of adding 170 canine teams to support aviation security 
efforts, of which 85 will be primarily used to screen air cargo.\11\ 
These teams are to be primarily located at the 20 airports that receive 
approximately 65 percent of all air cargo transported within the United 
States. TSA officials, however, could not identify whether the 
additional 85 canine teams will meet the agency's increasing screening 
needs as part of its efforts to screen 100 percent of such cargo, thus 
raising questions regarding the future success of the CCSP.
---------------------------------------------------------------------------
    \11\ There are currently 370 TSA-certified explosives detection 
canine teams that are cross-trained to work in multiple aviation 
environments, including air cargo.
---------------------------------------------------------------------------
    According to TSA officials, the Federal Government and the air 
cargo industry face several challenges that must be overcome to 
effectively implement any of these technologies to screen or secure 
cargo. These challenges include factors such as the nature, type and 
size of cargo to be screened; environmental and climatic conditions 
that could impact the functionality of screening equipment; low 
screening throughput rates; staffing and training issues for 
individuals who screen cargo; the location of air cargo facilities; 
employee health and safety concerns, such as worker exposure to 
radiation; and the cost and availability of screening technologies. As 
TSA takes steps to implement the CCSP, it will be critical for the 
agency to address these challenges to ensure the effectiveness of the 
program.
    As TSA proceeds from piloting to implementing the CCSP, the issue 
of who purchases the technologies to support the program will have to 
be resolved. Specifically, TSA officials stated that under the CCSP, 
certified facilities and air carriers will be responsible for 
purchasing equipment to screen cargo. Officials noted that many air 
carriers already have screening equipment in place at their facilities 
to support this screening, and stated that TSA will reimburse CCSFs for 
the cost of the equipment, such as EDS, for up to $375,000 per facility 
as long as these entities continue to meet security requirements 
established by TSA. The CCSF, however, will be responsible for 
maintaining the screening equipment and purchasing new equipment in the 
future. In addition, CCSFs will be required to train their staff to 
operate the equipment using TSA's training standards. Air cargo 
industry stakeholders have already raised concerns regarding the cost 
of purchasing and maintaining screening equipment to support the CCSP. 
According to some industry estimates, the cost of purchasing air cargo 
screening equipment will be much more than the $375,000 TSA plans to 
reimburse each CCSP participant. In addition, the air cargo industry 
has expressed concern regarding the costs associated with training 
those individuals who will be operating the air cargo screening 
equipment.
    tsa plans to revise and eliminate screening exemptions for some 
categories of air cargo, but has not completed air cargo vulnerability 
                   assessments to inform its efforts
    TSA plans to revise and eliminate current exemptions for some 
categories of cargo, thereby reducing the percentage of cargo 
transported on passenger aircraft that is subject to alternative 
methods of screening.\12\ These changes will go into effect in early 
2009. However, according to agency officials, TSA made these 
determinations based on a limited number of vulnerability assessments, 
as well as professional judgment.\13\ In February 2008, TSA issued a 
report assessing existing screening exemptions for certain kinds of 
cargo transported on passenger aircraft and evaluated the risk of 
maintaining those exemptions. As part of its assessment, TSA officials 
stated that they considered and determined the threat to and 
vulnerability of the exempted cargo types. TSA officials also stated 
they based their determinations on which screening exemptions to 
revise, maintain or eliminate in part on results from air cargo 
vulnerability assessments at Category X airports they completed in 
accordance with law.\14\ TSA has completed assessments at 6 of the 27 
Category X airports. Absent the completed assessments, which could help 
to identify potential security vulnerabilities associated with the 
exemptions, TSA does not have complete information with which to make 
risk-based decisions regarding the security of air cargo. TSA officials 
have acknowledged the importance of completing air cargo vulnerability 
assessments and stated that they will complete them by the end of 2009. 
Officials further stated that as the agency conducts additional air 
cargo vulnerability assessments, they will assess the results to 
determine whether existing screening exemptions should be revised, 
maintained or eliminated.
---------------------------------------------------------------------------
    \12\ For certain types of cargo, TSA has authorized the use of TSA-
approved alternative methods for screening cargo transported on 
passenger aircraft. Alternative methods can include verifying shipper 
information and conducting a visual inspection of the cargo shipment.
    \13\ TSA officials made these statements during our review of TSA's 
report on its air cargo screening exemptions. We completed this review 
in July 2008 and the results have yet to be publicly issued.
    \14\ See Pub. L. No. 110-28, 121 Stat. 112, 140-41 (2007) 
(providing that the $80 million appropriated for air cargo shall be 
used to complete air cargo vulnerability assessments for all Category X 
airports, among other purposes). TSA classifies the commercial airports 
in the United States into one of five security risk categories (X, I, 
II, III, and IV). In general, Category X airports have the largest 
number of passenger boardings, and Category IV airports have the 
smallest. Categories X, I, II, and III airports account for more than 
90 percent of the Nation's air traffic.
---------------------------------------------------------------------------
 tsa has taken actions to strengthen air cargo compliance inspections, 
   but more resources may be needed to ensure ccsp participants are 
                   meeting tsa screening requirements
    To ensure that existing air cargo security requirements are being 
implemented as required, TSA inspects air carriers and freight 
forwarders that transport cargo. Under the CCSP, TSA will also have to 
inspect other entities, such as shippers, who volunteer to participate 
in the program. These compliance inspections range from an annual 
comprehensive review of the implementation of all air cargo security 
requirements to a more frequent review of at least one security 
requirement by an air carrier or freight forwarder. In October 2005, we 
reported that TSA had conducted compliance inspections on less than 
half (49 percent) of the estimated 10,000 freight forwarder facilities 
Nation-wide, and of those freight forwarders they had inspected, the 
agency found violations in over 40 percent of them. We also reported 
that TSA had not determined what constitutes an acceptable level of 
performance related to compliance inspections, or compared air 
carriers' and freight forwarders' performance against this standard; 
analyzed the results of inspections to systematically target future 
inspections on those entities that pose a higher security risk to the 
domestic air cargo system; or assessed the effectiveness of its 
enforcement actions taken against air carriers and freight forwarders 
to ensure that they are complying with air cargo security requirements. 
We recommended that TSA develop a plan for systematically analyzing 
andusing the results of air cargo compliance inspections to target 
future inspections and identify system-wide corrective actions. We also 
recommended that TSA assess the effectiveness of enforcement actions in 
ensuring air carrier and freight forwarder compliance with air cargo 
security requirements. TSA officials stated that, since our report was 
issued, the agency has increased the number of inspectors dedicated to 
conducting domestic air cargo compliance inspections. Officials also 
told us that TSA has begun analyzing compliance inspection results to 
prioritize their inspections on those entities that have the highest 
rates of non-compliance, as well as newly approved freight forwarders 
and air carriers that have yet to be inspected. However, in recent 
discussions with TSA officials regarding their plans to implement the 
CCSP, they stated that there may not be enough compliance inspectors to 
conduct compliance inspections of all the entities that could be a part 
of the CCSP, which TSA officials told us could number in the thousands, 
once the program is fully implemented by August 2010. As a result, TSA 
is anticipating requesting an additional 150 cargo Transportation 
Security Inspectors for fiscal year 2010 to supplement its existing 
allocation of 450 Transportation Security Inspectors. However, TSA 
officials stated that they have not formally assessed the number of 
Transportation Security Inspectors the agency will need. Without such 
an assessment, TSA may not be able to ensure that entities involved in 
the CCSP are meeting TSA requirements to screen and secure cargo. GAO 
will likely review this issue as part of our planned review of TSA's 
efforts to meet the requirement to screen 100 percent of cargo 
transported on passenger aircraft.
    tsa has not identified a strategy for securing inbound air cargo
    We reported in April 2007 that more work remains in order for TSA 
to strengthen the security of inbound cargo. As previously stated, TSA 
is currently taking steps to develop a system of screening 100 percent 
of domestic and outbound cargo transported on passenger aircraft. TSA 
does not, however, currently plan to include inbound cargo as part of 
this system. TSA officials acknowledge that vulnerabilities to inbound 
cargo exist, but stated that each foreign country has its own security 
procedures for flights coming into the United States, and further 
stated that TSA does not impose its security requirements on foreign 
countries. According to TSA, it will continue to work with other 
countries to encourage the adoption of uniform measures for screening 
cargo flights bound for the United States as it enhances its 
requirements for screening cargo originating in the United States. TSA 
has begun working with foreign governments to develop uniform air cargo 
security standards and to mutually recognize each other's security 
standards, referred to as harmonization. We reported, however, that 
duplicative air cargo security standards exist, which can impede the 
flow of commerce, expose air cargo shipments to security risk, and 
damage high-value items. For example, to meet TSA requirements, 
passenger air carriers transporting cargo into the United States must 
screen a certain percentage of non-exempt cargo shipments, even though 
these shipments may have already been screened by a foreign government. 
Air carrier representatives stated that meeting TSA screening 
requirements is problematic in certain foreign countries because air 
carriers are not permitted to rescreen cargo shipments that have 
already been screened by foreign government employees and deemed 
secure. These conflicts and duplication of effort could potentially be 
avoided through harmonization.
    According to TSA officials, pursuing harmonization would improve 
the security of inbound cargo and assist TSA in performing its mission. 
For example, officials stated that the harmonization of air cargo 
security standards would provide a level of security to those entities 
not currently regulated by the agency, such as foreign freight 
forwarders and shippers. However, achieving harmonization with foreign 
governments may be challenging because these efforts are voluntary and 
some foreign countries do not share the United States' view regarding 
air cargo security threats and risks. Additionally, foreign countries 
may lack the resources or infrastructure needed to develop an air cargo 
security program as comprehensive as that of the United States. In 
April 2007, we recommended that TSA, in collaboration with foreign 
governments and the United States air cargo industry, systematically 
compile and analyze information on air cargo security practices used 
abroad to identify those that may strengthen TSA's overall air cargo 
security program. TSA agreed with this recommendation and, since the 
issuance of our report, has reviewed the air cargo screening models of 
two foreign countries. According to TSA officials, this review led to 
the design of their proposed CCSP.
    Opportunities exist for TSA to further strengthen its screening 
efforts for inbound cargo in the following three key areas:
    Conducting air cargo vulnerability assessments for inbound cargo. 
As noted earlier, TSA is currently conducting air cargo vulnerability 
assessments at Category X airports, but is not including inbound cargo 
in these assessments. While TSA has plans to conduct vulnerability 
assessments as part of its risk-based approach to securing inbound 
cargo, the agency has not established a time frame for doing so. Such 
assessments could provide information on the potential vulnerabilities 
posed by the transport of inbound cargo. We reported in April 2007 that 
TSA officials stated that they would conduct vulnerability assessments 
of inbound cargo after they had assessed the vulnerability of domestic 
cargo. Nevertheless, TSA officials acknowledged that vulnerabilities to 
inbound cargo exist and that these vulnerabilities are in some cases 
similar to those facing the domestic and outbound air cargo supply 
chain.
    Assessing the vulnerability posed by maintaining screening 
exemptions for inbound air cargo. TSA has not assessed the potential 
vulnerabilities posed by inbound air cargo screening exemptions. In 
April 2007, we reported on the potential vulnerabilities associated 
with inbound air cargo screening exemptions. Specifically, we reported 
that screening exemptions could pose a risk to the inbound air cargo 
supply chain because TSA has limited information on the background of 
and security risks posed by foreign freight forwarders and shippers 
whose cargo may fall into one of the exemption categories. We 
recommended that TSA assess whether existing inbound air cargo 
screening exemptions pose an unacceptable vulnerability to the air 
cargo supply chain and if necessary, address these vulnerabilities. TSA 
agreed with this recommendation and noted that the agency had recently 
revised and eliminated domestic and outbound air cargo screening 
exemptions. However, TSA has yet to address our recommendation for 
assessing inbound air cargo screening exemptions.
    Updating TSA's Air Cargo Strategic Plan to address inbound cargo. 
As part of TSA's risk-based approach, TSA issued an Air Cargo Strategic 
Plan in November 2003 that focused on securing the domestic air cargo 
supply chain. However, in April 2007, we reported that this plan did 
not include goals and objectives for securing inbound cargo, which 
presents different security challenges than cargo transported 
domestically. To ensure that a comprehensive strategy for securing 
inbound cargo exists, we recommended that DHS develop a risk-based 
strategy to address inbound cargo security that should define TSA's and 
CBP's responsibilities for ensuring the security of inbound cargo. In 
response to our recommendation, CBP issued its International Air Cargo 
Security Strategic Plan in June 2007. While this plan identifies how 
CBP will partner with TSA, it does not specifically address TSA's 
responsibilities in securing inbound cargo. According to TSA officials, 
the agency plans to revise its Air Cargo Strategic Plan in the fall of 
2008, and will address TSA's strategy for securing cargo from 
international last points of departure, as well as its collaborative 
efforts with CBP to secure this cargo.
    Ms. Chairwoman, this concludes my statement. I would be pleased to 
answer any questions that you or other Members of the subcommittee may 
have at this time.

    Ms. Jackson Lee. Let me thank the witnesses for their 
testimony and remind each Member that he or she will have 5 
minutes to question the panel. I now recognize myself for 
questions.
    Let me address this to you, Mr. Sammon. You have hopefully 
responded to my opening statement and at least laid out a 
framework of what the challenges are.
    Tell me about this problem of capacity, and have you 
advised this subcommittee, myself as the Chairwoman, on this 
seemingly growing or ongoing problem?
    Mr. Sammon. We have had numerous briefings with the staff. 
The issue, what we don't want to do is to simply pass a 
regulation forcing the air carriers to screen all of the cargo 
at the airport. Our problem is that much of the cargo that is 
presented to the air carriers comes in the form of consolidated 
loads, that there are large shipments that are put together to 
go to particular places, and there are economic reasons and 
materials handling reasons for this.
    Ms. Jackson Lee. Mr. Sammon, I appreciate where you are 
going with this, but in advising the staff, what is your 
intention about the lack of capacity? Hear me out, because the 
lack of capacity may be an issue in 2009, it may be an issue in 
2010. You have to directly respond to the issue of capacity.
    Are you going to ask the airports to inventory their space 
and to look for what might be feasible? Have you concluded that 
there is no on-site space? What is the option?
    Mr. Sammon. What we are looking at, we feel at some 
airports there may be plenty of capacity. However, at others, 
there is insufficient capacity. Therefore, the capacity we want 
to use for screening is at the locations where people are 
assembling these loads and/or shipping the loads that are going 
onto the passenger aircraft. In each market, it will vary. In 
some markets, it may be more in the airport; in some it may be 
more off.
    Ms. Jackson Lee. So you are not looking necessarily for 
space at the airport? Is that what you are saying?
    Mr. Sammon. No, ma'am.
    Ms. Jackson Lee. So when you make the point there is not 
capacity, what are you speaking of?
    Mr. Sammon. What we are speaking of is that if we forced 
all of the cargo screening to happen at all airports, we would 
have a capacity issue, that not all airports, for instance JFK, 
could handle all this.
    Ms. Jackson Lee. Because the time is short, what is the 
status of the interim rule?
    Mr. Sammon. The interim rule is progressing now. We expect 
that to be out by the end of the year.
    Ms. Jackson Lee. Can Mr. Kelly give us an exact time frame?
    Mr. Sammon. I believe he can give you the same answer. I 
can ask him, if he could.
    Ms. Jackson Lee. I would like to. Do you have an exact----
    Mr. Kelly. As John said, it is going through the process 
right now of being finalized, and it will move to DHS and OMB 
probably in the next 2 or 3 months and then be issued.
    Ms. Jackson Lee. Well, we are looking to February 2009. Is 
that what you are expecting?
    Mr. Kelly. We expect a final rule to be in place before 
February.
    Ms. Jackson Lee. Before February. Let me move quickly. 
Thank you, Mr. Sammon. I may come back to you. As I said, my 
time is short.
    Let me go to Ms. Berrick. What is your assessment of the 
progress that has been made by TSA, and, in particular, whether 
or not they have what we would call a coherent vision, an 
effective plan for first meeting the 50 percent and then 
meeting the 100 percent of screening, air cargo screening?
    Ms. Berrick. First of all, I think they have taken some 
important steps in terms of planning. They have identified the 
cities that have high volumes of cargo, identified the 
locations, and have reached out to stakeholders there.
    The area where I think they can strengthen is developing a 
more specific plan leading up to the February and August 
deadlines that are tied to time frames, and that would enable 
TSA internally and also this committee to monitor their 
progress in moving toward those deadlines. We haven't seen 
those specific plans.
    A couple of other areas where I think they can focus their 
efforts--one is related to completing technology assessments. 
As Mr. Tuttle mentioned, S&T has completed some assessments, 
but there are still a number that are under way and may not be 
completed for years.
    Ms. Jackson Lee. Let me interrupt you for a moment. What is 
your response to the TSA blocking whole categories of cargo, 
exempting whole categories of cargo?
    Ms. Berrick. We just looked at that and in fact have made 
recommendations in the past that TSA should re-look these 
exemptions. The 9/11 Act mandated TSA to re-look those 
exemptions and GAO to look at their assessment. We found that 
TSA generally did a good job in re-looking the exemptions of 
air cargo. Based on their review, they made some modifications 
to the exemptions. However, there are still some in place.
    But the key point that we made related to the exemptions is 
TSA hasn't yet completed vulnerability assessments of the air 
cargo system at airports, and as they get more information in 
from doing those assessments, it will inform their decisions 
about the exemptions. Just during the course of our review, 
they received new information from vulnerability assessments 
that prompted them to modify one of the exemptions because they 
thought it was a security vulnerability.
    So we think it is important for TSA to complete these 
assessments so they can really make informed decisions about 
the exemptions.
    Ms. Jackson Lee. My time has expired.
    Mr. Lungren, you are recognized for 5 minutes.
    Mr. Lungren. Thank you very much.
    Mr. Sammon, in January of this year, I went out to San 
Francisco Airport, I think it was the United facility, and 
looked at a, quote-unquote, pilot project that was then in 
existence with respect to air cargo. Are you familiar with that 
pilot program?
    Mr. Sammon. Yes, sir.
    Mr. Lungren. While I was there, I saw where pallets would 
come in that had been sent by a particular shipper. They were 
unpalletized, I guess is the language they used. They went 
through the system for the check. If there was something that 
indicated that one should be taken out for a physical 
inspection, it was. As I recall, a photograph was taken of the 
palletized cargo. Then the system was such that it was 
repalletized in the same way, presuming that all the pieces 
could go back in, there wasn't something that kept it out. It 
seemed to work fairly well. I didn't know how expensive it was 
or how unmanageable or manageable it was.
    What were the results of that pilot project?
    Mr. Sammon. Well, I think it was a good pilot project, and 
Jim Tuttle may wish to comment on this also. But one thing we 
did learn, if you looked at it from a materials handling 
standpoint from that same facility and shed, because I spoke to 
the personnel out there, and I said if you had taken all the 
pallets here and had to run it through the system, what would 
happen? He said there is no way we could handle it here.
    So our idea is before the boxes are put onto the pallet, is 
have that entity screen them, assemble the pallet under a 
secure chain of custody to the airport. Because the one thing 
we did learn, again from a materials handling and logistics 
standpoint, trying to do all the cargo that came to that shed, 
the United shed, would be extremely difficult and cause a lot 
of congestion in that facility.
    So, it was a worthwhile pilot to have for that one reason, 
that we learned quite a bit in terms of the materials handling 
impact, in terms of how much you could actually put through. 
That was one of the primary lessons we saw from it.
    Mr. Lungren. As you push it down the supply chain and you 
have these certified entities, are you saying that if it is a 
certified entity it would do a physical screening of each 
parcel?
    Mr. Sammon. It would do the screening of the freight before 
they are assembled. That is the idea.
    Mr. Lungren. How do you define a physical screening?
    Mr. Sammon. They would either X-ray, physically open it, 
ATD, canine, whatever, the measures that are mentioned in the 
act. If we can pull that freight out of that United cargo shed, 
we feel that the smaller businesses who bring single boxes in 
and small shipments then we will have the opportunity to have 
those shipments screened at that United shed, rather than being 
filled up by all the cargo from the large freight forwarders.
    Mr. Lungren. Is this a system that is similar to what they 
have, what has been in place in England for some time?
    Mr. Sammon. Yes. In England, they have a similar system 
that they call them consignors. But they have certified to 
screen the freight, they are certified by the British 
authorities, and then the freight is brought to the airport 
under a chain of custody. In fact, much of what we are doing is 
modeled after the British system.
    Mr. Lungren. Ms. Berrick, have you looked at this?
    Ms. Berrick. We did look at cargo screening methods around 
the world in Asia and Europe and did find that the United 
Kingdom and also Ireland have a very similar system that TSA is 
modeling off of. They have less volume of cargo than the United 
States, but it has been shown to be effective in those 
countries.
    Mr. Lungren. Would you define that as a coherent vision or 
a coherent approach to it, or is it an incoherent approach?
    Ms. Berrick. I would categorize it as a coherent approach, 
but, again, I would like to see more specific plans on how it 
is going to be implemented, given the looming time frames 
coming up in February and August.
    Mr. Lungren. What would be the nature of the certification, 
Mr. Sammon?
    Mr. Sammon. The certification would consist of facility 
security in terms of perimeter security, access control, 
background checks on employees, security processes, 
certification of the truck drivers who are going to deliver the 
freight, seals through the process, that the shipments are 
sealed, the trucks are sealed and, in terms of the whole chain 
of custody, is certified by TSA from the facility to the 
airport.
    Mr. Lungren. Mr. Tuttle, in looking at a number of these 
things that they are doing, what is the state of technology 
with respect to that? Here is the question I have. I have seen 
different pieces of technology that have come through the last 
number of years, and yet in some cases I see where dogs do a 
better job. When you are looking at things from this, I will 
call it laboratory perspective, and I mean that with a positive 
nature, that you are looking at these things to see how they 
are working, what about the practical nature of it? When you 
are looking at some of these various technology advances, do 
you take into consideration what Mr. Sammon talked about in 
terms of capacity? I will just simply say this: That is, 
scalability of the equipment, so it can be located in small 
units as well as larger units, where it may not require a major 
capital investment by an airport in terms of modifying in a 
very significant way the physical footprint that is already 
there?
    Mr. Tuttle. We worked very, very closely with TSA on these 
issues. As far as the general state of technology, the biggest 
problem, because the various commodities that flow through and 
the size of the pallets and the explosives size you need to 
look for, there is no technology that can screen a whole 
pallet, period. There is nothing even close. So, you look at 
it, you have to break it apart. So if you do break bulk, that 
is very labor-intensive to do.
    Now, there are a number of technologies that can do it, and 
TSA has already outlined what those technologies are, the five 
or six various technologies, but even they have problems with 
various commodities. So you almost have to match up the 
technology versus the commodity, and that is the data we have 
actually been collecting and providing to them to help them 
make a decision on how they are going to do it.
    Mr. Lungren. Thank you.
    Ms. Jackson Lee. The gentleman's time has expired.
    I yield 5 minutes, recognizing the distinguished gentleman 
from Oregon, Mr. DeFazio, for questioning.
    Mr. DeFazio. Thank you, Madam Chairwoman.
    Mr. Sammon, how many certified sites do you expect there 
will be?
    Mr. Sammon. We can expect for the phase 1, we expect to 
have the freight forwarders, probably about 60 to 80, and we 
expect that perhaps several hundred shippers. The initial lift 
will be, in terms of getting to the 50 percent, will be at the 
airports and also on a limited number of high-volume freight 
forwarders.
    Mr. DeFazio. So there will be 60 to 80 places that would 
have the equipment that will do the actual inspection on phase 
1?
    Mr. Sammon. Yes, sir. That is also where we are 
concentrating our canine teams, our proprietary canine teams 
also.
    Mr. DeFazio. So several hundred shippers will funnel into 
that?
    Mr. Sammon. Yes, sir.
    Mr. DeFazio. But you are not depending on the shipper to 
certify the security or safety, there will be actual physical 
inspection at those 60 to 80 places?
    Mr. Sammon. Yes, sir, for the first phase.
    Mr. DeFazio. You say here they will be random oversight, 
unannounced inspections, those sorts of things. How many 
inspectors do you think you are going to need to monitor those 
60 to 80 places?
    Mr. Sammon. Well, we will have about 450 in place, and as 
we go to 100 percent cargo screening, we will focus that 
inspection force more and more on those certified facilities. 
Right now we have about 10,000 IACs, or the independent agents 
who ship, and they do work with those folks in terms of their 
paperwork and what kind of shipments they are presenting. But 
what we want to do is see if we can focus on a limited number 
of facilities where the screening is actually happening, real 
screening taking place, what that does to the dynamic of the 
inspection force.
    Mr. DeFazio. Phase 1 is going to cover what percentage of 
the cargo?
    Mr. Sammon. Fifty percent.
    Mr. DeFazio. So do we just double that number for phase 2, 
or is it going to be more dispersed and require even more?
    Mr. Sammon. Phase 2 will be a different dynamic. If you 
think of phase 1 primarily happening at the airports and a 
limited number of freight forwarders, in phase 2 we will expand 
the number of freight forwarders and also expand the number of 
shippers.
    Mr. DeFazio. So how big?
    Mr. Sammon. The shippers may expand to 15,000 shipper 
locations.
    Mr. DeFazio. Fifteen thousand shipper locations, that 
actually do the physical screening?
    Mr. Sammon. Yes, sir.
    Mr. DeFazio. One thousand, five hundred?
    Mr. Sammon. Fifteen thousand.
    Mr. DeFazio. Fifteen thousand?
    Mr. Sammon. Yes.
    Mr. DeFazio. How many inspectors do you think you will need 
to oversee that?
    Mr. Sammon. We will have a larger force. Also we are 
looking at third-party validators to certify and to check on 
those.
    Mr. DeFazio. What is a third-party validator?
    Mr. Sammon. A third-party validator would be similar to the 
process that they use----
    Mr. DeFazio. That they use overseas? That is not too good?
    Mr. Sammon. No, that the English do use. What we would do 
is hire a party that has demonstrated their ability to do 
certifications in other areas, particularly in logistics, and 
hire them and their agents.
    Mr. DeFazio. Fifteen thousand dispersed sites. Then how are 
we going to secure--okay. I think we have a logistical problem 
there. But then beyond that, there is 15,000 places feeding the 
cargo into the airports.
    Tell me about the security system for the chain of custody. 
Let's assume that somehow we can monitor, certify and ensure 
that those 15,000 are good. How are we going to secure the 
freight after that point?
    Mr. Sammon. Well, then if it is from one of those original 
shipper sites, they could go directly to the airport with a 
secure chain of custody, that is the electronic and paper flow, 
in addition to the tamper evidence sealing system is in place.
    Mr. DeFazio. Have you a tamper-proof tamper evidence 
system, unlike the current very lame system we use on 
containers in our ports now, that any kid can replicate by 
going downtown to the local supply store?
    Mr. Sammon. There are a number of tamper evidence systems, 
and I think Mr. Tuttle also referred to the work that he is 
doing in developing these in his testimony. Also in terms of 
what we want to do with the chain of custody is work with Cathy 
Berrick and GAO through this period to make sure that we are 
covering all the bases as we go along, as opposed to waiting 
until it is over and Cathy writing a report and saying there 
are problems here, problems there.
    We would like to work with GAO to make sure we keep this as 
airtight as possible. We recognize the issues in terms of chain 
of custody. We also recognize the problems if we let all this 
freight pile up at the airport and attempt to screen it there. 
You have got a challenge, and that is the biggest challenge we 
see.
    Mr. DeFazio. Ms. Berrick, is GAO aware of the magnitude we 
are talking about here, the 15,000, and do you think that is 
going to present a pretty substantial logistical challenge 
here?
    Ms. Berrick. I think you hit on two key points, which is 
the TSA's inspections resources and being able to oversee this, 
and the second is the chain of custody.
    When we reported on this most recently at the end of 2005, 
we looked at TSA's inspection program. There is a lot of 
positive aspects to it. But the area we felt that could really 
be strengthened was really the freight forwarders. Of the 
10,000 freight forwarder locations, TSA at that time had 
inspected about half, and at half of those there were security 
deficiencies in terms of not meeting security requirements in 
40 percent of those facilities.
    So with this increased requirement in terms of overseeing 
these 15,000 facilities, I think it will be very challenging. 
TSA has increased, as Mr. Sammon mentioned, its inspections 
work force. They recognize this challenge is coming. They said 
that they plan on requesting additional funding for more 
inspectors. But I agree, I think it will be a very difficult 
challenge and something that TSA will need to assess, exactly 
what is going to be the impact on the agency, which hasn't been 
done yet.
    The second point about the chain of custody I think is also 
crucial. At one point TSA had said they were going to do a 
pilot looking at the tamper-resistant seals. We heard recently 
they weren't planning on doing that. So that is an area we will 
be following up on as part of our work.
    Mr. DeFazio. One very quick follow-up, Madam Chairwoman.
    Mr. Sammon, of those 40 percent who didn't live up to snuff 
that the GAO found, what were the consequences for those folks?
    Mr. Sammon. There is a combination of administrative and 
civil actions. I think it is about 20 percent civil actions, 
fines, penalties, revocations, whatever.
    Mr. DeFazio. Those fines, were they actually implemented? 
Because I am familiar with the process. Sometimes we read in 
the paper about a big fine, and then subsequently it kind of 
goes away through the process.
    Mr. Sammon. That is my understanding. Of that population of 
10,000 IACs, of the number of IACs, there are 10,000 IAC 
locations, there are about 5,000 roughly IACs; only about 350 
have multiple locations. So you have a lot of single mom-and-
pop folks out there who are looking at regulations and things. 
Those folks, we see them in the future. With 100 percent 
physical screening, you are going to be paying less attention 
to them, because it is going to actually be screened at the 
airport or through a forwarder. So you focus your attention on 
the 350 with the multiple locations and the places that have 
real bricks-and-mortar security facilities in place.
    Mr. DeFazio. Thank you. Thank you, Madam Chairwoman.
    Ms. Jackson Lee. I thank the gentleman for his questioning.
    It is my pleasure to recognize the distinguished 
gentlewoman from New York, Ms. Clarke, for 5 minutes for 
questioning.
    Ms. Clarke. Thank you very much, Madam Chairwoman. I want 
to thank you on your vigilance with regard to this matter of 
cargo security, and I want to thank our panelists for being 
here this afternoon to do an examination and an assessment of 
exactly where we are.
    In fiscal year 2008, the President's budget request for air 
cargo security was $55 million, well below the $73 million that 
Congress felt was necessary to meet the 100 percent screening 
mandate required by law. This year, the President recommended 
deleting the cargo line item and placing the funding into a 
broader package that would allow funding intended for cargo 
security to be used for other uses. This gives the appearance 
that the President is looking for ways to minimize the funding 
for implementation of this mandate, despite the difficulty that 
TSA is having in meeting deadlines with higher levels of 
funding provided by Congress. I believe this demonstrates a 
lack of seriousness or reneging, if you will, on the part of 
the administration to provide genuine cargo security.
    So, my question to you, Mr. Sammon, is you are the person 
tasked with ensuring the 100 percent screening requirement is 
met by the authorized deadlines, and knowing how much work 
there is yet to complete, do you agree with the President's 
budget recommendations, or do you feel it is important that 
your program receive a dedicated funding stream at the higher 
levels Congress is providing?
    Mr. Sammon. Ma'am, I would have to check into that a little 
bit more. My understanding as of Friday is that we asked for 
$104 million for dedicated air cargo screening program, 
including 170 canine teams, 450 inspectors and so on. So I will 
double-check to see where that request stands. But I know we 
had requested the $104 million.
    Ms. Clarke. Madam Chairwoman, can we just follow-up to make 
sure that that is indeed the case and there is dedicated 
funding? That obviously is your preference, Mr. Sammon.
    Mr. Sammon. Well, you would need that magnitude to support 
the increased inspectors and canines.
    Ms. Clarke. That is dedicated funding, so that this funding 
cannot be utilized for other TSA purposes?
    Mr. Sammon. That is my understanding.
    Ms. Jackson Lee. If the gentlewoman would yield, we would 
be happy to do that, provide that for her. We would ask, Mr. 
Sammon, that you provide that for the committee in writing.
    Mr. Sammon. We will do that.
    Ms. Clarke. Thank you very much, Madam Chairwoman.
    I represent a district in Brooklyn, New York, which is 
located in very close proximity to New York's two major 
airports. They are among our Nation's busiest in terms of 
international flights, transporting many thousands of Americans 
and foreign passengers each day. Yet the GAO says that TSA has 
no plan to screen cargo coming in on flights from other 
countries.
    This seems like a major loophole in the plan. While I 
understand that we cannot regulate what happens in other 
countries, CBP and the Coast Guard, both DHS components, have 
worked out ways to promote cargo screening at many foreign 
seaports when the shipments are headed to the United States.
    Can you explain why TSA is unable to do this?
    Mr. Sammon. First of all, what we want to do, and I think 
as we spoke earlier and that Ms. Berrick emphasized, as this 
program is being developed and put in place, we want to have 
the program put in place on a solid basis and foundation. It is 
similar to a number of overseas programs. At that point I 
think, when it's up and solid and running, then we can take 
something that is in place, operating overseas and attempt to 
get cooperation from other governments to put the same program 
in place. But it is not fully--it is not up and functioning 
yet, so it is hard to put a program in place overseas that is 
not up and running here.
    Ms. Clarke. So do you have a projected time by which you 
will have finished this assessment and think about piloting 
that in the United States? Is that ultimately the goal that we 
set for ourselves?
    Mr. Sammon. The goal is to be at 100 percent screening by 
August 2010. I think, working with GAO and other folks on this 
committee, that we can get to that point and know where what 
resources are required and to be at the point. Then when I 
think we have that fully functioning, we can take that much 
more easily and transport it overseas.
    But we are working right now with the folks in Australia, 
throughout the European community, Great Britain and a number 
of other locations, Canada, in terms of talking about 
harmonizing the security procedures that they have with ours so 
that we end up at the same place.
    Ms. Clarke. My time is winding down. But have you looked at 
Israel? Have you looked at the model they have?
    Mr. Sammon. Yes, we have looked at Israel. Part of the 
issue on Israel on many of these screening things with 
passengers and whatever is they have one location and it is a 
much smaller stream of cargo than we are facing in the United 
States.
    Ms. Clarke. But, Ms. Berrick, I see that you are chomping 
at the bit. Madam Chairwoman, would you indulge me for just a 
moment?
    Ms. Jackson Lee. I continue to yield to the gentlelady.
    Ms. Clarke. Thank you.
    Ms. Berrick. With respect to GAO's work looking at cargo 
coming into the United States from foreign countries, we did 
report that TSA and CBP. They both play a role. We are doing 
less to ensure the security of that cargo. Carriers coming into 
the United States are required to inspect a certain percentage 
of cargo, but it is a small percentage. TSA is planning to 
increase that percentage.
    We have also made some recommendations in this area, 
including conducting vulnerability assessments. TSA, as Mr. 
Sammon mentioned is also working to harmonize security 
requirements with foreign countries, which we think is very 
positive. But we think still more work remains in inbound air 
cargo.
    Ms. Clarke. While Israel may not have the scale we are 
looking at, certainly there is maybe a way to build that to 
scale or some of what they are doing to scale to suit the 
United States in the various ports of entry that we have here 
in terms of air travel.
    I yield back. Thank you very much, Madam Chairwoman.
    Ms. Jackson Lee. The gentlelady's time is expired.
    It is a pleasure to yield again to another distinguished 
gentleman who knows a little bit about this issue, and his 
knowledge continues to grow and contribute to this committee as 
well as the securing of America. We thank him for his service.
    The distinguished gentleman from Massachusetts, Mr. Markey, 
I yield to you questioning for 5 minutes.
    Mr. Markey. Thank you, Madam Chair, very much; and welcome, 
Mr. Sammon.
    TSA's current plan to screen all the cargo carried on 
passenger planes relies heavily on freight forwarders and other 
private sector participants in the air cargo industry. 
Specifically, under TSA's proposed certified cargo screening 
program, shippers and other entities along the supply chain 
would voluntarily agree, voluntarily agree to screen cargo 
before it reaches the airport in exchange for some financial 
support from TSA and presumably fees from customers wanting to 
ship their goods on a passenger plane. What is TSA's fallback 
plan if not enough private sector companies elect to 
participate as so-called certified screeners?
    Mr. Sammon. Yes. I think as I mentioned in my oral 
testimony, in the end you have 100 pounds to screen, you have 
100 pounds that flies. So it is everyone's interest to make 
sure that their partners in the whole air cargo business, there 
are a sufficient number of people who are screening the 
freight. It is in the economic interest not only----
    Mr. Markey. But what if they don't volunteer? What is your 
plan?
    Mr. Sammon. If they don't volunteer, it is ultimately the 
air carrier's responsibility to make sure the cargo they 
transport has been screened either by another entity or by the 
airline themselves.
    Mr. Markey. How are you going to ensure that that works, 
that system?
    Mr. Sammon. In the end, by August, if there is freight that 
is not through our inspector, if there is freight that is not 
screened, it won't fly.
    Mr. Markey. Ms. Berrick, are you aware at GAO of TSA's 
efforts to develop and test a fallback cargo screening plan and 
does GAO believe that these efforts are sufficient to test its 
feasibility?
    Ms. Berrick. To our knowledge, the Plan B, if you will, is 
the carriers at the airports having to do the screening. From 
the work that we have done, the indication is that would be 
very, very difficult because of capacity space limitations, 
equipment and--so it would be difficult for them to have the 
ability to do that.
    Mr. Markey. So you don't think that TSA's Plan B really is 
feasible?
    Ms. Berrick. We are continuing to look at that and haven't 
concluded other than we think it would be difficult for 
carriers to do it at the airport.
    Mr. Markey. Thank you.
    Mr. Sammon, I am concerned about TSA's ability to monitor 
compliance with the new cargo rules it is developing to comply 
with the 100 percent screening mandate.
    One year ago almost to the day, July 11, 2007, the 
Department of Homeland Security's Inspector General issued this 
report. It was a scathing, scalding indictment of TSA's current 
air cargo security structure and contained disturbing findings.
    On page 6, for example, TSA's process for overseeing the 
screening of cargo by the airlines, quote, increases the 
opportunities for the carriage of explosives, incendiaries and 
other dangerous devices on passenger aircraft. That is only 
with one entity, besides TSA doing the screening.
    Now, under TSA's proposed certified shipper screening 
program, TSA will be responsible for overseeing potentially 
five additional entities who would be eligible to screen air 
cargo under TSA's plan. According to your testimony, those 
entities also would be eligible to screen air cargo shippers, 
manufacturers, warehousing entities, distributors and third-
party logistics companies.
    As the Department's Inspector General reported, TSA had 
significant problems with overseeing airline compliance when 
only a fraction of air cargo had to be screened. Now, not only 
are an additional five types of entities eligible to screen 
cargo, but 100 percent of the cargo must be screened. I am 
concerned about whether TSA will be able to carry out this 
oversight function effectively, given its past documented 
difficulties.
    Ms. Berrick, is that a legitimate concern?
    Ms. Berrick. I think it is a legitimate concern, and it is 
a key challenge that we identified in our statement today.
    Back at the end of 2005, we looked at TSA's compliance 
efforts for freight forwarders. At that time, as well as the 
case today, there were 10,000 facilities where freight 
forwarders were located. TSA had inspected about half of those, 
and of 40 percent of those, half there were security 
deficiencies. So, given the increased volume, I do think it 
will be a challenge.
    Mr. Markey. Mr. Sammon, on page 4 of your testimony, you 
state that, quote, without the development of technology to 
effectively screen cargo built into large pallets and ULDs, 
screening cannot be executed primarily at airports. If the 
technology to effectively screen pallets were available, would 
you support having it screened at airports?
    Mr. Sammon. In addition to the pallets, you have large 
ULDs, which are called cookie sheets, which looks like a large 
flat aluminum sheet which can hold up to 11,000 pounds, which 
is larger than the size of this table, perhaps twice the size 
of this table. The technology--if we are lucky, we can get 
technology to screen 4 by 4 by 4 pallets. Getting to a cookie 
sheet, which are delivered to many--by the aircraft I think is 
way, way off in the future.
    Mr. Markey. I have a letter here from two established, 
well-known screening equipment vendors. In this letter, Smiths 
and Rapid-Scan state that, ``Rapid-Scan, Smiths and other 
manufacturers have for over 10 years provided pallet 
inspections to screen larger air cargo to cargo companies and 
airlines in the United States and worldwide.''
    I think the TSA should focus its plans on screening cargo 
at the airports or as close to the airport perimeter as 
possible to reduce the possibility of tampering with the cargo 
from the point of screening to the point of loading it onto the 
aircraft. Southwest Airlines now screens 60 percent of the 
cargo which goes on to its planes at the airport, and I know 
that they are a profitable airline and one that is doing well. 
But it seems to me that the models are already here to get most 
of the cargo screened, Mr. Sammon, at the airport with 
equipment that already exists.
    Mr. Sammon. Most of the cargo that--Southwest has a fleet 
of 737s. They are flying single box cargo, small--they are not 
flying large cookie sheets, and it is a completely different 
problem.
    I think in Jim Tuttle's testimony he talked about the 
issues. We are going to test pallet size, high-voltage X-rays 
during the pilot phase of this, but they have not been approved 
for purchase in the lab yet. We may find that they are good for 
certain commodities.
    Mr. Markey. When are you going to approve them? What is the 
deadline you have established?
    Mr. Sammon. They may never be approved. They may only be 
approved for certain commodities.
    Mr. Markey. What is your schedule for making a 
determination as to whether or not the job can get done?
    Mr. Sammon. They are working with the labs over the next 
several labs, and we will see how the approval--I would 
personally like to see the pallet-sized machines approved if 
possible. But if they are not secure and we can't view into 
particularly dense commodities, there is no point in having 
those machines out there.
    Mr. Markey. Again, referring back over to Ms. Clarke and, 
obviously, other examples, the Israelis and others have focused 
on this issue. I no longer believe that it is a technological 
issue. I do believe it is a political issue, a question of 
political will on the part of the Bush administration.
    We are now 7 years since 9/11. That is an awful long time 
to develop technology that could make sure that the successor 
Mohamed Attas and others who boarded those planes in Boston 
could not do so through the cargo hold using just cargo in 
order to accomplish those goals.
    Seven years is a long, long time. That is how long it took 
President Kennedy in 1961 to 1969 to put a man on the moon and 
to get him to come back. This does not seem as complicated a 
task, and I hope that you know that we are going to be 
monitoring your progress on this very closely.
    Thank you, Madam Chairwoman.
    Ms. Jackson Lee. I thank the gentleman.
    I am going to give the opportunity for Members, if they 
desire, to have a second round; and I yield to myself at this 
time 5 minutes.
    I just want to see if I can focus on the line of 
questioning of Mr. Markey, Mr. Sammon, and that is that I am 
just unclear--having listened to the eloquence of our Members 
and their questioning and having listened to the astuteness of 
your answers, I am unclear as to where we are and what we need 
to have happen. So let me try to ask some very factual, direct 
questions that you can answer as direct as you possibly can.
    I believe we have an objection of 50 percent air cargo 
screening by 2009; and my question to you is, what date will we 
meet that 50 percent requirement under the law signed by the 
President of the United States?
    Mr. Sammon. We are confident that we will get to 50 percent 
in February 2009.
    Ms. Jackson Lee. Let me ask that question again. Will you 
get 50 percent in February 2009?
    Mr. Sammon. Yes, through the combination of focusing on the 
high-volume cargo location airports. There are 18 airports that 
represent 66 percent of the volume of freight. We are focusing 
our canines, our technology, our inspector resources on those. 
In addition to that, we are focusing on the aircraft that carry 
80 percent of the passengers. Those two combinations, we expect 
to get 50 percent of the cargo----
    Ms. Jackson Lee. Do you consider that your pilot program?
    Mr. Sammon. We consider it because we are testing 
technology throughout this entire period, and technology will 
develop. We are also going to be testing and retesting. The 
chain of custody will all be considered a pilot program.
    Ms. Jackson Lee. The pilot program is what you gauge will 
be the work that is in place by 2009? Is that what you are 
saying? You consider that a pilot?
    Mr. Sammon. The pilot program and through technology will 
continue through August 2010.
    Ms. Jackson Lee. Right. But is the pilot program part of 
meeting the 2009 50 percent goal?
    Mr. Sammon. Yes.
    Ms. Jackson Lee. So you don't include the 15,000 sites? 
That is not what you are going to get your hands around 
immediately?
    Mr. Sammon. No, the 15,000 sites will not be part of the 
initial phase.
    Ms. Jackson Lee. Will 15,000 sites be part of the 
completion?
    Mr. Sammon. Yes.
    Ms. Jackson Lee. Let me ask the question. Will you be 100 
percent by the time instituted in the 9/11 Act?
    Mr. Sammon. Yes, our goal is to be at 100 percent by 
August, 2010.
    Ms. Jackson Lee. Your recollection that you have asked for 
$104 million, do you have a recollection that the 
administration has asked for that or the Department? Is that 
all you need? Is $104 million--inasmuch as the gentlelady from 
New York showed a gap in the amount of money that the 
administration asked for and the Congress?
    Mr. Sammon. I would have to double-check. I know that what 
I was referring to was a request I had in on Friday to what we 
had requested for air cargo, and it was $104 million. I will 
double-check on where that has gone from that standpoint.
    Ms. Jackson Lee. You had mentioned sometime that you were 
going to increase the number of transportation security 
inspectors solely for air cargo screening in the upcoming 
months. How many inspectors do you have? What kind of training 
do they have or are engaged in and what are their 
responsibilities?
    Mr. Sammon. The air cargo inspectors--we have, I believe, 
about 430 on board. We were going to hire 150. I think we have 
hired 130 of the 150. We still have another 20 to hire.
    Ms. Jackson Lee. Is that added to the 400 or a total of 
400?
    Mr. Sammon. Originally, we were at 300; and we added--we 
are adding 150 more.
    Ms. Jackson Lee. So it is 450?
    Mr. Sammon. Yes, that is correct.
    Ms. Jackson Lee. You are up to 100 and what?
    Mr. Sammon. We are up to 430. So we expect to be at 450 by 
the end of the year.
    Ms. Jackson Lee. What is your goal for air cargo 
inspectors?
    Mr. Sammon. Right now, we are going to go 450 and see over 
the next several months how that works by looking at 100 
percent actual inspection. On certain high-volume locations, we 
think that those inspector resources may be sufficient. We may 
come back to you and say we need additional inspector 
resources. We may come back and say we need additional canines.
    One thing we are doing, of the 170 canines, we split them 
into two groups. One is the traditional supply to the airport. 
The other half--the other 85 are proprietary canine teams that 
we can take anywhere in--we can take them to freight forwarder 
facilitators, and we think we can get a lot more productivity 
out of those canines than the ones just at the airport.
    Ms. Jackson Lee. So the $104 million, is that going to 
cover these additional inspectors?
    Mr. Sammon. Yes, ma'am, and the canines.
    Ms. Jackson Lee. You mentioned the word ``third-party'' 
validators. Who are you utilizing in the third-party 
validators?
    Mr. Sammon. We have not chosen any third-party validators 
yet. That program is finalizing in the fall. Again, the third-
party validators are not a necessary component of the first 
stage to get to 50 percent.
    Ms. Jackson Lee. So you don't believe you need those to get 
to 50 percent. Are you using in-house?
    Mr. Sammon. We will use our own inspectors, yes.
    Ms. Jackson Lee. Mr. Tuttle, you have mentioned a program 
that deals with the air cargo explosive detection pilot program 
and its use of canines and technology to screen both cargo for 
explosive and stowaways. Has S&T or TSA conducted additional 
tests on the effectiveness of canines as a detection method?
    And let me have a post-script to that question. I am 
concerned that we may be closing our eyes to the technology 
proposed by small and minority and women-owned businesses, and 
I would like to have in writing what your particular effort is 
in assessing technologies presented by less than 
multinationals.
    In particular, we understand that a review was given or 
rejected of freight scan, a technology by a small company; and 
I would like to know the process that was gone through to 
assess the viability or whatever the present status is.
    My inquiry is based upon the fact--what chance does 
efficient, effective technologies that come through smaller 
companies have in participating in this program?
    Mr. Tuttle. Well, actually, we get more of our innovative 
ideas from smaller companies, to tell you the truth. I see a 
lot of the bigger companies are already set on their solution, 
and they are just trying to validate it through some of our 
testing. We might do a transportation lab. So I do not know if 
we really did reject that, if S&T did; and if we did, I will 
get an answer back of why for that.
    Ms. Jackson Lee. I would appreciate it if you would review 
that for me and provide a response back.
    But can you answer me about your additional tests on the 
effectiveness of canines as a detection method?
    Mr. Tuttle. Yes, we had three different pilots conducted. 
One of them was San Francisco. The one that was focused on 
canines was at Seattle-Tacoma; and, actually, the canines were 
relatively effective as being used as an explosive detection. 
The major focus of that effort was actually stowaways, but they 
were pretty effective for explosive detection.
    Ms. Jackson Lee. Okay. Do you feel that you have the 
technology--are you keeping up or is the technology keeping up 
with the pace and requirements of the 9/11 Act? Do you feel 
that we will have a broad enough technology, a span of 
technology that will meet the goals of 50 percent screening and 
then 100 percent screening? Are you keeping pace with that?
    Mr. Tuttle. Well, we are improving the technologies, 
whether it be handheld trace detectors, whether it be training 
aids that we give to TSA to train their canines, whether it be 
screening tests, those type of things.
    But, basically, what that means is you have to break the 
pallet down if you are going to do it at the airport or you can 
do it in parcel size before it gets built up. The major problem 
with this technology is, if you want to do everything at the 
airport, you are going to have to break it up. There is a 
number of different technologies, in fact, one in which we 
tested in your district down in Houston, that shows promise. 
But we have a long way to go on that.
    I understand this was done 5 years ago. You think, gee, you 
send a man to the moon in 7 years. Why can't we? But a lot of 
money hasn't been focused on looking at a whole palletized 
solution.
    Ms. Jackson Lee. The only thing I can say, Mr. Tuttle, is 
we better get busy. Maybe we are not focusing because we think 
it will go away. Obviously, you are involved in technology. I 
imagine you are straightforward and certainly want to find the 
vast amount of technology. But the word should go out that 
there is a seriousness here, and we better find the technology 
and look at a number of opportunities to look at other examples 
like Israel and other places to get creative.
    Let me just conclude by asking Ms. Berrick her assessment 
of in your review of what you have heard that would give you 
confidence that they will meet the 50 percent deadline and 100 
percent deadline, since you have been reviewing, you have been 
critiquing and you have been assessing some of the pilot work 
that TSA has done.
    Ms. Berrick. I would say the elements have all been thought 
through and are there. But, again, what we haven't seen are 
specifically how it will be implemented. The devil is in the 
details. There is a lot of details associated with these 
different items that we have been talking about today.
    We haven't seen the level of specifics that we would 
anticipate seeing for something that is moving forward into a 
pilot phase of this magnitude. So I would say I think that is 
the first key point, a plan with specifics and time frames.
    The other two key areas, one is inspections. Of the 450 
inspectors dedicated to cargo, some of those inspection 
resources are also dedicated to other TSA activities. So it is 
important that TSA determine what their needs are going to be, 
resource needs will be for inspections.
    I think the other key issue which you have talked about as 
well, which is technology, a lot of these technology pilots we 
have been reporting for 5 years are in process, but we haven't 
seen a whole lot of progress, with the exception of the 
completion of this recent pilot.
    Ms. Jackson Lee. Specific and defined staff people that are 
actually doing the air cargo work. Are you concerned about 
whether the release of the rule and its impact?
    Ms. Berrick. I think it is important that TSA, as they have 
been doing, reach out to the cargo industry and make sure they 
fully consider the input that they are getting before moving 
forward with the rule. So I think stakeholder outreach is 
extremely key in making sure the rule is successful.
    Ms. Jackson Lee. I thank you.
    Mr. Lungren.
    Mr. Lungren. Thank you very much, Madam Chair.
    I very much enjoy being back in Congress and being back 
with my friend, Mr. Markey, who always enlightens me. We seem 
to run on parallel tracks. He has an Achilles repaired, I have 
a hip replaced. He breaks his wrist, and I fall off my bike 
last week and injure my wrist. So I guess I will affectionately 
call my friend, Mr. Markey, lefty over there from now on, since 
he can use his left hand and not his right hand.
    Mr. Markey. But he went to Notre Dame, and I went to Boston 
College. He is a Republican, and I am a Democrat. So----
    Mr. Lungren. That is true. Just to show you, on that same 
line, the gentleman from Massachusetts said to Mr. Sammon, you 
have had 7\1/2\ years to do this. That is a long time. Let me 
just put it another way. It has been 7\1/2\ years since we had 
that attack. Is that not true?
    Mr. Sammon. That is true.
    Mr. Lungren. Have we had an attack on another airliner in 
the United States since then?
    Mr. Sammon. No, sir.
    Mr. Lungren. Is that by accident?
    Mr. Sammon. No.
    Mr. Lungren. Has a lot of work gone into that?
    Mr. Sammon. There was a lot of work, starting with 
intelligence and border security in terms of who comes, who 
flies, who doesn't fly, the kinds of people allowed to travel 
around the country.
    In terms of the layers, well, we think that the 100 percent 
screening and actual screening is a good idea. We think that 
cargo has been--is more difficult than dropping a bag for a 
specific airline off and that lots of work has been going in 
from the Department and from TSA to ensure and protect this 
country. So there has been lots of work and resources.
    Mr. Lungren. Correct me if I am wrong, but I have one of 
the air forwarders in my district. I went and visited them 
about a year ago to find out how they work. I presume they are 
like a lot of other air forwarders, that a lot of the cargo 
they get, even though it is given to them as air forwarding, it 
never gets on an airplane.
    Mr. Sammon. The chance--and if you look at the time-
sensitive business and if you looked at people presenting 
business to air forwarders, you have many more times a chance 
it will end up going over the road, a time-definite market.
    Mr. Lungren. They instructed me that if someone 
specifically asks that their piece of cargo, whether it is a 
small piece or pallet or whatever, go on a particular passenger 
airline, it is not accepted. Is that the practice in the 
industry?
    Mr. Sammon. It has to be 100 percent screened. It will be--
if it is from a known--if they know who it is coming from. But 
if they want to be flight-specific, it has to be screened 
today. So you can't walk up and say I would--if you go to an 
airport and drop off a package for a specific flight, they--it 
has to be screened. Otherwise, it won't be accepted.
    Mr. Lungren. And to go on a passenger airliner, does it 
have to be one of the secured companies?
    Mr. Sammon. It has to come from what is a known shipper. So 
you have a known business relationship, yes.
    Mr. Lungren. If it is a non-known shipper, can it go on a 
passenger----
    Mr. Sammon. No, it cannot. A number of the passenger 
companies also have all-cargo divisions. So you may ship 
something and think, well, it is going to go to this 
destination. I will give it to--hopefully, it will go on this 
carrier. They may end up on their own cargo plane, as opposed 
to a passenger plane.
    Mr. Lungren. I was just wondering about that. Because it 
seems to me that is part of the layered approach to defending 
against a terrorist attack, is it not?
    Mr. Sammon. Yes, it is. You have shipping, cargo, you have 
less control over what is going to happen to it than you do, 
say, dropping a bag off at the airport.
    Mr. Lungren. As a matter of fact, when I went and I talked 
with them, they showed me how, if they receive a piece of cargo 
or--they don't physically. The people that are doing it are 
sitting at a desk at a computer terminal. They know where it is 
supposed to go, and they go and look up in their computer 
system with logarithms to figure out in terms of price, in 
terms of when it has to reach there and so forth. It can be on 
rail, it can be on truck, it can be on airplane, and it might 
be a different one on a different particular day, depending on 
the circumstances; is that correct?
    Mr. Sammon. Yes, sir. A day, a week makes a big difference 
in terms of the availability of capacity and delivery dates. 
You may have--over a weekend, you have 3 or 4 days to make up 
for a Monday delivery. Say if you are shipping on Thursday, it 
may not have to go on an airplane for a Monday delivery.
    Mr. Lungren. The reason I am asking this is I was being 
briefed by the folks in my district who happen to have their 
headquarters there the way they operate, and I wanted to know 
from your perspective did that appear to be the way the 
industry operates as opposed to just the way this particular 
air forwarder operates?
    Mr. Sammon. That is typical of the industry. I mean, an air 
forwarder handles all kinds of freight. Their purpose is, if 
you are a shipper or manufacturer, they can provide you with 
multiple modes of transportation, provide you with the best 
combination of price and service that meets your logistical 
needs. That is the niche they provide, and that is what 
business they are in.
    Mr. Lungren. I just happen to think that is an example of 
where their interest in the way they operate happens to 
dovetail with our interest in protecting against a 
vulnerability in the cargo arena that could otherwise be looked 
at as a vulnerability by a terrorist or someone who would want 
to have an explosive device on a passenger airliner.
    Mr. Sammon. Yes, I agree. Introducing it to a freight 
forwarder, you have much less certainty and control over how it 
is going to be delivered than dropping a bag at the airport.
    Mr. Lungren. Thank you very much, and I yield back the 
balance of my time.
    Ms. Jackson Lee. The gentleman's time has expired.
    Mr. DeFazio is recognized for 5 minutes in the second 
round.
    Mr. DeFazio. Thank you, Madam Chairwoman.
    I guess I want to return to the overseas screening issues. 
I don't remember the specific wording of the provision, but our 
mandate did not extend to cargo carried on American-owned or 
operated aircraft returning to the United States?
    Mr. Sammon. No.
    Mr. DeFazio. It was just domestic?
    Mr. Sammon. It is cargo being shipped from the United 
States domestically or international.
    Mr. DeFazio. Okay. So we didn't mandate that.
    Mr. Sammon. No.
    Mr. DeFazio. But if one were to look at this objectively, 
wouldn't we think there might be as high or perhaps, in my 
opinion, a higher threat with cargo that originates overseas?
    Mr. Sammon. I wouldn't disagree with you, sir.
    What we want to do is make sure from a practical standpoint 
that we have this program here nailed down, working so we can 
work with those other governments to have the same kinds of 
requirements in place over there so that we have the same kind 
of inbound. Yes, sir. But we need to have the program working 
here first. It is kind of hard to suggest they should do 
something that we don't have up and running yet.
    Mr. DeFazio. No. But what percentage are you requiring to 
be screened now? Is that a public number?
    Mr. Sammon. I cannot reveal that now.
    Mr. DeFazio. But it is--so we are requiring a percentage 
overseas to be physically screened?
    Mr. Sammon. It depends. Different countries have different 
what are called model security programs. We accept their 
security program or not, and there are various aspects of it in 
terms of how they treat that cargo. That is how that works.
    Mr. DeFazio. Right. Well, I have a high level of concern 
about overseas since, you know, I think it was 2 years ago this 
summer we had the very well-developed plot for onboard 
explosives in Great Britain.
    Mr. Sammon. Yes.
    Mr. DeFazio. We certainly had Pan Am 103, which was checked 
baggage with a barometric device that was set to go off the 
second time the plane reached altitude, having flown on a 
smaller plane from Crete to Frankfurt and then loaded onto the 
larger plane. So we know those devices have been made, can be 
made. I think that, you know--I guess I really feel that the 
overseas area is a high-risk area, given recent activities.
    Okay. Mr. Markey has just shown me an air cargo--shall 
establish 100 percent of cargo transport and passenger by an 
air carrier or foreign air carrier in air transportation or 
intrastate air transportation. It says, in air transportation 
or intrastate. I don't see that there is a provision that 
restricts that to domestic.
    Mr. Sammon. Well, our interpretation is that you asked for 
it to be commensurate with the baggage security, which takes us 
back to ATSA, which takes us back to originating shipments in 
the United States. That is our interpretation.
    Mr. DeFazio. Right. I guess I was not aware of that 
recollection, and I wouldn't necessarily agree with that 
interpretation. I think that is something that we are going to 
need to revisit in our specifics.
    Again, I believe there is a higher threat level overseas, 
and I am not saying--to say, well, after we get our act 
together over here with a lower threat level, then we will 
begin to work with foreign partners, which can take years to 
implement some measures over there. Ms. Berrick, have you 
looked at this particular issue overseas?
    Ms. Berrick. We have, and we understand TSA's 
interpretation of the law. This is one area that we are going 
to be looking into, the interpretation, compare that to the 
requirements of the 9/11 Act as a part of work we are doing for 
this committee that we are getting ready to kick off.
    In terms of security for cargo coming into the United 
States, we have also reported that we think there is 
vulnerabilities associated with that. Although we can't give a 
specific percentage, a small percentage of cargo we can say 
publicly coming into the United States is screened.
    Also, there is a set of exemptions of cargo that does not 
have to be screened that is coming into the United States. And 
although TSA reassessed exemptions for domestic cargo, they 
haven't yet done that for cargo coming into the United States. 
So we think that more can be done to strengthen security in 
that area.
    Mr. DeFazio. What about that, Mr. Sammon? Why haven't you 
reassessed--if you have reassessed where there is a lower 
threat level in the United States and restricted, why would you 
maintain those exemptions overseas and not reassess?
    Mr. Sammon. We are looking at those continuously. Again, 
one--if you look at the liquids ban, we were able to convince a 
number of the European countries that they should institute the 
same ban because of our leadership in terms of the knowledge of 
the threat. So if you have something in place that we know is--
works, that is superior, we can convince other people to do 
things. I think until we are there, it is a hard--you are 
pushing uphill a bit. We are looking continuously at the 
international programs and where they stand, what exemptions 
are proper or not.
    Mr. DeFazio. Well, I am afraid that reminds me of your 
ultimate parent agency; and I was intimately involved in 
creating the TSA. But, you know, for many years, 22 years, I 
have served on the Aviation Committee for many years. We would 
always refer to the tombstone mentality at the FAA, which was, 
unfortunately, after the fact. I think in this area in terms of 
what I, you know, personally would think are the threats 
overseas that are known, we should exert a little more 
preemptive leadership in this area. I would hope to minimally 
review that list and secondarily to begin to press for, you 
know, a higher percentage of screening overseas and then, 
third, to move toward 100 percent overseas as quickly as 
practical.
    Thank you, Madam Chairwoman.
    Ms. Jackson Lee. The gentleman's time has expired. I thank 
the distinguished gentleman.
    I would be happy to yield to the distinguished gentlelady 
from New York. If she would yield to me for just a moment, as 
Mr. DeFazio's probative questions--Mr. DeFazio, if I might, 
either we need to receive a clarification as GAO is reviewing 
this interpretation of the law from your perspective, and I 
would ask that that be accelerated, particularly that narrow 
point of the inspection of foreign cargo. I think many Members 
of Congress believe that that was included in the mandate. If 
it is not included in the mandate, I think it is important for 
this committee to consider an immediate or at least forthcoming 
legislative fix that will help clarify it for the Department of 
Homeland Security.
    I think that if you--in essence, we are starting our 
inspection midway down the trunk, and so we don't catch it at 
the top. The interpretation would seem quite contrary to, I 
think, the intentions of the Congress. I will look forward to 
this committee getting that determination, and I would ask Mr. 
Sammon to clarify or to give us the genesis of his 
interpretation as well.
    I thank the gentlelady for yielding. I yield to the 
gentlelady for her 5 minutes.
    Ms. Clarke. Thank you very much, Madam Chairwoman.
    Ms. Berrick, I wanted to ask, in the past, this committee 
has had concerns about the known shipper program and the lack 
of standards that exist before a company is given this 
designation. Have the vulnerabilities regarding known shipper 
been addressed by TSA?
    Ms. Berrick. That is an area we are going to be looking at. 
I know that TSA in the past 2 years have taken action to 
strengthen the known shipper program. They issued a rule that 
requires a database to maintain known shippers. They have 
better visibility over who the known shippers are. We will 
continue to look at that.
    If I could make one point about TSA's coordination with 
international partners, it has been very positive in a number 
of regards related to trying to harmonize security requirements 
with other countries. That is a very difficult thing to do; and 
TSA has made progress along those areas, which we think is very 
positive.
    Ms. Clarke. So, given the progress that you have observed, 
is the timetable for synchronization one that you think will be 
in the immediate future, foreseeable future?
    Ms. Berrick. They already have made some concrete progress. 
For example, they will allow--TSA will allow carriers to apply 
to TSA to amend their security programs to account for security 
measures they are already doing in their host country. That is 
a very, very positive step because----
    Ms. Clarke. Do you see that being a standard protocol going 
forward?
    Ms. Berrick. I think TSA has implemented that as a standard 
procedure moving forward.
    Ms. Clarke. Thank you very much.
    After the attacks of 9/11, Congress, the President and, 
quite frankly, the public at large all determined that the role 
of screening passengers and securing airports should be the 
domain of Government. It should not be overseen by airlines and 
other private entities. Mr. Sammon, why is TSA--or why is it 
that TSA has now sort of thrust so much of the cost and 
responsibility for the very sensitive air security operations 
back on the private sector?
    Mr. Sammon. Right now, the air screening that is taking 
place is taking place in the private sector. TSA does not have 
the resources to take or the logistical capability to take 
packages inside an airport and run them through TSA screening 
facilities without great disruption of the supply chain.
    So what we are trying to do is maintain--the reason air 
cargo flies--cargo flies in passenger jets is that there are 
specific time and economic advantages to it. If we disrupt 
those, then the cargo may--can go in either all-cargo airplanes 
or by other means. So what we are trying to do is work and 
design the security system around the supply chain so we do the 
least amount of disturbance to it, yet provide the amount of 
security that is necessary for the flying public.
    Ms. Clarke. It just seems like sort of a Catch-22. Because 
we put so much faith in the private sector that--to sort of be 
the security guard, that should there be a breach in that, the 
accountability to Government is very low. So, you know, I don't 
know how much of that you have given consideration to, but I 
think that, while we are concerned about the disruption of 
commerce through cargo and the fact that passenger flights are 
an efficient way of getting that done, one disruption due to an 
oversight in cargo could mean a very significant problem. What 
would we then say to the public when they ask ``Where was 
Government?''
    Mr. Sammon. I think still, in terms of what we are looking 
at and the threat streams we are looking at, what our resources 
are focused on in terms of the airport, in terms of behavior 
detection and a whole series of initiatives, we think that the 
appropriate place right now for cargo screening is what we are 
recommending in this program.
    Ms. Clarke. So each airline has a standard that you believe 
is adequate and have full faith in?
    Mr. Sammon. Through the certified screening program, the 
standards will be clarified and specified. There are currently 
screening standards. The screening protocols for the airlines 
and their agents will be--are being clarified, known what they 
are----
    Ms. Clarke. So you are not quite there yet?
    Mr. Sammon. Is being rolled out right now, yes, ma'am. We 
are right in the middle of doing this.
    Ms. Clarke. So you are in the middle. You are not right 
there yet?
    Mr. Sammon. No, no. As I said, we will be there in August 
2010.
    Ms. Clarke. Thank you very much, Madam Chairwoman.
    Ms. Jackson Lee. The gentlelady's time is expired.
    I recognize the gentleman from Boston, Massachusetts, Mr. 
Markey, for 5 minutes.
    Mr. Markey. I thank the gentlelady, a graduate of Boston 
University Law School, for the recognition.
    I would just begin by saying that it is really a wonderful 
thing that there has been no successful additional attack on 
the United States since 9/11. I think that is the one thing 
that Mr. Lungren and I do agree upon. That is absolutely 
something that we should all really thank goodness for.
    But, at the same time, the GAO and the Inspector General 
say that cargo is vulnerable, and we have a responsibility to 
make sure that we eliminate that vulnerability so that there is 
not a repetition, and that is what this hearing is about.
    Ms. Berrick, as you referenced in one of your responses, in 
April 2007, GAO completed a report on the security of so-called 
inbound air cargo. That is cargo that is transported from 
overseas into our country. According to TSA, approximately 200 
U.S. and foreign air carriers currently transport cargo into 
the United States from foreign countries. During 2005, 4 
billion--with a B--billion pounds of cargo was transported from 
overseas into our country aboard passenger planes.
    In your testimony, you stated that TSA, quote, has not yet 
finalized its strategy for securing such inbound cargo or 
determined how, if at all, inbound cargo will be screened. The 
100 percent cargo screening mandate in the 9/11 Commission law 
applies to domestic and foreign air carriers. In your opinion, 
is TSA on track or meeting the statutory deadline to implement 
a system for screening all inbound cargo coming into our 
country on foreign carriers?
    Ms. Berrick. Related generally to the security of inbound 
air cargo, we did report that TSA can make progress in this 
area.
    You mentioned one key point we made, which was the lack of 
a strategy for how they are going to approach this area of 
cargo security. TSA has told us they plan to update their air 
cargo strategy for both domestic and inbound air cargo.
    Another key area we talked about was the need for TSA to 
conduct vulnerability assessments of inbound air cargo 
security. We are going to be looking, as a part of our work, to 
see to what extent the 9/11 mandate applies to cargo coming 
into the United States from foreign locations. So we will be 
reviewing that in more detail.
    We do know the TSA has some plans to increase the 
percentage of cargo, the screening of cargo coming into the 
United States. So they are taking some steps to strengthen 
security in this area, but we think more work needs to be done.
    Mr. Markey. Mr. Sammon, do you agree with GAO's assessment 
that TSA is falling behind in meeting the law's requirement 
that all inbound cargo on passenger planes also be screened? 
What are you doing at TSA to ensure that you are going to meet 
the statutory deadline for screening all the cargo coming into 
our country from overseas?
    Mr. Sammon. Again, I would repeat that what we are doing is 
focusing on the cargo that originates in the United States. It 
is our interpretation of the law and its reference to the 
baggage screening requirements, referring to ATSA, that we are 
talking about shipments originating in the United States. So 
what we are doing is, first of all, focusing on shipments 
originating, and then when we have a secure system, a proven 
system in place that we can work with the foreign governments--
--
    Mr. Markey. Can I read this to you, Mr. Sammon? Because I 
would be interested in your interpretation as the author of 
this provision. It says here on--and this is at the beginning 
of the section on screening of cargo.
    It says, air cargo on passenger aircraft, not later than 3 
years after the date of enactment of the Implementing 
Recommendations of the 9/11 Commission Act of 2007, the 
Secretary of Homeland Security shall establish a system to 
screen 100 percent of cargo transported on passenger aircraft 
operated by an air carrier or foreign air carrier in air 
transportation or intrastate air transportation to ensure the 
security of all such passenger aircraft carrying cargo.
    So where in that is there a differentiation made between 
foreign and domestic air carrier?
    Mr. Sammon. First of all, we do--our program recognizes 
outbound cargo as both domestic carriers and foreign carriers. 
Second, it is the reference to provide a level of security 
commensurate with the level of security for the screening of 
passenger checked baggage which refers to a level of security 
that we provide under ATSA which is for the outbound shipment 
of bags and cargo.
    Mr. Markey. I don't know what you're--this system applies 
to foreign air carriers.
    Mr. Sammon. We apply--our system also applies to foreign 
air carriers. What we are talking about with this program 
applies not only to domestic carriers but foreign carriers. But 
it is the shipments that originate in the United States that we 
can screen.
    Mr. Markey. Back to you, Ms. Berrick. What do you think 
about this interpretation and what vulnerability does it 
create?
    Ms. Berrick. The interpretation is an area that we feel we 
need to look at as a part of our work, but we have not yet 
completed that effort yet. But we will, and we will speed that 
up at the request of the committee.
    Mr. Markey. If Mr. Sammon's interpretation is correct, does 
that create problems at the other end in terms of the security 
of the screening for cargo on passenger planes?
    Ms. Berrick. Yes. We have made recommendations in saying 
security for inbound air cargo can be improved in a number of 
areas. Again, TSA is taking some action to strengthen security 
in that area, but we think more can be done.
    Mr. Markey. Yeah. Well, again, I disagree with you, Mr. 
Sammon, on your interpretation; and I would hope that you would 
work toward closing the gap and doing so quickly because I 
think it leaves an aperture that could be exploited.
    Mr. Sammon. Our intent is to address the international 
inbound--and I think we should probably respond with a written 
legal opinion back to the committee that would address where we 
are coming from.
    Mr. Markey. That would be very helpful. Thank you.
    Thank you, Madam Chairwoman.
    Ms. Jackson Lee. I thank the gentleman. The gentleman's 
time has expired.
    There being no further questions for our first panel, I 
want to thank the witnesses for appearing before the 
subcommittee today for this very important hearing.
    To the witnesses of which I have asked for answers, Ms. 
Berrick, Mr. Tuttle, with respect to the technology and the 
analysis of the opportunities for small women-owned and 
minority-owned businesses, I appreciate direct and expeditious 
answers.
    To Mr. Sammon, on a number of issues that we asked, 
particularly focusing on your affirmation of meeting the 
deadline, the amount of funding that you have asked for--and I 
might add that we will seek a clarification through a number of 
sources of how we are going to ensure the full inspection of 
all cargo. But for those inquiries we have made, we appreciate 
a quick response.
    The Members of the subcommittee may have additional 
questions for you as well. We ask that you respond to them 
expeditiously in writing.
    You are now dismissed, and we now welcome our second panel 
to the witness table. As the clerk is preparing to clear, we 
will hold this hearing in recess for votes for Members. But we 
appreciate it if the clerk will have the table and witnesses 
ready upon our return.
    [Recess.]
    Ms. Jackson Lee. The meeting is now reconvened.
    I welcome our second panel of witnesses. Our first witness 
is Captain Paul Onorato, President of the Coalition of Airline 
Pilots Association. Captain Onorato is a Southwest Airlines 
captain based at Baltimore-Washington International Thurgood 
Marshall Airport. He began his career with Southwest Airlines 
in May, 1997, and has previously served as CAPA's Vice 
President. He has been active in the Southwest Airlines Pilots 
Association serving as Chairman of its Governmental Affairs 
Office Committee, and has 7 years of experience working on 
legislative and regulatory issues of concern to the five member 
associations of CAPA and the Southwest Airlines Pilots 
Association.
    Our second witness is Mr. John M. Meenan, Executive Vice 
President and Chief Operating Officer of the Air Transport 
Association. Mr. Meenan is responsible for all aspects of ATA 
operations, with a particular focus on technical, safety, 
security, environmental, economic and legal policy issues 
impacting the airlines industry.
    Mr. Meenan joined ATA as an Assistant General Counsel in 
1985 following 9 years with the United States Secret Service. 
He has acted as the industry representative on numerous 
Department of Transportation and Federal Aviation 
Administration committees and working groups and has been a 
frequent member of the U.S. delegations to various 
international bodies, including the International Civil 
Aviation Organization and the International Labor Organization.
    Our third witness is Mr. Brandon Fried who was appointed to 
serve as the Executive Director of the Airforwarders 
Association in November 2005. Mr. Fried has more than 25 years 
of experience in the air freight industry. He started his 
career as a sales representative in Los Angeles and then moved 
to Washington, DC, where he founded, owned and operated the 
Washington office of Atcom Worldwide, a global freight 
forwarder specializing in time definite air cargo 
transportation.
    Our fourth witness is Ms. Cindy Allen, who is testifying 
today on behalf of the National Customs Brokers and Forwarders 
Association of America. With over 20 years of experience as 
both a freight forwarder and customs broker, Ms. Allen chairs 
the NCBFAA task force, which is currently focusing on 
governmental security programs. She is currently Vice President 
of Corporate International Customs and Director of Import and 
Export Compliance at Argis Air Express.
    Without objection, the witnesses' full statements will be 
inserted into the record. I now ask each witness to summarize 
his or her statement for 5 minutes, beginning with Captain 
Onorato. Captain, you are recognized for 5 minutes.

  STATEMENT OF CAPTAIN PAUL ONORATO, PRESIDENT, COALITION OF 
                  AIRLINE PILOTS ASSOCIATIONS

    Mr. Onorato. Thank you. Chairman Jackson Lee, Ranking 
Member Lungren and Members of the subcommittee. Thank you for 
the opportunity to provide testimony before you this afternoon.
    I am Captain Paul Onorato, President of the Coalition of 
Airline Pilots Association, a trade association of 23,000 
passenger and cargo pilots which represents issues of concern 
to the Allied Pilots Association of American Airlines, the 
Independent Pilots Association of United Parcel Service, the 
National Pilots Association of Airtran Airways, the Southwest 
Airlines Pilots Association, and the Teamsters Local 1224 of 
ABX Air. CAPA commends Chairwoman Jackson Lee and Ranking 
Member Lungren for their foresight in holding hearings to 
tackle this very tough issue.
    Let us begin with some background on CAPA's interest and 
extensive involvement in aviation cargo security. For the past 
7 years, aviation cargo security has been one of CAPA's highest 
priorities and has been addressed in each of CAPA's annual 
aviation security report cards. The grades received in the 
report card are shared by the industry, Congress and the 
administration, and are designed to rate aviation security as 
the pilot sees it, from the curb to the cockpit.
    CAPA has always held the position that air cargo carried 
aboard passenger and cargo aircraft should be physically 
inspected as it arrives at the airport commensurate with 
checked baggage screening. Cargo security is an unresolved 
problem reaching back to the Aviation Transportation Security 
Act of November 2001.
    Congress clearly wanted all articles placed on commercial 
aircraft to be inspected. Passenger baggage security was 
quickly addressed through the implementation of the 100 percent 
baggage inspection program. Unfortunately, the TSA allowed the 
cargo industry to define the scope of cargo inspections and 
allowed for all passenger cargo to be screened under the Known 
Shipper Program. The Known Shipper Program is a database-driven 
program which failed to verify the actual contents of any cargo 
box or package being placed on passenger aircraft.
    TSA continued to tweak the Known Shipper Program with 
additional database enhancements, such as the Freight 
Assessment System. These two programs still failed to 
physically inspect the contents of the cargo carried aboard 
commercial aircraft. CAPA's pilots worked closely with several 
Members of Congress to address the air cargo security issue, 
notably Congressman Ed Markey and his staff, whose leadership 
on this issue has been indispensable.
    The result of this collaboration was the recent enactment 
of the 9/11 Act, which requires 10 percent screening of 
passenger air cargo. This brings us directly to today's issue 
of: Is DHS implementing the requirements of the 9/11 law 
effectively?
    In order to comply with the February 2009 50 percent 
screening mandate, TSA is apparently working on three 
initiatives: The Certified Cargo Screening Program, the 
Indirect Air Carrier Screening Technology Pilot, and the 
Narrow-Body Aircraft Screening Amendment. Unfortunately, with 
the demise of the Air Cargo Working Group, it is now very 
difficult for organizations like CAPA to obtain detailed 
information on the progress of these programs.
    Airline industry representatives insist that to meet the 
August 2010 100 percent screening requirements, it will be 
nearly impossible for the typical legacy passenger carrier to 
screen all cargo at their in-house cargo build-up facilities. 
To that end, TSA is developing the Voluntary Certified Cargo 
Screening Program to enable vetted, audited and certified 
supply chain facilities to screen cargo earlier in the supply 
chain.
    Within this program, TSA is extending the right to screen 
cargo beyond the air carrier's certified cargo screening 
facilities. These facilities could be a third-party entity 
certified by the TSA to screen cargo prior to delivery to the 
air carrier. CAPA has voiced concerns related to the cargo 
screening facility concept and is specifically concerned about 
facility security standards, personnel training, regulatory 
oversight of the facilities, and the reliability of the chain 
of custody between the cargo screening facility and the 
transporting aircraft. TSA has commented that tamper-evident 
technology will be used.
    It is important to highlight the positive advances which 
can be made in cargo security when an individual company 
decides to commit their talent and resources to solve problems 
and mitigate potential security threats. Currently, Southwest 
Airlines, my employer, one of CAPA's parent airlines, 
voluntarily doubled the mandated TSA screening percentage 
system-wide for their narrow-bodied cargo.
    Southwest Airlines is physically screening air cargo as it 
arrivals at the airport commensurate with baggage screening and 
has invested millions of the company's money in the newest 
explosives detection technology. They are to be highly 
commended for stepping up to enhanced security for the 
traveling public ahead of the mandates.
    TSA's plan for implementing the air cargo screening 
requirement in the 9/11 Act should be consistent with the 
screening policies and procedures already in place at carriers 
such as Southwest Airlines. As TSA continues its work to 
implement the screening requirements for the cargo carried on 
passenger planes, I encourage Congress to turn its attention to 
the security of freight transported on all cargo carriers, an 
issue I know Congressman Markey has raised in the past.
    Our volunteer pilots regularly attend national working 
groups and continually strive to be honest brokers in all we 
do. Since 
9/11, CAPA has stood ready and willing to interface with 
legislators, regulators and industry to improve our Nation's 
aviation security. We appreciate the trust placed in us by 
Congress and such organizations as DHS, TSA, FAA and GAO, as 
well as our members, airlines and airports. We look forward to 
continuing our joint efforts to secure our Nation's air travel.
    [The statement of Mr. Onorato follows:]
                   Prepared Statement of Paul Onorato
                             July 15, 2008
    Chairwoman Jackson Lee, Ranking Member Lungren, Members of the 
subcommittee, thank you for the opportunity to provide testimony before 
you this afternoon on ``The Next Step in Aviation Security--Cargo 
Security. I am Captain Paul Onorato, President of the Coalition of 
Airline Pilots Associations (CAPA).
    The Coalition of Airline Pilots Associations, a trade association 
of more than 23,000 professional passenger and cargo pilots represents 
the legislative and regulatory issues of concern to the Allied Pilots 
Association of American Airlines; the Independent Pilots Association of 
United Parcel Service; the National Pilots Association of Air Tran 
Airways; the Southwest Airlines Pilots Association and the Teamsters 
Local 1224 of ABX Air. CAPA commends Chairwoman Jackson Lee and Ranking 
Member Lungren for their foresight in holding hearings to tackle this 
very tough issue.
    Let us begin with some background on CAPA's interest and extensive 
involvement in aviation cargo security. For the past 7 years aviation 
cargo security has been one of CAPA's highest priorities and has been 
addressed in each of CAPA's annual Aviation Security Report Cards. The 
``grades'' received in the report card are shared by the industry, 
Congress and the administration and are designed to rate aviation 
security as the pilot sees it from the ``curb to the cockpit.'' CAPA 
has always held the position that Air Cargo carried aboard passenger 
and cargo aircraft should be physically inspected as it arrives at the 
airport, commensurate with checked baggage screening.
    Cargo security is an unresolved problem reaching back to the 
Aviation Transportation Security Act (ATSA) of November 2001. Congress 
clearly wanted ALL articles placed on a commercial aircraft to be 
inspected. Passenger baggage security was quickly addressed through 
implementation of the 100 percent baggage inspection program. 
Unfortunately, the TSA allowed the cargo industry to define the scope 
of cargo inspections and allowed for all passenger cargo to be screened 
under the Known Shipper Program. The Known Shipper Program is a data-
based driven program which failed to verify the actual contents of any 
cargo box or package being placed on passenger aircraft. TSA continued 
to ``tweak'' the Known Shipper Program with additional database 
enhancements such as the Freight Assessment System. These two programs 
still failed to physically inspect the contents of the cargo loaded 
aboard commercial aircraft.
    CAPA has participated in the TSA's Air Cargo Working Groups and the 
Department of Homeland Security's Aviation Security Advisory 
Committee's Air Cargo Working Group. Both the ASAC charter and the 
cargo working group's charter were recently terminated. Unfortunately, 
there is currently no TSA stakeholder cargo working group available in 
which to discuss critical cargo security plans, programs and 
developments.
    CAPA's pilots worked closely with several Members of Congress to 
address the Air Cargo Security issue, notably Congressman Ed Markey and 
his staff, whose leadership on this issue has been indispensable. The 
result of this collaboration was the recent enactment of Public Law 
110-53, ``the 9/11 Act'', which requires the 100 percent screening of 
passenger air cargo. This brings us directly to today's issue of ``Is 
DHS Implementing the Requirements of the 9/11 Law Effectively?''
    In order to comply with the February 2009 50 percent screening 
mandate TSA is apparently working on three initiatives: the Certified 
Cargo Screening Program; the Indirect Air Carrier Screening Technology 
Pilot; and the Narrow Body Aircraft Screening Amendment. Unfortunately, 
with the demise of the Air Cargo Working Group it is now very difficult 
for organizations like CAPA to obtain detailed information on the 
progress of these programs.
    Airline industry representatives insist that to meet the August 
2010 100 percent screening requirements it will be nearly impossible 
for the typical legacy passenger carrier to screen all cargo at their 
in-house cargo buildup facilities. To that end, TSA is developing the 
voluntary Certified Cargo Screening Program to enable vetted, audited, 
and certified supply chain facilities to screen cargo earlier in the 
supply chain. Within this program, TSA is extending the right to screen 
cargo beyond the air carrier to Certified Cargo Screening Facilities. 
These facilities could be a third-party entity certified by the TSA to 
screen cargo prior to delivery to the air carrier. CAPA has voiced 
several concerns related to the Cargo Screening Facility concept and is 
specifically concerned about facility security standards, personnel 
training, regulatory oversight of the facilities, and the reliability 
of the chain of custody between the Cargo Screening Facility and the 
transporting aircraft. TSA has commented that ``tamper evident 
technology'' will be used. However, CAPA is currently unaware of any of 
the details regarding this technology.
    It is important to highlight the positive advances which can be 
made in cargo security when an individual company decides to commit 
their talent and resources to solve problems and mitigate potential 
security threats. Currently, Southwest Airlines, my employer and one of 
CAPA's Association's parent passenger airlines, voluntarily doubles the 
mandated TSA cargo screening percentages system-wide for their narrow-
body cargo. Narrow-body aircraft account for about 96 percent of total 
domestic passenger flights and over 25 percent of total passenger air 
cargo by weight. Southwest Airlines is physically screening air cargo 
as it arrives at the airport, commensurate with baggage screening, and 
has invested millions of the company's money in the newest explosive 
detection technology. They are to be highly commended for stepping up 
to enhance security for the traveling public ahead of the mandates.
    TSA's plan for implementing the air cargo screening requirements in 
the 9/11 Act should be consistent with the screening policies and 
procedures already in place at carriers such as Southwest Airlines. As 
TSA continues its work to implement the screening requirements for 
cargo carried on passenger planes, I encourage Congress to turn its 
attention to the security of freight transported on all-cargo 
carriers--an issue I know Congressman Markey has raised in the past. 
None of the current laws or regulatory agencies are addressing the 
issue of security within the all-cargo operations. As a Nation we've 
been most fortunate our enemies have not exploited the all-cargo 
security loopholes such as: nonstandard and frequently minimal 
perimeter and ramp security found at many cargo airports and the lack 
of flight-deck doors or hardened cockpit doors on all-cargo aircraft. 
Congress must monitor the progress of the 9/11 law to ensure the intent 
of the law is achieved.
    Our volunteer pilot members regularly attend numerous national 
working groups and continually strive to be ``honest brokers'' in all 
we do. Since 9/11 CAPA has stood ready and willing to interface with 
legislators, regulators, industry and other associations to improve our 
Nation's aviation security. We appreciate the stakeholder trust placed 
in us by Congress and such organizations as DHS, TSA, FAA, and GAO as 
well as our member's airlines and airports. We look forward to 
continuing our joint efforts to secure our Nation's air travel.

    Ms. Jackson Lee. We thank you for your testimony, Captain.
    Mr. Meenan, you are recognized for 5 minutes.

STATEMENT OF JOHN M. MEENAN, EXECUTIVE VICE PRESIDENT AND CHIEF 
          OPERATING OFFICER, AIR TRANSPORT ASSOCIATION

    Mr. Meenan. Chairwoman Jackson Lee, thank you very much. On 
behalf of our member airlines, please accept our thanks for the 
opportunity to appear before the subcommittee today to discuss 
both our commitment to meeting the screening requirements of 
the 9/11 Commission Act and to outline a few concerns which we 
believe must be addressed quickly.
    First, as to our commitment, our members are well along in 
developing their individual compliance plans to meet the 
February 2009 deadline for screening 50 percent of all cargo 
shipments on passenger aircraft. These plans vary from carrier 
to carrier, depending on the nature and scope of their 
particular cargo operation. They involve things like equipment 
acquisition, development of appropriate procedures, in some 
cases contractual arrangements with other cargo handling 
partners, and, to a limited extent, they may also involve the 
termination of cargo services at certain locations where 
business benefits do not outweigh the security expenses.
    These compliance plans, however, are dependent on key 
assumptions about equipment and processes which we are awaiting 
the Transportation Security Administration approval for. For 
example, TSA needs to provide a qualified products list 
specifying exactly what equipment is approved for TSA 
screening. We are also expecting clear and detailed guidance on 
the use of X-ray equipment to screen shipper-built cargo skids. 
Even more importantly, we are awaiting approval for a batch 
explosives trace protection processing procedure.
    These approvals we have been assured are in process, but at 
this point we have been waiting for them for some time and we 
are becoming increasingly concerned that if we don't see them 
soon, it is going to make meeting those deadlines and 
commitments very difficult.
    It bears noting that because of the intense focus on 
baggage and passenger screening, budgetary limitations and 
other Office of Science and Technology priorities, the 
Department of Homeland Security research and development of 
cargo equipment has been, in our view, lacking. To date, with 
the exception of canine screening, we have no certified method 
to effectively and efficiently screen air cargo. We would urge 
this subcommittee to focus its attention and to try to focus 
OST's attention on doing more in that area very quickly.
    Another area of extremely serious concern relates to TSA's 
announced plans to require 100 percent screening of cargo 
aboard narrow-body aircraft by October 2008 as opposed to the 
50 percent screening requirement established by law in 2009. 
Rather than mandating yet another unnecessary program which 
would pose significant new challenges to the industry, we 
believe that the 50 percent 9/11 Act compliance date is the 
appropriate date to shoot for, and while we would agree that 
certainly carriers should have the option of going with the 100 
percent narrow-body screening the TSA is interested in, that 
should not be a mandate imposed on everyone.
    Looking out further to the legislatively mandated 100-
percent-screening deadline in August 2010, we know to a 
certainty that success is dependent upon TSA's full 
implementation of a robust certified cargo screening program.
    Under the program, large volume shippers and freight 
forwarders would be certified, as you have heard, to screen 
cargo which would then be transported directly to the airlines. 
We believe that this program could significantly advance 
compliance with the coming February 2009 deadline, and it is 
essential to meeting the 2010 full screening deadline. We are, 
however, concerned that the pace of the program again is 
lagging.
    Finally, I would be remiss in not bringing to the 
subcommittee's attention the devastated economic condition that 
the airline industry finds itself in. As a direct result of the 
current fuel price situation, we are seeing substantial 
reductions in the size of the industry. Roughly 100 communities 
have already been advised that they will no longer have 
scheduled air service, close to 30,000 jobs have been 
eliminated, and hundreds of aircraft are parked or being 
parked. Going forward, unless fuel prices moderate, things will 
get worse.
    While not directly relevant to today's discussion, we are 
actively pursuing measures to address the unhealthy oil 
speculation, while also focusing on supply and demand issues 
for fuel. We would ask that the subcommittee work with us going 
forward to assure that the Government plays its full and proper 
role in providing aviation security and that we all understand 
the limits under which industry revenues and resources can be 
applied.
    Thank you, and I would be happy to respond to questions.
    [The statement of Mr. Meenan follows:]
                      Statement of John M. Meenan
                             July 15, 2008
    On behalf of our member airlines, please accept our thanks for the 
opportunity to appear before the subcommittee today to discuss both our 
commitment to meeting the cargo screening requirements of the 
``Implementing Recommendations of the 
9/11 Commission Act of 2007'' and to outline a few concerns, which must 
be addressed quickly in order to facilitate our meeting that 
commitment.
    First, as to our commitment, our member airlines are well along in 
developing their individual compliance plans, enabling them to meet the 
February 2009 deadline for screening 50 percent of all cargo shipments 
aboard passenger aircraft. These plans vary from carrier to carrier 
depending on the nature and scope of each particular cargo operation. 
These plans involve equipment acquisition, development of appropriate 
procedures and, in some cases, contractual arrangements with cargo 
handling partners. To a limited extent, they may also involve a 
termination of cargo services at certain locations where the business 
benefits do not outweigh the security expenses.
    These compliance plans are, however, dependent on key assumptions 
about equipment and processes for which we are awaiting Transportation 
Security Administration (TSA) approvals. For example, we need the TSA 
to provide a ``Qualified Products List'' specifying exactly what 
equipment--already purchased or currently available for purchase--is 
approved by the TSA for screening cargo. Because there is no certified 
technology to efficiently screen cargo, airlines remain hesitant to 
purchase technology absent a qualified list and the specific 
operational protocols, which help determine the number of units 
necessary. We are also expecting clear and detailed guidance on the use 
of X-ray equipment to screen shipper-built cargo skids. Even more 
importantly, we are awaiting approval of ``batch'' Explosive Trace 
Detection Screening procedures. These approvals, we have been assured, 
are ``in process'' and just about to be provided. This promise, while 
welcome, has been outstanding for some time and we are increasingly 
concerned that we do not yet have final, actionable commitments from 
the TSA. Obviously, as we move closer to the February compliance date, 
our ability to expeditiously implement any unanticipated TSA 
initiatives becomes more problematic.
    It bears noting that because of the intense focus on baggage and 
passenger screening, budgetary limitations and ``other'' Office of 
Science and Technology priorities at the Department of Homeland 
Security, research and development of cargo screening technology has 
been a low priority. To date, with the exception of canine screening, 
we have no certified method to effectively and efficiently screen 
cargo. We would urge that the subcommittee focus on advancing this as a 
much higher priority issue. Perhaps consideration should be given to 
the creation of a TSA grant program to serve as an incentive for 
manufacturers to develop cargo screening technology.
    Another area of extremely serious concern relates to TSA's 
announced plan to require 100 percent screening of cargo aboard narrow-
body passenger aircraft by October 2008, as opposed to 50 percent of 
cargo aboard all passenger flights as required by law. Rather than 
mandating yet another new and unnecessary program, which would pose 
significant operational challenges to airlines operating mixed wide- 
and narrow-body fleets, we have indicated repeatedly that airlines must 
be allowed to comply with the 9/11 Act's 50 percent mandate established 
by Congress. With TSA approval of the technology and procedures that we 
are currently anticipating--which, as noted previously, we need as soon 
as possible--our airlines are preparing to meet the requirements of the 
law. They should not be expected to significantly exceed those 
requirements. One hundred percent narrow-body cargo screening certainly 
has a role as a compliance option, but there is no reason for yet 
another unnecessary mandate. As a practical matter, this initiative 
would force mixed-fleet operators to create a bifurcated cargo 
acceptance and screening processes that would pose significant 
operational challenges and inefficiencies.
    Looking out further to the legislatively mandated 100 percent cargo 
screening deadline of August 2010, we know to a certainty that success 
is dependent on TSA's full implementation of a robust Certified Cargo 
Screening Program (CCSP). Under this program, large-volume shippers and 
freight forwarders would be certified to screen cargo, which would then 
be transported directly to the airline. In view of the fact that 
approximately 80 percent of air cargo is shipped by just 20 percent of 
our cargo customers, there is clearly great value in this type of 
screening program, which has been demonstrated to be effective in other 
countries. We believe that this program could significantly advance 
compliance with the coming February 2009 deadline and that it is 
essential to meeting the August 2010 full-screening deadline. We are, 
however, concerned with the pace of program development and would 
encourage the subcommittee to favorably consider any request that TSA 
might put forward to significantly accelerate this initiative.
    Finally, I would be remiss in not bringing the subcommittee's 
attention to the devastated economic condition of the airline industry. 
As a direct result of the current fuel price situation, we are seeing a 
substantial reduction in the size of the industry. Roughly 100 
communities have already been advised that they will no longer have 
scheduled air service, close to 30,000 jobs have been eliminated and 
hundreds of aircraft are being removed from service. Going forward, 
unless fuel prices moderate, things will get worse. While not relevant 
to today's discussion, we are actively pursuing measures to address 
unhealthy oil speculation while also managing supply and demand issues. 
We would ask that the subcommittee work with us going forward to assure 
that the Government plays its proper role in providing aviation 
security and that we all understand the limits of industry resources.
    Thank you for the opportunity to appear before you today.

    Ms. Jackson Lee. Thank you, Mr. Meenan, for your testimony.
    Mr. Fried, you are recognized for 5 minutes for your 
testimony.

 STATEMENT OF BRANDON FRIED, EXECUTIVE DIRECTOR, AIRFORWARDERS 
                          ASSOCIATION

    Mr. Fried. Chairman Jackson Lee, Ranking Member Lungren, 
Members of the committee, thank you for the opportunity to 
appear today to discuss the challenges the air forwarding 
industry faces in complying with the air cargo screening 
mandates of the 9/11 law. I ask that my full statement be 
entered into the record.
    My name is Brandon Fried, and I am the Executive Director 
of the Airforwarders Association. The forwarding industry is 
committed to security and looks forward to continued dialog 
with this committee and TSA. Today I wanted to discuss one of 
the tools to ensure all cargo is screened, the Certified Cargo 
Screening Program, or CCSP.
    Products such as automobiles, assembly line parts, high-
tech electronics, pharmaceuticals and vital consumer goods are 
transported in the cargo holds of passenger planes on virtually 
every flight. In some cases our members help save lives by 
assisting medical companies and hospitals ship urgently needed 
heart valves, blood samples and human organs across the country 
to waiting doctors and patients.
    Because just-in-time air cargo is critical to so many 
segments of the American economy, we believe in solutions that 
provide for both the physical security as well as the economic 
security of our Nation.
    I want to thank the committee for its work in defining 
screening through a variety of methods. There is no one 
solution to air cargo security, and many tools are required to 
handle the variance in size, type and contents of cargo moving 
daily throughout our Nation and around the globe.
    The Airforwarders Association strongly transports the CCSP. 
The program is a key part of the risk-based, multi-layered 
approach to air cargo security this association has always 
endorsed. It balances the need for increased security while 
also meeting the needs of the shipping public.
    The Airforwarders Association has several members 
participating in the CCSP pilot program. We applaud TSA for 
working with industry closely to create a model program that 
will actually work in the forwarding environment.
    While these members are seeing progress with certification 
and implementation, concerns remain. An initial list of 
technology provided by TSA is now available. However, 
purchasing equipment has been delayed due to the lack of final 
approval. Also the amount and timing of reimbursement funding 
promised to participants continues to change. It is imperative 
that the pilot program is successful and executed following the 
good faith agreements already existing in order to continue 
expansion of the program.
    Another concern is that much of the technology certified 
currently is geared toward passenger baggage applications, with 
no certified equipment to screen pallets and consolidations. 
Forwarders move pallets that contain up to 300 different 
packages. While we have been told the methodology or the 
technology exists according to vendors, TSA Science and 
Technology has not certified the equipment, and we urge them to 
move forward on these devices.
    Also, there is no mechanism to protect forwarders' 
investments if that equipment is later found to be 
unsatisfactory by TSA. Given the costs involved, many of our 
members have decided that this is an impediment to 
participation. We urge TSA to work with forwarders to ease 
concerns on this issue.
    We should not lose sight of the fact that progress is being 
made on a daily basis by TSA. Initial facility audits have 
begun, as have initial certification inspections at some 
members' facilities. Forwarders are submitting security plans, 
and there is a great deal of dialog with the participants on 
the ground. Some participants in the pilot program believe they 
will be able to meet the screening goals by the fall of 2008. 
That said, the Airforwarders Association is troubled by the 
potential impact of treating CCSP as an unfunded mandate for 
all forwarders not participating in the pilot.
    If there is not ample participation further down the supply 
chain, we face a very real threat to both economic and airport 
security. Airports do not have the real estate to screen all 
cargo with existing resources, and airlines do not have the 
financial or human resources to efficiently expedite screening 
of all just-in-time cargo at the airport.
    Forwarders participating in the CCSP must purchase 
technology costing from $150,000 to $500,000 per facility per 
machine, a price tag that cannot be met by many forwarders. As 
a result, they will face delays at the airports, causing them 
to miss flights and lose revenue, and this lost revenue in the 
current economic environment could push forwarders out of 
business. The consolidation of the market is bad for 
forwarders, manufacturers, and the American consumer.
    A survey of our membership has shown that our concerns are 
well-founded. Of the 60 percent of surveyed members who have 
less than 10 offices, nearly all stated that without funds they 
would choose not to participate. The remaining members surveyed 
indicated that only a few offices would be outfitted with 
equipment. We urge Congress to provide funding to ensure that 
the jobs of hundreds of thousands of workers in the air freight 
industry are not lost and the American economy does not face 
serious harm to the delays in good and products being 
delivered.
    The Airforwarders Association supports grants to fund CCSP, 
as well as additional funding, a reallocation of TSA's budget, 
to provide funding for equipment and personnel devoted to cargo 
screening.
    In conclusion, we believe that a great deal of progress has 
been made. Our shared goal of creating a safe and efficient air 
cargo regime can be achieved, provided Congress fulfills its 
commitment to homeland security by fully funding these 
programs.
    Thank you for hearing my testimony today. I look forward to 
any questions you may have.
    [The statement of Mr. Fried follows:]
                  Prepared Statement of Brandon Fried
                             July 15, 2008
                              introduction
    Chairman Jackson-Lee, Ranking Member Lungren and Members of the 
committee, thank you for the opportunity to appear before the House 
Committee on Homeland Security to discuss the development, 
implementation and challenges the forwarding industry faces in 
complying with the air cargo screening mandates of the 9/11 law. I ask 
that my full statement be entered into the record.
    Today, I want to discuss one of the tools developed by TSA to 
ensure all cargo is screened by August 2010--the Certified Cargo 
Screener Program, or CCSP. As the executive director of the 
Airforwarders Association, I assure you that the forwarding industry is 
committed to safety and looks forward to continued dialog with this 
committee and TSA to ensure this program is implemented in a timely 
fashion and provides a maximum degree of security with a minimum amount 
of supply chain disruption.
    The Airforwarders Association strongly supports The Certified Cargo 
Screener Program. The task of screening all the cargo that boards 
passenger planes is an immense challenge, and spreading security 
responsibilities throughout the supply chain is an effective way of 
engaging all industry to achieve safety for the traveling public. That 
said, the cost of participating in this unfunded, voluntary program for 
forwarders is cost-prohibitive for nearly half of the forwarding 
industry based on our best approximation. With equipment costs that 
range from $150,000 to $500,000 per facility, we anticipate seeing more 
members opting not to participate in the program due to cost or 
business models that do not utilize facilities at gateway cities. If 
this happens it will put enormous pressure on the airlines and airports 
to screen potentially as much as 40 percent of the cargo put on 
passenger planes in the United States. Not only does this create a 
bottleneck that is extremely detrimental to our economy and ability to 
export goods, it also risks a new security concern due to the sheer 
amount of cargo awaiting inspection in airport cargo facilities.
    I urge Congress to provide funding for CCSP, particularly for the 
benefit of small to mid-sized forwarders, in future appropriations 
bills. Additionally, I urge TSA to fulfill its commitment to the 
current participants in the pilot program by completing the list of 
approved technology and the other critical needs of the program in a 
timely fashion.
                               background
    My name is Brandon Fried and I am the executive director of the 
Airforwarders Association. It is a pleasure to address this 
distinguished panel today on the important issue of air cargo security.
    I was appointed to serve as the Executive Director of the 
Airforwarders Association in November 2005 and have over 25 years as a 
forwarder myself. In my position as Executive Director, I represent the 
Association on all security matters and currently serve on the Aviation 
Security Advisory Committee (ASAC) working group in counsel to the 
Transportation Security Administration.
    The Airforwarders Association is an alliance of Indirect Air 
Carriers, Cargo Airlines, and affiliated businesses located throughout 
the United States that play a vital role in ensuring the continuous 
movement of global commerce. There are over 4,000 registered indirect 
air carriers who are responsible for the planning, oversight and 
transporting of companies' goods and products--anything from flowers 
and seafood to pallets of humanitarian supplies. The parameters of this 
job include steps such as pick-up of goods, customs clearance, 
transportation, warehousing, regulatory compliance and delivery, we 
work from one end of the supply chain to the other.
                               discussion
    Many of you on the panel today may ask, ``Who uses airfreight that 
flies on passenger planes?'' The answer is, ``All of us do!'' In 
addition to medical companies and hospitals shipping urgently needed 
heart valves, blood samples and human organs across the country within 
hours, those firms depending upon ``just in time'' inventory strategies 
do as well. These include companies such as Hewlett Packard, Boeing, 
General Electric, 3M and IBM.
    Products such as automobile assembly line parts, high-tech 
electronics, pharmaceuticals and vital consumer goods are transported 
in the cargo holds of passenger planes on virtually every flight. 
During the cold winter, our families enjoy fresh vegetables flown from 
the warm west coast and South America on passenger flights. As we 
speak, thousands of pounds of seafood are in flight to be served 
tonight in restaurants in places like Albuquerque, Minneapolis, Omaha 
and St. Louis. In some cases our members help save lives by assisting 
medical companies and hospitals ship urgently needed heart valves, 
blood samples and human organs across the country to waiting doctors 
and patients.
    Because air cargo is critical to so many segments of the American 
economy, we believe in formulating solutions that provide for both the 
physical security of the public as well as the economic security of our 
Nation. The Airforwarders Association has been and remains a vocal 
advocate for continuing the risk-based, multi-layered approach to air 
cargo security that has protected our Nation's planes and protected our 
Nation's economy as it enables the critical and efficient flow of 
commerce. I applaud the committee for its work in crafting the 
``Implementing the 9/11 Commission Recommendation Act of 2007'' to 
focus on screening air cargo through a variety of methods. There is no 
one solution to air cargo security and a variety of tools, as approved 
in the legislation and certified by TSA, is absolutely critical to 
handle the variance in size, type, and contents of cargo moving daily 
throughout our Nation and around the globe.
Certified Cargo Screener Program (CCSP): An Introduction
    As such, the Airforwarders Association is supportive of a voluntary 
program, like the Certified Cargo Screening Program (CCSP), which 
spreads security throughout the supply chain. The Program is a key part 
of the risk-based, multi-layered approach to air cargo security this 
association has always endorsed. It balances the need for increased 
security while also meeting the needs of the shipping public. The 
Airforwarders Association, along with other key stakeholders have been 
working closely with TSA to identify possible participants, potential 
pitfalls and problems with the parameters of the program, and 
technology available to meet the screening needs of the supply chain 
process.
    The 9/11 bill specifically recognized programs such as this, as 
well as other non-intrusive measures approved by TSA, as an important 
part of the screening mandate. These provisions are critical to meet 
the mandate as established by Congress to reach 100 percent screening 
by August 2010. Engaging the supply chain while utilizing technology 
like tamper-proof seals to ensure the integrity of the cargo is an 
excellent way to achieve full screening of cargo that does not place 
the entire financial burden on one entity or part of the supply chain.
Certified Cargo Screener Program (CCSP): Challenge of an Unfunded 
        Mandate
    However, if there is not ample participation further down the 
supply chain by shippers and forwarders alike at certified screening 
facilities, we face a very real threat to both economic and airport 
security. Airports do not have the real estate to screen all cargo, or 
even 50 percent of the total tonnage, moving on passenger planes with 
existing resources and airlines do not have the financial or human 
resources to efficiently expedite screening all ``just in time'' cargo 
at the airport. In our conversations with the Airports Council 
International (ACI), airport managers are very concerned about the 
ability of existing facilities to meet such a high level of cargo 
demand. If screening occurs at the airport, with no additional funds 
for airlines or airports, and without funding to encourage additional 
forwarders to participate in CCSP, the massive influx of cargo that 
must be screened at the airport is likely to create bottlenecks and 
delays in the supply chain. This will have a devastating effect on 
delicate cargo like medical supplies or perishable foods.
    We are extremely concerned about the lack of Government funding for 
the 100 percent screening mandate. Forwarders participating in CCSP 
must purchase technology for which the cost may range from $150,000 to 
$500,000 per facility--a price tag that cannot be met by most small and 
medium-size forwarders. As a result, they will face delays at the 
airport for cargo screening, causing them to miss flights and lose 
revenue. This lost revenue, in the current economic environment with 
high fuel surcharges and razor-thin profit margins, could force 
forwarders out of business. This consolidation of the market is bad for 
forwarders, manufacturers and the American consumer.
    The variance in size among the forwarding community is part of what 
makes this vital industry continue to thrive. Forwarders develop 
specific business models based on the type of cargo niche they carve 
out for their business needs, be it several small offices to handle 
trade show and convention material movement, or many large facilities 
at gateway cities to handle tons of flowers imported from Latin America 
or American manufactured goods being exported to our trading partners. 
Just as a wide variety of goods are shipped via airfreight, there are, 
and should remain, a wide variety of forwarders in the industry to 
compete for that business.
    A survey of our membership and our alliance partner, the National 
Customs Brokers and Forwarders Association of America, who will testify 
in a moment, has shown that that our concerns are well-founded. More 
than half of the members surveyed would qualify as ``small to mid-
sized'', as they have no more than 5 permanent offices that accept 
cargo for passenger planes. Of the 60 percent of surveyed members that 
are ``small to mid-sized'', without additional funds, nearly 100 
percent would not choose to participate as a CCSF. The remaining 
members surveyed indicated that only a few offices would be outfitted 
with equipment to participate as a CCSF.
    While CCSP is a voluntary program, the competitive advantage it 
gives to companies that have the financial ability to purchase 
screening equipment makes it a very costly to ``opt out'' for other 
companies. Not only do non-participants lose the ability to ensure 
their cargo moves as quickly as their competitors, but they also will 
have to expend substantial funds to pay for screening. Smaller 
businesses in our industry provide professional, well-paying jobs with 
health and retirement savings benefits to thousands of hard-working 
Americans--if the market is altered in such a way that the ``haves'' 
are the only companies that can guarantee efficient shipping, the 
``have nots'' may quickly become so financially disadvantaged they will 
be forced out of business.
Certified Cargo Screener Program (CCSP): The Funding Solutions
    We believe the best way to ensure the market stays competitive for 
all players is to provide funding for all forwarders to be able to 
participate in CCSP if they so choose. Based on our membership, I 
expect that to include a number of forwarders who would participate at 
one to two of their facilities. That said, while we believe it is in 
the best interest to establish substantial screening responsibilities 
throughout the supply chain, there are a number of business models that 
simply do not permit forwarders to screen at any point prior to the 
airport. It is imperative that the screening at the airport conducted 
by the airlines and is done in an efficient and expedient manner. We 
also believe that funding should be available to the airlines to 
achieve that goal.
    Secondary and tertiary airports that serve many residents in 
districts of Members of this subcommittee are already suffering from 
cutbacks in airline service. Without the revenue and profit generated 
by cargo at these airports due to the high cost associated with airline 
screening of cargo in say, Eugene, Oregon or even Jackson, Mississippi, 
carriers may cease accepting cargo at those airports and further 
jeopardize airline service for those cities.
    We urge Congress to provide funding to ensure the jobs of hundreds 
of thousands of employees in the airfreight industry are not lost and 
the American economy does not face serious harm due to delays in goods 
and products being delivered. The Airforwarders Association supports 
small business grants to fund CCSP as well as additional funding or 
reallocation of TSA's budget to provide funding for equipment and 
personnel devoted to cargo screening. We are also eagerly awaiting the 
demonstration of the newly proposed Independent Screening Facility 
pilot program or ``car wash'', where third parties will have an off-
site, stand-alone facility dedicated to screening cargo for a fee. We 
believe this is another tool that will alleviate bottlenecks at the 
airport.
Certified Cargo Screener Program (CCSP): Progression of the Pilot 
        Program
    Now, I would like to move to a discussion of the current status of 
the CCSP pilot program. The Airforwarders Association has several 
members participating in the CCSP pilot program launched by TSA. We 
have attached a statement for the record from one such member. These 
companies are currently facing a degree of uncertainty in terms of 
moving forward with the program. That said, we applaud TSA for working 
with industry closely to create a model program that will actually work 
in the forwarding environment, which is critical to a successful pilot 
and full-scale deployment.
    While an initial list of technology approved by TSA has been made 
available, purchasing equipment has been delayed due to the lack of 
final approval. Also, there is concern that the amount of reimbursement 
funding promised to the participants continues to change as does when 
that funding will be available to participants. It is imperative that 
the pilot program is successful in order to continue the expansion of 
the program, and to that end, other forwarders will listen carefully to 
the experiences of participants.
    With regard to technology, we remain concerned that much of the 
technology listed as acceptable is geared toward passenger baggage 
applications with little, if any, approved to screen built pallets and 
consolidations. Since the mandate dictates screening at the piece 
level, packing and unpacking pallets not only slows the supply chain, 
but creates new risks in terms of tampering or theft. Forwarders move 
pallets that can contain up to 300 different packages--without a 
machine certified to move these pallets quickly to utilize in the pilot 
program, the results of throughput times are likely to be much higher 
than the speed of a pallet screening device.
    Also, there is no mechanism in place that protects forwarders 
investments in currently approved screening technology if that 
equipment is later found to be unsatisfactory or phased out by TSA. 
Given the cost involved in the initial purchase, many of our members 
have cited this uncertainty as an impediment to participation. While 
the SAFETY Act may provide some degree of protection, we urge TSA to 
work with forwarders to ease concerns over this particular issue.
    The good news from our members is that progress is being made on a 
daily basis by TSA. Initial facility audits have begun as have initial 
certification inspections by TSA at some member's facilities. 
Forwarders are submitting security plans and technology preferences to 
TSA and there is a great deal of dialog with the participants ``on the 
ground''. Smaller participants in the pilot program believe they will 
be able to meet screening goals by the fall of 2008. The Airforwarders 
Association will continue to provide regular updates on progress to 
this committee at your request.
    In conclusion, we believe that a great deal of progress has been 
made by TSA in meeting the mandate to screen 100 percent of passenger 
plane cargo. The deployment of the CCSP pilot program is advancing on a 
daily basis and through the efforts of airlines such as Southwest, 
freight forwarders and many shippers, I believe that our goal of 
creating a secure, safe and efficient air cargo security regime can be 
achieved, provided Congress fulfills its commitment to homeland 
security by fully funding these programs.
    Thank you for hearing my testimony today on this important issue 
and I look forward to answering any questions you may have.
       Falcon Global Distribution, Inc./Falcon Global Edge, Inc.
                     CCSP Participation Highlights
                              july 9, 2008
  <bullet> (Winter 2008) Falcon personnel obtain first CCSP notional 
        documents and learns of pending BAA for ``technology pilot''.
  <bullet> (February 7, 2008): Orientation session with TSA personnel 
        assigned to West Coast target cities and senior TSA management 
        (on-site Union City).
  <bullet> (February 14, 2008): Falcon submits application to BAA.
  <bullet> (February, 2008): Falcon Global Distribution, Inc. is 
        approved as an IAC and is subsequently approved for 
        participation in the ``technology pilot''.
  <bullet> (February 13, 2008): Falcon submits initial technology 
        proposal, leaning toward installation and operation of AT X-
        ray.
  <bullet> (Late February, 2008): Falcon Global Distribution, Inc. 
        becomes an IAC in conjunction with application to BAA.
  <bullet> (April 29, 2008): Falcon personnel meet L3 representatives 
        at L3 facility to view AT X-ray machines.
  <bullet> (May 8, 2008): Meeting on-site Union City with 
        representatives from TSA's Science & Technology group, together 
        with other third-party vendors to TSA (Deloitte and Safe Skies) 
        who will be conducting a ``process audit'' of the facility to 
        aid in determining the best type of screening technology to be 
        used in the facility.
  <bullet> Initial determination at above meeting that ETD might be 
        better suited to Falcon's facility due to primary inventory 
        product type (electronics), among other factors.
  <bullet> (May 15, 2008): Falcon submits revised technology proposal, 
        with emphasis shifted from AT X-ray to ETD.
  <bullet> (May 15, 2008): Falcon submits CCSF application.
  <bullet> (June 2, 2008): Falcon undergoes initial facility audit at 
        Union City.
  <bullet> (June 27, 2008): Falcon submits initial Facility Security 
        Plan to TSA.
  <bullet> (July 9, 2008): Falcon undergoes certification inspection by 
        TSA. The facility is to be certified for physical cargo 
        screening, in anticipation of later reliance on either ETD or 
        ATX-ray as primary screening method.
Comments
    The process is moving at a very slow pace but does appear to be 
going forward. It is readily apparent that TSA is relying on industry 
to ``step up'' and make this program work, even by inventing the 
necessary processes (i.e. training and testing) with minimal TSA 
guidance. This is a positive in that TSA is letting industry (and 
particular facilities) dictate practical steps to fulfill the 
legislative mandate, based on the particular types of products that 
reside in, and will be shipped from that facility. It is a negative 
because I believe many companies are: (1) Waiting for TSA to issue firm 
guidance; and (2) taking TSA's lack of firm guidance as an indication 
that the CCSP is not viable--or won't be following a change of 
administrations.
  <bullet> TSA has not yet released a revised ``approved list'' of 
        screening technologies, which we were told was to be released 
        June 27, 2008.
  <bullet> Though TSA has not released an ``approved'' training/testing 
        program (a draft version, constructed by TSA field personnel, 
        is in circulation as a model), nor guidance on ``approved'' 
        types of Tamper Evident Technology or the exact specifications 
        for the ``screened'' indicator sticker, we are moving forward 
        with constructing a training and testing regimen to obtain 
        certification. Our TSA contact is aiming to submit the final 
        certification application to TSA HQ end of the week of 7/14/08.
  <bullet> Allowing for an approval process of 2-4 weeks, Falcon could 
        have screened cargo (utilizing only physical search screening 
        methodology) in the stream of commerce by middle to end of 
        August.
  <bullet> If the process audit can be performed in a timely manner, 
        and the approved list of technology published, Falcon hopes 
        that an OTA can be executed and equipment ordered so that 
        training and testing on that equipment can be completed by mid-
        October.
  <bullet> Once the technology is installed and personnel adequately 
        trained, Falcon will screen 100 percent of its passenger air 
        cargo shipments immediately. At present rate, I hope that 100 
        percent of the passenger air cargo originating from Falcon's 
        facility can be screened by end of November, 2008.

    Ms. Jackson Lee. Thank you, Mr. Fried.
    Now, Ms. Allen, you are recognized and yielded to for 5 
minutes.

  STATEMENT OF CINDY ALLEN, CHAIRMAN, TASK FORCE ON SECURITY, 
 NATIONAL CUSTOMS BROKERS AND FORWARDERS ASSOCIATION OF AMERICA

    Ms. Allen. Thank you, Chairwoman Jackson Lee.
    On behalf of National Customs Brokers and Forwarders 
Association of America, I am pleased to have this opportunity 
to testify before you today on air cargo security as chairwoman 
of the Security Task Force for NCBFAA. First let me say a 
little bit about our industry.
    While our membership includes several large and direct air 
carriers, or IACs, who are household names, our largest segment 
of membership are medium-small independently owned businesses. 
We book space aboard aircraft, both passenger and exclusively 
all air cargo aircraft, and we also assist in the movement of 
goods toward the airport.
    We need to say at the start that we strongly support TSA's 
Certified Cargo Screening Program and want to do our part in 
ensuring its success. We believe that it meets this committee's 
and Congress' intent in addressing the obligations required by 
the 9/11 law mandating 100 percent security of cargo destined 
for passenger aircraft.
    This program recognizes that indirect air carriers are 
force multipliers in the twin tasks of establishing security 
and moving goods by air. Yet our commitment to the TSA in 
support of the CCSP program does not mean that we are 
completely happy with how the agency is implementing its 
obligations under the law.
    Initial deployment of the program is being conducted as a 
pilot. In order to meet Congress' requirement of reaching 50 
percent physical examination at the individual carton level or 
piece level by next February, the agency has sought to entice 
the largest IACs to the pilot, to the exclusion of small and 
medium-sized businesses.
    The TSA has determined that those large companies are 
needed in the pilot to meet the 50 percent Federal requirement. 
To incentivize their participation, TSA will subsidize those 
companies and underwrite a major portion of their overhead. 
Small companies, all of whom have been excluded from the pilot, 
will receive no such benefit.
    There appears to be no funding within the TSA for like 
treatment for the small and medium-sized businesses that will 
follow these large, mostly international corporations into the 
program. We therefore start with a basic inequity.
    Our sole option is to join the queue at the airport and 
wait our turn for examination. This not only reduces our 
ability to put cargo on aircraft expeditiously, but adds one 
more cost to each shipment for both the small IAC and for our 
customers, the small and medium-sized exporters who are at the 
heart of our economy today.
    Smaller participants in the TSA program will also see our 
ability to compete on a one-to-one basis diminish even further 
at the hands of a Government pilot program. This creates a huge 
competitive disadvantage in an industry where two of the key 
differentiating factors of service between companies are time 
in transit and overall costs.
    In her letter of May 1, 2008, to TSA Administrator Kip 
Hawley, House Small Business Committee Chairwoman Velazquez 
said that the TSA should restructure the program in a manner 
that does not place small businesses at a disadvantage.
    The Association recognizes, however, that there needs to be 
creativity to this solution, creativity that reduces its cost 
overall. We recommend what we refer to as the car wash 
solution: Establish one or several centralized locations in a 
specific geographic area where the community's IACs can take 
their cargo for screening. Some will favor a co-op approach. 
Others may prefer to establish their own and provide services 
to the community on a fee basis. The concept can work if given 
the opportunity, and we understand the TSA is exploring this 
option.
    In all events, however, the costs must be low enough to 
enable small and medium-sized companies to compete against 
those who have a built in advantage by virtue of the TSA pilot 
and funding. IACs who are regulated by the TSA are required to 
establish and maintain stringent security programs that are 
regularly vetted by the TSA. We can become viable partners in 
funneling the freight to the airports, ensuring these secure 
funnels do not become bottlenecks that have the ability to 
strangle cargo flow and negatively impact the economic 
viability of small exporters, effectively limiting their 
ability to timely compete with goods source abroad.
    Chairwoman Jackson Lee, we think your committee is the 
starting point for achieving a balance for this program, and we 
look forward to working you with you in search of the 
solutions.
    Thank you.
    [The statement of Ms. Allen follows:]
                   Prepared Statement of Cindy Allen
                             July 15, 2008
    Chairwoman Jackson Lee and Ranking Member Lungren, on behalf of the 
National Customs Brokers and Forwarders Association of America 
(NCBFAA), I am pleased to have this opportunity to testify before you 
today on air cargo security. I am Cindy Allen of Argents Air Express, 
Ltd., of Romulus, Michigan and chairwoman of the Security Task Force 
for NCBFAA. NCBFAA is the national organization representing customs 
brokers, ocean transportation intermediaries and Indirect Air Carriers 
(IAC). Very simply, an IAC is designated by a shipper to facilitate the 
movement of his goods by air.
    We are directly regulated by the Transportation Security 
Administration (TSA), together with the air carriers, while our 
customers, the shippers, are not. We operate under a security plan the 
details of which cannot be shared with our customers because the 
program is considered Sensitive Security Information, or SSI. The air 
carriers to whom we tender cargo are also regulated by the TSA with 
their plan, the details of which they are not allowed to share with us. 
Thus, we are a very important cog in the transportation supply chain 
and positioned to have a highly positive role in our Nation's fight 
against terrorism in the skies, through multiple, interdependent layers 
of security.
    First, let me say a little about the industry. We are very closely 
aligned with our colleagues from the Air Forwarders Association, whose 
members tend toward domestic shipping while ours tend toward 
international transportation. While we have several large members who 
are household names, our largest segment of membership are medium and 
small, independently owned businesses. While we book space aboard 
aircraft--both passenger aircraft and exclusively all cargo aircraft--
we also assist in the movement of goods toward the airport: either by 
trucks owned by the IAC or contracting with independent cartage 
companies; picking up cargo at the shipper's location or receiving it 
at ours; and, either palletizing merchandise in our own facilities and/
or moving merchandise directly to the airport to be built on airline 
pallets or placed in containers by the airline. If a member contracts 
with a trucking company to arrange transportation, that company is 
regulated under our own security program as what is called an 
``authorized representative.'' As such, our IAC members are responsible 
for the conduct of those companies and are liable for their actions, 
including potential civil and/or criminal violations in their conduct.
    We need to say, at the start, that we strongly support TSA's 
Certified Cargo Screening Program and want to do our part in ensuring 
its success. We believe that it meets this committee's and Congress' 
intent in addressing the obligations required by the 9/11 law mandating 
100 percent screening of cargo destined for passenger aircraft--50 
percent required by February 2009, and the remaining 50 percent 
required by August 2010. The screening must be completed at the piece 
level, meaning that pallets of cargo must be taken apart and their 
individual cartons screened.
    The program recognizes that Indirect Air Carriers are force-
multipliers in the twin tasks of establishing security and moving goods 
by air. Air cargo is selected as a transportation mode for essentially 
one reason--urgency. ``Just-in-time'' delivery has created the business 
imperative of moving merchandise more quickly to the point of sale, 
rather than absorbing the expense of inventory and of positioning 
additional quantities of goods in warehouses. There are several 
commodities which are not suitable for other means of transportation, 
such as perishable food, flowers, medicine and medical response items. 
These are among the diverse mix of products handled daily by IACs and 
airlines. Collectively, we also move valuable or sensitive cargo for 
many Government agencies such as Defense, Treasury and State that 
require urgent shipment and delivery. And, everyone knows now that they 
can remedy last-minute contingencies that can occur in business through 
a next-day delivery.
    To create a security system that establishes one funnel and a 
likely bottle-neck at the airports--whereby carriers are required to 
physically examine and then process packages under limiting 
conditions--undermines the viability of air cargo delivery. The 
Certified Cargo Screening Program draws upon regulated entities--
Indirect Air Carriers--to share this responsibility. An IAC must have 
its personnel thoroughly vetted by the TSA through their Security 
Threat Assessment program. This program mandates that all individuals 
with unescorted access to air cargo must be screened through a number 
of databases maintained by the Federal Government. An IAC's facilities 
must pass muster by meeting fixed physical security standards, which 
are constantly probed and tested by one of 450 cargo inspectors that 
the TSA has in the field every day. Finally, each participating air 
forwarder must meet chain-of-custody standards in delivering screened 
merchandise to the air carrier. All of these activities take place 
under regulations promulgated and enforced by the Transportation 
Security Administration. It is a sensible way to manage security for 
the huge volumes of air cargo that inundate airports every day.
    Yet our commitment to TSA and support of the Certified Cargo 
Screening Program does not mean that we are completely happy with how 
the agency is implementing its obligations under the law. Initial 
deployment of the program is being conducted as a pilot, performed in a 
number of U.S. cities by a limited number of Indirect Air Carriers. In 
order to meet Congress' requirement of reaching 50 percent physical 
examination at the individual carton or piece level by next February, 
the agency has sought to entice the largest IACs to the pilot, to the 
exclusion of small and medium-sized businesses who presumably have to 
be incorporated into the program in time to meet the goal of achieving 
100 percent examination. While we understand TSA's responsibility to 
reach the screening percentages prescribed by the statute, this creates 
a number of problems for our industry.
    To start with, the Certified Cargo Screening Program involves large 
capital outlays for screening equipment, costs which are well beyond 
the means of most businesses. Equipment that is used for screening of 
air cargo must be far more substantial than that required for screening 
passenger baggage. The size and complexity of packaging and palletizing 
requires greater sophistication and capacity--and hence far greater 
cost. We estimate that outlays will require between $150,000 to 
$500,000 or more per facility.
    It is unrealistic to assume that a typical IAC can afford this 
equipment for use in his own company, just as we understand it may be 
difficult for some of the larger participating companies to do so. We 
clearly understand that all or most of the cost for screening equipment 
in the pilot program will be underwritten by TSA, with the equipment 
provided to those companies on a permanent basis, without clear 
restrictions on their ability to utilize that equipment in their favor 
in the commercial marketplace. Also of great concern is that with the 
deadlines rapidly approaching, TSA has not and does not foresee 
developing a list of eligible products from which to choose, but rather 
will provide a ``Candidate Technology List''. Further, we have no 
guarantees from the agency that should they identify another threat 
which cannot be detected by existing equipment, we will not be obliged 
to purchase an entirely new set of equipment at additional cost. You 
can understand why we approach this cautiously.
    There appears to be no funding within TSA for like treatment for 
the small and medium-sized businesses that will follow these large 
corporations into the program. We therefore start with a basic 
inequity. The TSA has determined that these large companies are needed 
in the pilot to meet the 50 percent Federal requirement. To incentivize 
their participation, TSA will subsidize those companies and underwrite 
a major portion of their overhead. Small companies, all of whom have 
been excluded from the pilot, will receive no such benefit. Their sole 
option is to join the queue at the airport and await their turn for 
examination. This not only reduces their ability to put cargo on 
aircraft expeditiously but adds one more cost to each shipment for both 
the IAC and their customers--the small and medium-sized exporters who 
are at the heart of our economy. Smaller participants in the TSA 
program will see their ability to compete on a one-to-one basis 
diminish even further. This creates a huge competitive disadvantage in 
an industry where two of the key differentiators of service between 
companies are time-in-transit and cost.
    NCBFAA surveyed its membership and received over 70 responses from 
its individual IAC companies. Asked how many offices IACs would equip 
with the necessary screening equipment and assume other operations 
costs, 58.3 percent said that they would not do so. Another 31 percent 
said that they would only equip a very few offices. This may have the 
undesired effect of shifting the points where air cargo is tendered to 
mirror the locations where cargo is screened. This is important as it 
would certainly increase the traffic and infrastructure demands of 
those already burdened major freight hubs, would affect the 
profitability of those airlines servicing small locations, and perhaps 
eventually limit passenger flight availability in those small markets.
    In her letter of May 1, 2008 to TSA Administrator Kip Hawley, House 
Small Business Committee Chairwoman Nydia Velazquez said that ``the net 
effect of this plan could place small firms who cannot reach the volume 
levels required of pilot participants on an unlevel playing field,'' 
concluding that ``TSA should restructure the program in a manner which 
does not place small businesses at a disadvantage.''
    In approaching a solution, instead of looking backward at the 
present pilot, NCBFAA is inclined to look ahead to the time when small 
and medium-sized companies will be incorporated into the Certified 
Cargo Screening Program and are part of the final 50 percent necessary 
to achieve the 9/11 law's 100 percent mandate. First, TSA needs to 
provide the requisite funding to enable that participation. Presently, 
there is no funding projected, nor available for this purpose. We 
strongly urge the Congress to look ahead to the fiscal year 2010 
budget--which will begin to take shape this fall--and authorize and 
appropriate funding for this purpose.
    The Association recognizes however that there needs to be 
creativity to this solution, creativity that reduces its cost. We 
recommend what we refer to as the ``car wash'' solution: establish one 
or several centralized locations in a specific geographic area where 
the community's IACs can take their cargo for screening. Some will 
favor a co-op approach. Others, such as warehousemen or individual 
IACs, may prefer to establish their own and provide services to the 
community on a fee basis. This procedure has been effective and 
efficiently used in similar circumstances for other governmental, 
security-related requirements in the CBP Carrier Initiative and C-TPAT 
programs. Additionally, we have experienced comparable results from 
Centralized Examination Sites (CES) Nation-wide for over 15 years. The 
concept can work if given an opportunity and we understand that TSA is 
exploring this option. In all events, however, the cost must be low 
enough to enable small and medium-sized companies to compete against 
those who have a built-in advantage by virtue of the TSA pilot.
    Chairwoman Jackson Lee and Ranking Member Lungren, NCBFAA Indirect 
Air Carriers respect the 9/11 law. You have met, over time, with a 
large community of our members from the Houston area and know their 
commitment to the Nation's security. We support Congress' mandate and 
we support the Transportation Security Administration's Certified Cargo 
Screening Program. Adjustments however need to be made to ensure that 
goods flow freely yet securely through the airports and aboard 
passenger aircraft, while permitting those within our industry to 
compete for business. We think that your committee is the starting 
point for achieving this balance and we look forward to working with 
you in search of solutions.
    Thank you for your kind attention to our views.
           Attachment 1.--Letter From Hon. Nydia M. Velazquez
                                                       May 1, 2008.
The Honorable Edmund S. Hawley,
Administrator, Transportation Security Administration, East Building, 
        601 South 12th Street, Arlington, VA 22202-4220.

    Dear Administrator Hawley: Small businesses play a critical role in 
ensuring the security of our Nation. As such, I would like to get more 
information regarding the Transportation Security Administration's 
(TSA) development of the Certified Cargo Screening Program. TSA is 
required by the Implementing the 9/11 Act (Pub. L. 110-161) to screen 
50 percent of all cargo placed on passenger aircraft by February 2009 
and 100 percent of such cargo by August 2010. Phase One Deployment of 
the program has begun with a pilot in three metropolitan areas.
    The committee is concerned that small firms are not eligible to 
participate in the pilot program. I understand that TSA has selected 
participants using a volume benchmark with a minimum level that permits 
only the largest of air forwarding companies (known as ``indirect air 
carriers '') to participate. The pilot program appears to place small 
businesses at a competitive disadvantage because TSA is giving away or 
providing at a reduced cost the required screening equipment to 
participants. The committee has been informed that the screening 
equipment would remain the pilot participant's permanent property, 
while later participants in the Certified Cargo Screening Program would 
be required to spend hundreds of thousands of dollars to purchase their 
own equipment. The net effect of this plan could place small firms who 
cannot reach the volume levels required of pilot participants on an 
unlevel playing field. They would either need to purchase their own 
equipment or meet fees expected of air carriers conducting screening at 
the airport--a cost not faced by the large companies participating in 
the pilot.
    Small firms play an important role is securing our Nation. I urge 
you to structure the pilot program in a manner which does not place 
small businesses at a disadvantage.
            Sincerely,
                                           Nydia Velazquez,
                           Chairwoman, Committee on Small Business.

    Ms. Jackson Lee. Let me thank you for your testimony and 
the insight that you have given.
    Let me also make it very clear that we hope that all of you 
will be engaged with our staff, whatever your perspective may 
be. If we are to meet the timelines set by the legislation, 
mandated by law, signed by the President of the United States, 
still good law, then it will be important for us to have the 
insight that many of you have offered here today. So I know 
that some may have found their way to half of the staff. It is 
important that everyone meets with all of our staff members on 
both the majority and minority side. This legislation and 
mandate is not partisan. It is solution-based, and the only way 
we can have solutions is if we are hearing from both 
perspectives.
    With that in mind, I pose this question to Mr. Meenan and 
Mr. Fried in particular for you to comment on the plan that TSA 
has recently shared with us today and whether or not you think 
that plan is feasible, whether it is on track to meet the 
requirement specifically, the 50 percent screening of air cargo 
by February 2009, and what about the requirement to screen 100 
percent of air cargo by August 2010. Do you think it is 
challenging?
    Let me also acknowledge, Mr. Meenan, your comments. I agree 
with you about the plight and difficulty of the airline 
industry. Many of us have met with our hometown airlines. We 
are cognizant and we recognize these are very steep challenges.
    You might also comment on the relationship, if you will, 
the funding relationship which in the pilot seems to be 
discretionary with the sharing of funds.
    You heard us pose the question of the issue of asking how 
much TSA is asking to implement their plan, and I think it is 
unclear. We in Congress are prepared to make the hard 
decisions, and it is a hard decision because money is finite 
and therefore has to be prioritized. But we are pressuring TSA, 
as I indicated on the record, as my colleague asked the 
question--what is the amount of resources that legitimately are 
needed to get the task done?
    So I have added to my question, but I want you to focus on 
what your assessment was on what we heard today, and the 
feasibility of meeting the deadlines of February 2009 and then 
the deadline of 2010.
    Mr. Meenan.
    Mr. Meenan. Thank you, Chairwoman Jackson Lee. It is a 
complicated question. I think our testimony attempts to outline 
the steps we believe need to be taken.
    We obviously from the perspective of what the carriers are 
planning to do themselves, we need the approved equipment 
lists, we need the procedures, we need to know what is going to 
be expected of us to do the kind of screenings that the 
airlines will perform themselves.
    We also clearly recognize, and we think to get to the 50 
percent goal, that is important, those components are very 
important as part of that. Obviously, the faster we can advance 
the CCSP program, the better off we are in terms of being able 
to add still more cargo to the pile of screened cargo, if you 
will. But at this point, we really don't know how well advanced 
that is.
    We have heard the same testimony you heard. We heard the 
same kind of reports. But there has been no independent 
validation of all of that at this point. Clearly, the more 
resources that the TSA has to apply to this, the better off we 
all will be in the long run.
    I think one of the things that we believe is seriously 
lacking is attention to the security equipment development 
process, the pipeline, if you will, through the Office of 
Science and Technology.
    What we believe has happened there is there has been so 
much attention focused on passenger screening and that side of 
the equation, baggage screening, that a decision at some level 
has either consciously or unconsciously been made simply to let 
air cargo sort of float out there and somebody else will pick 
up that responsibility. Right now that looks like it is going 
to substantially fall on the shoulders of the airlines, and to 
an extent to the freight forwarders, although they will have an 
opportunity not to participate if they choose not to.
    At the end of the day, what this is all about is keeping 
our Nation's economy running as effectively as possible. What 
we want to see is as much of that screening done up the supply 
chain as it possibly can be done, with the necessary assurances 
that it is done properly.
    But the bottom bottom-line is we will simply not be able to 
carry cargo, and that is going to be a very damaging thing not 
just to the interests of the airline industry and its employees 
and the employees in the various districts around the country, 
but to all of the jobs that depend on that cargo moving freely 
and smoothly through the system. We think better screening 
technology is the place to start.
    Ms. Jackson Lee. Mr. Fried.
    Mr. Fried. Thank you, Chairwoman Jackson Lee.
    I would say I have been in this business for 27 years now 
and I spend a lot of time at airports, specifically at freight 
forwarding facilities and at airlines, and I would say that 
this is a good program. The Certified Cargo Screening Program 
is an effective method of screening cargo because it is going 
to push the security task into the supply chain getting 
shippers involved. That is smart, because at the airports, 
unfortunately, we have a real estate challenge. As Mr. Sammon 
said earlier, we have to start breaking down pallets and unit 
load devices on the piece level and start looking at every 
single piece. Even with technology, there will be some issues 
in finding the space to do it. Also, of course, as my colleague 
has just talked about, the airlines probably couldn't afford to 
complete the screening in a timely and efficient manner in 
order for us to make flights.
    That said, I would say the Certified Cargo Screening 
Program has got to be successful, and the way it can be 
successful is making sure that shippers understand what the 
program entails. It is a question of communication. It is a 
question of the TSA making sure that freight forwarders 
understand what it is about, and it is making sure that the TSA 
engages the shipping public, the people that give us the boxes.
    As far as the freight forwarders are concerned, in order 
for them to participate as certified cargo screening 
facilities, they will have to buy technology. As discussed 
earlier, it is expensive, and without Government assistance to 
purchase this technology, most of our members will not be able 
to afford to do so.
    So my thought is that we will make the screening deadline 
of 50 percent by February 2009 and we will do it through a 
number of ways, the TSA will do it through a number of ways, of 
course, the freight forwarding community assisting along the 
way.
    We think by that time we will have the CCSP pilot up and 
running, and they have involved a number of large freight 
shippers who move a lot of cargo through the gateways, such as 
JFK, Chicago, Los Angeles and Miami. These large forwarders 
handle I think approximately 200 pallets a year. So they do a 
lot of the shipping. In addition to that, you will have some 
CCSP shippers involved, the big customers, if you will, the big 
shippers. I also think that those forwarders who can pay for 
the equipment will start coming on-line as well.
    But I think for us to get in and meet the 100 percent 
deadline, it is going to take financial assistance from 
Congress in the form of many different tools. It could be 
grants, it could be tax credits, it could be a number of 
methods that I will leave up to more sophisticated financial 
people to decide for the time being.
    Ms. Jackson Lee. Let me ask, just to follow up very quickly 
on your point, are you getting sufficient guidance from TSA as 
we speak?
    Mr. Fried. We remain very active with TSA. We go over to 
meet with them frequently here in Washington and we are active 
in our rapport with Mr. Sammon and Mr. Kelly and his staff. The 
issue right now is there are a lot of unanswered questions 
regarding the CCSP, and we are waiting for this information.
    Ms. Jackson Lee. So your answer is, the term of art is, you 
are very active. Are you getting the kind of guidance that 
moves this program forward from TSA as we speak?
    Mr. Fried. We are getting limited guidance at this time.
    Ms. Jackson Lee. With respect to the crafting of the 
interim rule, has there been a meeting of stakeholders, or is 
there a format for there to be input as this rule is being 
crafted?
    Mr. Fried. Yes. As a matter of fact, we are expecting the 
Indirect Air Carrier Standard Security Program rewrite, which 
should--we have been told to expect it within a few weeks, and 
there will be a comment period thereafter, as there was a 
comment period for the Indirect Air Carrier Standard Security 
Program we are working under to this day.
    Ms. Jackson Lee. Well, you have certainly made yourself 
clear with respect to the resources that are needed. I think 
this committee made itself clear. We will look into that.
    Ms. Allen, you have a smaller community, small to medium-
sized businesses. What is the greatest obstacle for those that 
you represent in complying with and meeting the requirements of 
this program?
    Ms. Allen. Right now I would say funding is the largest 
issue for us and our inability to even participate in the pilot 
program so that we can avail ourselves of the information of 
the program, understand what the details of the pilot program 
are, and decide if that is really something that our membership 
would be interested in.
    We are concerned about our ability to compete with the 
larger forwarders who have been accepted into this program. We 
feel that right now they are going to have a competitive 
disadvantage. They already have an advantage by size and by 
volume of freight when they tender cargo to the aircraft, so we 
feel that this is another layer that they are going to be able 
to use to make sure that their freight gets loaded first on the 
airlines. Our members are going to be at the bottom of the 
pile, because we cannot screen our own freight. So we feel it 
extremely important that we have an opportunity to address that 
through a co-op or through other cargo security models.
    Ms. Jackson Lee. Certainly you would, I assume, respond 
affirmatively to suggest that the safety of the goods that you 
are forwarding are equally important as those of the large 
companies as well. Have you had any engagement or raised these 
points directly with TSA?
    Ms. Allen. We have. We have also aligned ourselves with the 
Airforwarders Association and in association with Mr. Fried 
have talked to the TSA on several occasions about some of our 
concerns.
    Ms. Jackson Lee. What has been the response?
    Ms. Allen. Their response is they feel that the program as 
it is now will meet the 50 percent deadline as set by Congress, 
and they will address the 100 percent after they meet the 50.
    We feel it is extremely important that they include our 
members in that second half of the screening program where 
essentially the rest of the cargo is coming to the airport, and 
it is going to be extremely important that our members are even 
engaged with the TSA through both the NCBFAA and the 
Airforwarders Association to ensure that the voice of the small 
and medium-sized forwarders who make up most of the companies 
that tender freight to the carriers are heard.
    Ms. Jackson Lee. Is that moving forward?
    Ms. Allen. In a limited way, yes.
    Ms. Jackson Lee. Well, let me make a commitment that we are 
going to look into it. I frankly believe we are going to review 
the legislation again, and I think there are some elements of 
the legislation, including this whole issue of foreign cargo, 
that have to be clarified. I certainly think it should be 
clarified on how we address the range of the industry, which 
includes, as I understand it, your representation of small and 
medium forwarders.
    What would you determine to be the average size in terms of 
the cargo that you all are transporting, the companies that you 
represent?
    Ms. Allen. Mostly small package freight. Our freight does 
not get tendered to the airlines in a palletized format. We are 
smaller companies, picking up one, two, maybe one pallet of 
cargo that gets tendered to a company that then either 
palletizes it or directly to the airline to palletize it there. 
We do have some palletized cargo, but certainly not the cookie 
sheets that was testified as to earlier. We simply don't have 
that volume of freight for the majority of our members.
    Ms. Jackson Lee. I assume your small and medium-sized 
companies, however, use large, medium and small airports?
    Ms. Allen. Absolutely.
    Ms. Jackson Lee. And you use the major carriers?
    Ms. Allen. Absolutely.
    Ms. Jackson Lee. So, in essence, if we were to use our 
imagination, even your small and medium-sized companies could 
be transporting a package that might do harm?
    Ms. Allen. Absolutely. We fully participate in the supply 
chain. We pick up cargo from the shippers, we transport it to 
our warehouses, we break it down, rebuild it, repackage it and 
tender it to the airlines, just as the larger forwarders do.
    Ms. Jackson Lee. Thank you very much.
    Captain, let me just comment and make note of the fact that 
I understand that Southwest Airlines screens 100 percent of its 
air cargo. Is that accurate?
    Mr. Onorato. Currently Southwest Airlines screens 60 
percent of the cargo loaded on their narrow-bodied aircraft, 
which is ahead of the mandate at this point. When asked, they 
stated they could screen 100 percent by September of this year.
    Ms. Jackson Lee. Well, how are they doing that? What has 
been the commitment that they have had to make to get that 
done?
    Mr. Onorato. They have just committed to following the 
program as it is dictated by the 9/11 Act, and they have 
purchased the trace detection technology and they use that to 
screen the package as it arrives at the airport and before they 
place it on the aircraft.
    Ms. Jackson Lee. You were here and listening to the 
testimony that talked about this issue of capacity. How does 
Southwest Airlines address the question of capacity, when we 
have heard that it may be a stumbling block as we move forward?
    Mr. Onorato. I think because it is a narrow-body operation, 
as is 96 percent of the flights in the country, you are getting 
smaller pieces of cargo delivered to the aircraft. So it is 
easier to piecemeal screen each package, whether it be physical 
screening, some type of technology application or with a canine 
inspection.
    The palletized and larger bulk cargo seems to be the 
sticking point that I have noted at this hearing today, and we, 
as Congressman Markey has also stated, have seen demonstrations 
of technology that could screen larger bulk cargo and 
palletized cargo. So there seems to be a stalling point here 
where we can't develop this technology or purchase this 
technology and get it to the airports to screen the pallets and 
the bulk cargo as it arrives.
    Ms. Jackson Lee. What you are saying is that Southwest 
Airlines as it arrives has an operation that screens?
    Mr. Onorato. Yes, ma'am.
    Ms. Jackson Lee. Is this trafficking that is going on both 
passenger flights, I assume?
    Mr. Onorato. It is in all passenger operations, so all the 
cargo transported on Southwest, yes, ma'am, is on a narrow-body 
passenger aircraft.
    Ms. Jackson Lee. So can you give us a sense of the kind of 
limitations that you have? You obviously are carrying 
passengers and cargo and luggage. So you have isolated space 
for cargo?
    Mr. Onorato. Yes, ma'am.
    Ms. Jackson Lee. Are you able to timely get that cargo 
screened and on time on airlines?
    Mr. Onorato. Yes, ma'am.
    Ms. Jackson Lee. And they made the investment how long ago?
    Mr. Onorato. As soon as the 9/11 Commission, since August 
of last year.
    Ms. Jackson Lee. Can you recollect the number of airports 
that Southwest Airlines flies into across the Nation?
    Mr. Onorato. We serve 63 different airports across the 
country.
    Ms. Jackson Lee. They range in size from small, medium and 
large?
    Mr. Onorato. From Los Angeles to Lubbock, Texas.
    Ms. Jackson Lee. First of all, let me state for the record, 
let me compliment Southwest Airlines. It may be a model that is 
worth viewing a little bit more closely than TSA might have 
viewed it. I also want to make note of the fact, as I have 
spoken to just air cargo pilots, it is a small population I 
assume that we have not paid much attention to, and I can 
assure you they are enthusiastic about the idea of air cargo 
screening.
    They fly the Nation's airlines, or fly at least the 
Nation's flight fleet for their cargo companies, to a certain 
extent unnoted and unnoticed, and they fly huge amounts of 
cargo, and prior to this legislation, unscreened. So the fact 
that Southwest Airlines has given us an example it seems that 
we can find a ready way to make this system work.
    My question would be, do you have an assessment of the 
kinds of challenges that you are facing, if you will, by--
Southwest Airlines is facing through this process that you 
have?
    Mr. Onorato. I believe that they are moving rather quickly 
ahead of the mandate to screen 100 percent of their cargo, so 
it has strictly been an example of their commitment to the 
project to adhere to the 9/11 Act as it has been written and to 
screen the cargo, to enhance the security for their passengers 
and their crews and their fleet. So they have made that 
commitment, and they seem to be ahead of the curve as far as 
adhering to the law.
    Ms. Jackson Lee. Absolutely they are. Southwest Airlines is 
financing it themselves?
    Mr. Onorato. Yes, ma'am.
    Ms. Jackson Lee. Are you prepared to answer on the record, 
do you think that adopting first 50 percent and then 100 
percent screening of all air cargo is the way the United States 
and this Government should go?
    Mr. Onorato. Yes, ma'am. Absolutely. CAPA and our 23,000 
pilots have always espoused that cargo security is very 
important, and the curb-to-cockpit view of aviation security, 
our pilots want the cargo as well as the passengers, their 
checked bags and the baggage that is loaded underneath, to be 
100 percent screened, so that we can assure the safety of the 
traveling public.
    Ms. Jackson Lee. Some would argue, Captain, that we have 
spent so much money on aviation that we have left other modes 
of transportation to their own devices. How would you respond 
to that?
    Mr. Onorato. I think it is only natural that we focus on 
aviation because our enemies seem to focus on aviation as well. 
They are certainly going to spread more terror and get more 
visibility by attacking aviation, and the impact it can have on 
the transportation sector and the Gross National Product of our 
country. So it has an economic impact as well as a terror 
impact.
    Ms. Jackson Lee. Well said. What would be your answer--you 
heard Mr. Meenan, I think, make a very important point about 
the difficulties of the market, the economy, particularly with 
our airlines. Is there some suggestion evidenced by what 
Southwest Airlines has done that can be helpful to moving the 
other airlines closer to accomplishing these goals?
    Mr. Onorato. Certainly better management of their schedule 
and efficiency and their funding and their commitment to 
security, as Southwest Airlines has done. I think this is the 
industry, this is the atmosphere we are in, and these are the 
commitments that we have to make, and Southwest has set that 
example.
    Ms. Jackson Lee. I thank you for that. Would you believe 
that this is a point as well that the Government needs to step 
in to ensure that we complete our task timely?
    Mr. Onorato. Yes, ma'am. Absolutely. We talked about 
funding earlier and the possible shortfalls. If there needs to 
be more funding, then so be it. The technology needs to be 
accelerated to the shipping areas so that the palletized and 
bulk cargo loaded on the larger aircraft can be properly 
screened as well.
    Ms. Jackson Lee. Thank you very much, Captain.
    Mr. Meenan, you wanted to respond. Would you respond to 
this question as to what improvements can be made? 
Specifically, you highlighted the difficulty in the technology, 
the progress of the technology and the focus on passenger 
screening technology. I am troubled by that as well.
    What suggestions do you offer to expedite, if you will, the 
reviewing of the technology, and do you think it is possible 
for us to have the necessary sophisticated technology by 2009 
and 2010? Mr. Meenan?
    Mr. Meenan. I believe that it is challenging to have that 
technology, but the fact is we have been slow-rolling the 
investment in R&D there. We could do things like offer 
incentives to manufacturers to bring forward some of the 
products that I believe you have been receiving correspondence 
from some of the vendors out there.
    There are lots of things that the Government could do to 
incentivise the production of newer technology, but right now, 
as I say, the focus has been more on passenger and baggage.
    Getting back to Southwest Airlines, which is a member of 
our association, I just want it to be clear for the record that 
the other carriers are very much looking at the same kinds of 
uses of trace technology that Southwest is using.
    It is important to note, however, that the Southwest cargo 
business is significantly different than a lot of the cargo 
businesses conducted by other carriers in our membership at 
this point. Many of them operate both narrow-body and wide-body 
fleets. They don't necessarily know when the cargo is arriving, 
what kind of airplane it is going to end up being transported 
on. There are many variations. We have a member right now who 
operates narrow-body, heavy cargo fleets--narrow-body heavy 
cargo fleets that actually accepts palletized cargo.
    So there are lots of variables that make it somewhat easier 
at this point for the one carrier who operates the way 
Southwest does than it is for the others. But they are all 
following in that direction right now.
    Ms. Jackson Lee. So let me try to be clear. What you are 
suggesting is there is disparate aircraft on a number of your 
members' airlines, if you will, and it makes it difficult to 
get a uniform approach?
    Mr. Meenan. That is correct. Right now we have carriers 
that operate in some cases an all-cargo aircraft, as well as 
their passenger fleet. We have other carriers who operate 
narrow-body aircraft along with wide-body aircraft, which 
creates a great variation in terms of how you receive cargo. 
You don't necessarily know when the cargo comes in the door 
what kind of aircraft it is going to be carried on.
    The TSA at this point has not made clear what the 
procedures are. For example, Southwest is using trace 
technology at this point that, at least as we understand it, 
they have an arrangement with TSA that has not been extended to 
the rest of the industry at this point. We are waiting, as I 
said in my testimony, for the release of what is the approved 
technology, what are the approved procedures. We are told those 
are in the pipeline, but they have not yet actually been 
produced by TSA.
    So there are lots of unanswered questions at this point 
that make it perhaps more challenging for a carrier operating 
one of these more diverse cargo operations than it would be for 
Southwest. That is not to detract in any way, but I just wanted 
to be clear that there are reasons that one carrier may be 
ahead of others at this point in time.
    Ms. Jackson Lee. I wouldn't suspect that you are trying to 
detract from the great work that Southwest Airlines has done.
    Mr. Meenan. We love Southwest Airlines.
    Ms. Jackson Lee. They are a good role model for others. 
Many of us have hometown airlines which we promote and have 
great respect for, such as the hometown airline of Houston, 
Texas. But we are trying to look at ways of being helpful.
    What I heard in your comments is that the guidance from TSA 
has not come as fluidly as you would like. Is that my 
understanding?
    Mr. Meenan. We have been told that those decisions are in 
the pipeline. We are anticipating their release very soon. But, 
as I said earlier----
    Ms. Jackson Lee. What does ``very soon'' to you mean?
    Mr. Meenan. We would like them tomorrow. I am not sure that 
we are going to get them tomorrow.
    Ms. Jackson Lee. You surmise that ``very soon'' in TSA 
language means when?
    Mr. Meenan. It could be later this summer. We really don't 
know at this point. But that will greatly facilitate 
decisionmaking by carriers as to what kind of equipment they 
should acquire, how they should go about employing that 
equipment and so forth.
    Ms. Jackson Lee. Do you have resources overseas to include 
goods coming in from overseas on your carriers?
    Mr. Onorato. The carriers do have some procedures that they 
follow within their own security programs overseas, yes.
    Ms. Jackson Lee. But are you utilizing the requirements of 
the 9/11 Act to ensure that there is a screening process on 
cargo coming in from overseas?
    Mr. Onorato. Right now, we are complying with the 
guidelines we have received from TSA as to how those security 
procedures are to be----
    Ms. Jackson Lee. Which you interpret to mean what?
    Mr. Onorato. There are security procedures in place for 
cargo that comes into the United States from overseas, but they 
are not necessarily--as we heard earlier today, they may not be 
consistent with what I believe some of the members expect as a 
result of the 9/11 Act.
    Ms. Jackson Lee. Mr. Fried, same question regarding foreign 
cargo.
    Mr. Fried. Well, most of our members have an international 
presence, so that the Airforwarders Association focuses 
primarily on domestic U.S. forwarders. I would say that----
    Ms. Jackson Lee. Most of them have--I am sorry. I did not 
hear you. Is your microphone on?
    Mr. Fried. My apologies. Most of our members have an 
international presence. They have international offices. 
Although we represent primarily domestic voters, we are 
becoming more international in scope.
    I would say that, yes, there is a good deal of cargo coming 
in from overseas and entering the United States ports; and our 
members abide by the local rules and regulations of those 
countries in tendering cargo.
    Ms. Jackson Lee. But do you believe that the reach of the 
9/11 Act, as interpreted by your members, reaches for the 
foreign cargo that you may be bringing into the United States?
    Mr. Fried. I would say, up to now, that has not been 
specifically addressed by TSA. Our emphasis with TSA up to now 
has been primarily on cargo transiting within the United States 
and exiting the United States.
    Ms. Jackson Lee. Well, I think, as we have heard by the 
earlier testimony, it is certainly an issue that we need to 
clarify.
    Mr. Fried. I would agree. Cargo has to be safe for 
everyone.
    Ms. Jackson Lee. Ms. Allen, I didn't know if I heard this 
from you, are you engaged with TSA, your organization 
separately, or are you working with some of the collaborative 
organizations there?
    Ms. Allen. In both venues, ma'am.
    If I could speak to the inbound cargo issue for a moment. 
We are a national customs brokers and freight forwarders 
association; and I can answer, when we look at inbound and 
outbound cargo, generally we see that as two different shops. 
Our freight forwarders handle the domestic and outbound cargo, 
and our customs brokerage members and even those entities that 
have both customs brokers and freight forwarders do handle the 
inbound cargo on the customs brokerage side with Customs and 
Border Protection and do certainly cooperate with them in their 
screening methods on the inbound cargo.
    So I can say that we view that as two separate issues at 
this time; and, yes, we do have involvement with the TSA 
directly.
    Ms. Jackson Lee. I think there is a distinction between a 
package coming and it being an American Airline aircraft who is 
loaded with foreign cargo versus the individual packages that 
may be the business of small to medium-sized companies; and I 
think we need to look at that separately in how we distinguish 
and work with your set of issues, as well as the large 
companies' issues that actually--I assume that your companies 
don't have aircraft?
    Ms. Allen. That would be correct.
    Ms. Jackson Lee. Right. I assume that between Mr. Meenan 
and Mr. Fried you are representing companies with aircraft?
    Mr. Fried. Primarily my members are what we call non-asset-
based. We primarily do not have aircraft. We have, I believe, 
one member that does operate a fleet. But we have over 200 
members now.
    Ms. Jackson Lee. Mr. Meenan.
    Mr. Meenan. Our members all have aircraft, fewer aircraft, 
but they have aircraft.
    Ms. Jackson Lee. So you have nothing to share with Mr. 
Fried or Ms. Allen.
    Mr. Meenan. I am tempted to say he can have them.
    Ms. Jackson Lee. Let me thank the witnesses.
    I am going to pose a question, and I would appreciate it if 
you all would submit it in writing. Because I think it warrants 
a more thoughtful answer than what you might be able to do in a 
the short period of time that we have.
    I would like to have answered, as TSA moves forward through 
the process of 2009 and 2010 with screening plans for air cargo 
facility, what should they keep in mind? What should be the 
additional aspects of their work? What additional assistance 
should they have in implementing the certified cargo screening 
program that would be helpful to each of you?--probably 
excluding the Captain. But we would welcome the thoughts of 
Southwest Airlines; and we would certainly welcome an emphasis 
of small to medium-sized companies, Ms. Allen, if you would.
    I would also appreciate if Mr. Meenan and Mr. Fried would 
answer the question of capacity on the airport or off the 
airport grounds as we try to define how effective and efficient 
we can move the cargo without inhibiting commerce as well as 
the traveling public.
    Let me express my appreciation for all of the witnesses. It 
has been a long hearing, but I think it has been an important 
oversight hearing that allows us to answer the questions that 
we still, I believe, have unanswered.
    I want to thank Captain Onorato for his testimony on behalf 
of Southwest Airlines. I also want to express an appreciation 
for Mr. Meenan and Mr. Fried and Ms. Allen.
    As well, I think it is important to note that we are going 
to continue to have oversight on this issue. Because we are a 
work in progress, and it is very important to note on the 
record that we are less than 6 months out or about 6 months out 
of February, 2009, which makes this an urgent matter, and that 
is why we held this hearing.
    So I want to thank the witnesses again for their valuable 
testimony, and I want to thank the Members of this committee 
for their questions. The Members of the subcommittee may have 
additional questions for the witnesses. We ask that you respond 
to them expeditiously in writing. I have offered my question on 
the record.
    Hearing no further business, the subcommittee now stands 
adjourned.
    [Whereupon, at 5:58 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
